<html>
<title> - THE COST OF DOING NOTHING: MARITIME INFRASTRUCTURE VULNERABILITIES IN AN EMERGING ARCTIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 THE COST OF DOING NOTHING: MARITIME INFRASTRUCTURE VULNERABILITIES IN 
                           AN EMERGING ARCTIC

=======================================================================

                                (116-14)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
             
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                                 ______
                          

                  U.S. GOVERNMENT PUBLISHING OFFICE 
 39-647 PDF              WASHINGTON : 2020                             
                             
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair
ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland             Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
    Georgia                          JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
    Chair                            BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California
                                ------                                

        Subcommittee on Coast Guard and Maritime Transportation

                 SEAN PATRICK MALONEY, New York, Chair
ELIJAH E. CUMMINGS, Maryland         BOB GIBBS, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
STACEY E. PLASKETT, Virgin Islands   RANDY K. WEBER, Sr., Texas
JOHN GARAMENDI, California           BRIAN J. MAST, Florida
ALAN S. LOWENTHAL, California        MIKE GALLAGHER, Wisconsin
ANTHONY G. BROWN, Maryland           CAROL D. MILLER, West Virginia
CHRIS PAPPAS, New Hampshire, Vice    SAM GRAVES, Missouri (Ex Officio)
    Chair
PETER A. DeFAZIO, Oregon (Ex 
    Officio)
    
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Sean Patrick Maloney, a Representative in Congress from the 
  State of New York, and Chair, Subcommittee on Coast Guard and 
  Maritime Transportation:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Bob Gibbs, a Representative in Congress from the State of 
  Ohio, and Ranking Member, Subcommittee on Coast Guard and 
  Maritime Transportation:

    Opening statement............................................     3
    Prepared statement...........................................     3
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     4
    Prepared statement...........................................     5

                               WITNESSES
                                Panel 1

Admiral Charles W. Ray, Vice Commandant, U.S. Coast Guard:

    Oral statement...............................................     6
    Prepared statement...........................................     7

                                Panel 2

Rear Admiral Shepard M. Smith, Director, Office of Coast Survey, 
  National Oceanic and Atmospheric Administration:

    Oral statement...............................................    27
    Prepared statement...........................................    29
Colonel Phillip J. Borders, Commander, Alaska District, U.S. Army 
  Corps of Engineers:

    Oral statement...............................................    33
    Prepared statement...........................................    35

                                Panel 3

Admiral Thad W. Allen, U.S. Coast Guard (Ret.):

    Oral statement...............................................    41
    Prepared statement...........................................    43
Heather A. Conley, Senior Vice President for Europe, Eurasia, and 
  the Arctic, Center for Strategic and International Studies:

    Oral statement...............................................    44
    Prepared statement...........................................    46
Abbie Tingstad, Ph.D., Senior Physical Scientist, The RAND 
  Corporation:

    Oral statement...............................................    50
    Prepared statement...........................................    52
Hon. Mead Treadwell, Cochair, Polar Institute, Woodrow Wilson 
  Center:

    Oral statement...............................................    58
    Prepared statement...........................................    59

                       SUBMISSIONS FOR THE RECORD

Post-hearing clarification of remarks from U.S. Coast Guard......    13
Statement of Willie Goodwin, Chairman, Arctic Waterways Safety 
  Committee, Submitted for the Record by Hon. Larsen.............    18
Report by Council on Foreign Relations, ``Arctic Imperatives: 
  Reinforcing U.S. Strategy on America's Fourth Coast,'' 
  Submitted for the Record by Hon. Maloney.......................    42

                                APPENDIX

Questions from Hon. Sean Patrick Maloney for Admiral Charles W. 
  Ray, Vice Commandant, U.S. Coast Guard.........................    75
Questions from Hon. Rick Larsen for Admiral Charles W. Ray, Vice 
  Commandant, U.S. Coast Guard...................................    79
Question from Hon. Alan S. Lowenthal for Admiral Charles W. Ray, 
  Vice Commandant, U.S. Coast Guard..............................    81
Questions from Hon. Sean Patrick Maloney for Rear Admiral Shepard 
  M. Smith, Director, Office of Coast Survey, National Oceanic 
  and Atmospheric Administration.................................    82
Questions from Hon. Rick Larsen for Rear Admiral Shepard M. 
  Smith, Director, Office of Coast Survey, National Oceanic and 
  Atmospheric Administration.....................................    83
Questions from Hon. Alan S. Lowenthal for Rear Admiral Shepard M. 
  Smith, Director, Office of Coast Survey, National Oceanic and 
  Atmospheric Administration.....................................    84
Questions from Hon. Sean Patrick Maloney for Colonel Phillip J. 
  Borders, Commander, Alaska District, U.S. Army Corps of 
  Engineers......................................................    84
Questions from Hon. Rick Larsen for Colonel Phillip J. Borders, 
  Commander, Alaska District, U.S. Army Corps of Engineers.......    84
Questions from Hon. Sean Patrick Maloney for Admiral Thad W. 
  Allen, U.S. Coast Guard (Ret.).................................    84
Question from Hon. Alan S. Lowenthal for Admiral Thad W. Allen, 
  U.S. Coast Guard (Ret.)........................................    85
Questions from Hon. Anthony G. Brown for Admiral Thad W. Allen, 
  U.S. Coast Guard (Ret.)........................................    85
Questions from Hon. Sean Patrick Maloney for Heather A. Conley, 
  Senior Vice President for Europe, Eurasia, and the Arctic, 
  Center for Strategic and International Studies.................    86
Questions from Hon. Rick Larsen for Heather A. Conley, Senior 
  Vice President for Europe, Eurasia, and the Arctic, Center for 
  Strategic and International Studies............................    86
Question from Hon. Alan S. Lowenthal for Heather A. Conley, 
  Senior Vice President for Europe, Eurasia, and the Arctic, 
  Center for Strategic and International Studies.................    87
Questions from Hon. Anthony G. Brown for Heather A. Conley, 
  Senior Vice President for Europe, Eurasia, and the Arctic, 
  Center for Strategic and International Studies.................    87
Questions from Hon. Sean Patrick Maloney for Abbie Tingstad, 
  Ph.D., Senior Physical Scientist, The RAND Corporation.........    87
Questions from Hon. Alan S. Lowenthal for Abbie Tingstad, Ph.D., 
  Senior Physical Scientist, The RAND Corporation................    88
Questions from Hon. Anthony G. Brown for Abbie Tingstad, Ph.D., 
  Senior Physical Scientist, The RAND Corporation................    89
Questions from Hon. Sean Patrick Maloney for Hon. Mead Treadwell, 
  Cochair, Polar Institute, Woodrow Wilson Center................    89
Question from Hon. Alan S. Lowenthal for Hon. Mead Treadwell, 
  Cochair, Polar Institute, Woodrow Wilson Center................    90
Questions from Hon. Anthony G. Brown for Hon. Mead Treadwell, 
  Cochair, Polar Institute, Woodrow Wilson Center................    90
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              May 8, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Coast Guard and Maritime 
Transportation
    FROM:   Staff, Subcommittee on Coast Guard and Maritime 
Transportation
    RE:       Hearing on ``The Cost of Doing Nothing: Maritime 
Infrastructure Vulnerabilities in an Emerging Arctic.''

                                PURPOSE

    The Subcommittee on Coast Guard and Maritime Transportation 
will hold a hearing entitled ``The Cost of Doing Nothing: 
Maritime Infrastructure Vulnerabilities in an Emerging Arctic'' 
on Wednesday, May 8, 2019, at 2:00 p.m., in 2167 Rayburn House 
Office Building to examine the findings and recommendations of 
the recent report by the U.S. Committee on the Marine 
Transportation System (CMTS) entitled ``Revising Near-Term 
Recommendations to the Prioritize Needs in the U.S. Arctic.'' 
The Subcommittee will hear testimony from the U.S. Coast Guard 
(Coast Guard or Service), the Army Corps of Engineers (Corps), 
the National Oceanic and Atmospheric Administration (NOAA), and 
experts on Arctic infrastructure.

                               BACKGROUND

    The United States is an Arctic Nation. The U.S. Arctic, as 
defined in statute,\1\ encompasses U.S. territory north of the 
Arctic Circle with over 46,600 miles (75,000 km) of shoreline 
in Alaska, including the Aleutian Islands.\2\ Three Arctic 
seas--the Bering, the Chukchi, and the Beaufort--border Alaska; 
the U.S. Arctic Exclusive Economic Zone contains 568,000 square 
nautical miles (SNM), of which less than half is considered by 
NOAA to be ``navigationally significant.'' NOAA has designated 
38,000 SNM of the navigationally significant areas as Arctic 
survey priority locations, and estimates that it could take up 
to 25 years to conduct modern hydrographic surveys in the 
priority locations if resources remain at their current 
level.\3\
---------------------------------------------------------------------------
    \1\ The Arctic Research and Policy Act of 1984, as amended (Public 
Law 98-373); The Arctic region is the area north of the Arctic Circle, 
North Latitude 66.5622+. The Arctic Ocean dominates the Polar region, 
covering six million square miles (15.6 million square kilometers). 
Arctic temperatures range from an average winter temperature of -40+ F 
(-40+ C) to an average summer temperature just under 32+ F (0+ C).
    \2\ Alaska ShoreZone: Mapping over 46,000 Miles of Coastal Habitat. 
(2018) NOAA, Office of Response and Restoration, sourced from https://
response.restoration.noaa.gov/about/media/alaska-shorezonemapping-over-
46000-miles-coastal-habitat.html on October 10, 2018.
    \3\ NOAA National Ocean Service, https://oceanservice.noaa.gov/
economy/arctic/, accessed May 21, 2018.
---------------------------------------------------------------------------
    Historically these seas are frozen for more than half the 
year, restricting the Arctic maritime season to June through 
October in a typical year, and limiting unaided navigation to 
an even shorter period. However, this pattern appears to be 
changing as ice-diminished conditions become more extensive 
during the summer months. On September 16, 2012, Arctic sea ice 
reached its lowest coverage extent then recorded, subsequently 
paving the way for the longest Arctic navigation season on 
record.\4\ Ice coverage in 2019 tied with 2007 as the joint 
seventh smallest winter maximum in the 40-year satellite 
record; ice coverage in 2017 and 2018 have been the first and 
second smallest on record, respectively.\5\
---------------------------------------------------------------------------
    \4\ Jeffries, M. O., J. A. Richter-Menge and J. E. Overland, Eds., 
2012: Arctic Report Card 2012; see https://www.bbc.com/news/science-
environment-20454757
    \5\ See https://nsidc.org/arcticseaicenews/2019/03/arctic-sea-ice-
maximum-ties-for-seventh-lowest-in-satellite-record/
---------------------------------------------------------------------------
    The melting of Arctic sea ice raises the possibility of far 
shorter voyages and substantial cost savings for ocean carriers 
sailing between major trading blocs (i.e., Russia, northern 
European nations, Asian/Pacific nations, and the United States 
and Canada). In 2018, Russian President Vladimir Putin signed a 
decree ordering an annual Northern Sea Route cargo goal of 80 
million tons a year starting in 2024.\6\ While present cargo 
ship traffic in the Arctic is mostly regional, not trans-
Arctic, the ramifications could extend far beyond the region if 
the Arctic were to become a viable shipping route.
---------------------------------------------------------------------------
    \6\ See https://thebarentsobserver.com/en/arctic/2018/05/its-order-
kremlin-shipping-northern-sea-route-increase-80-million-tons-2024, 
accessed April 17, 2019.
---------------------------------------------------------------------------
    In addition to allowing for more vessel transits through 
the region, rising temperatures in the Arctic will likely 
enable more exploration for oil, gas, and minerals. Melting 
permafrost could pose challenges to onshore exploration 
activities. Increased oil and gas exploration, shipping, and 
cruise tourism in the Arctic will likely increase the risk of 
maritime accidents and pollution in the region. Effective 
strategies for cleaning up oil spills in ice-covered waters 
have yet to be developed and remain a subject of industry 
research and testing.

THE POLAR CODE AND ARCTIC SOVEREIGNTY

    International cooperation in the Arctic is facilitated 
largely through the Arctic Council, established in 1996. The 
Council is made up of the eight Arctic nations (Canada, 
Denmark, Finland, Iceland, Norway, Russia, Sweden, and the 
United States), and 13 non-Arctic Nations with observer 
status.\7\ The Council is a consensus-based, intergovernmental 
forum that works to promote environmental, social, and economic 
aspects of sustainable development in the Arctic. Iceland 
chairs the council until 2021.
---------------------------------------------------------------------------
    \7\ See http://www.arctic-council.org/index.php/en/about-us/arctic-
council/observers, accessed May 21, 2018.
---------------------------------------------------------------------------
    In 2009 the Arctic Council called upon the International 
Maritime Organization (IMO) to formulate and adopt the 
International Code for Ships Operating in Polar Waters, 
referred to as the Polar Code. The Polar Code went into effect 
on January 1, 2017, and enacts mandatory requirements intended 
to improve vessel safety and prevent pollution from vessels 
transiting in the Arctic, including ship construction, 
navigation, crew training, and ship operation.\8\ The Code 
applies to passenger and cargo ships of 500 gross tons or more 
engaged in international voyages.
---------------------------------------------------------------------------
    \8\ ``Polar Code.'' Polar Code, International Maritime 
Organization, 2019, available at www.imo.org/en/MediaCentre/HotTopics/
polar/Pages/default.aspx.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Figure 1. Vessel transits in the U.S. Coast Guard's D17 Arctic area of 
concern. The ``D17 Arctic area of concern'' is defined as an area north 
 of the Bering Strait to the North Pole, east into the Canadian Arctic 
 to Banks Island and west into Russia past the Russian port of Pevek. 
 Source: Modified with data provided by the U.S. Coast Guard and from 
   Figure 5 in the U.S. Coast Guard. Port Access Route Study: In the 
 Chukchi Sea, Bering Strait, and Bering Sea. Preliminary Findings. 23 
    December 2016. Docket Number USCG-2014-0941 and USCG-2010-0833.

U.S. COAST GUARD ARCTIC ASSETS

    While several U.S. agencies have a physical presence and 
substantial interests in the Arctic, the Coast Guard's 
experience, material assets, and installations located 
throughout Alaska establish it as a key presence in the region. 
The Coast Guard's significant presence in Alaska is anchored by 
the Seventeenth District offices in Juneau and the Service's 
largest command, Air Station Kodiak.\9\ In addition to 
continuous operations from year-round facilities throughout the 
state, the Coast Guard conducts seasonal operations, as part of 
its Operation Arctic Shield, in locations such as Kotzebue, 
Nome, and Utqiagvik (formerly Barrow).\10\ However, with no 
assets permanently stationed above the Arctic Circle the 
Service's seasonal presence includes employing mobile command 
and control platforms such as large cutters and ocean-going 
ice-strengthened buoy tenders, and establishing seasonal air 
and communications capabilities by leasing facilities. These 
mobile and seasonal capabilities facilitate search and rescue, 
maritime border security, intelligence gathering for maritime 
domain awareness, emergency response, and marine environmental 
protection and law enforcement.
---------------------------------------------------------------------------
    \9\ The 17th District encompasses over 3,853,500 sq. miles and over 
47,300 miles of shoreline throughout Alaska and the Arctic.
    \10\ https://www.pacificarea.uscg.mil/Our-Organization/District-17/
17th-District-Units/Air-Station-Kodiak accessed April 18, 2018.
---------------------------------------------------------------------------
    Since 2012, the Coast Guard has implemented Arctic Shield 
operations to perform Coast Guard missions, broaden 
partnerships, and enhance and improve preparedness, prevention, 
and response capabilities. For example, the Service deployed a 
number of assets as part of its Arctic Shield 2017 operations 
including: Coast Guard Cutter (CGC) HEALY, a medium icebreaker; 
CGC SHERMAN, a high endurance cutter; CGC ALEX HALEY, a medium 
endurance cutter; CGC MAPLE, a seagoing buoy tender; and two 
Coast Guard MH-60 Jayhawk helicopters from Air Station Kodiak, 
Alaska. Arctic Shield 2017 included Operation Arctic Guardian, 
an oil spill exercise near Utqiagvik, Alaska, engagement with 
nine remote Alaskan villages, a historic transit of the 
Northwest Passage by CGC MAPLE and joint operations with the 
Royal Canadian Navy, as well as the completion of 28 search and 
rescue cases that resulted in 20 lives saved. Compared to 
Russia's 46-vessel icebreaker fleet, with 12 more ships under 
construction,\11\ the U.S. Coast Guard is forced to stretch 
assets and capabilities to secure a wide mission set with 
limited resources.
---------------------------------------------------------------------------
    \11\ Ronald O'Rourke, Congressional Research Service. Coast Guard 
Polar Security Cutter (Polar Icebreaker) Program: Background and Issues 
for Congress. Updated March 1, 2019.
---------------------------------------------------------------------------
    A decade-long effort to provide the United States with the 
capabilities necessary for assured year-round access to the 
polar regions has recently found footing in Congress, and 
substantial progress has been made to deliver by 2024 the 
Nation's first new heavy icebreaker in more than 40 years. The 
Coast Guard and Navy have established a Joint Program Office to 
capitalize on experience and best practices from both Services. 
In FY 2019, Congress appropriated an additional $675 million to 
fund the detail design and construction of a new heavy 
icebreaker, the Polar Security Cutter. On April 23, 2019, the 
Coast Guard awarded a $745.9 million fixed-price incentive-firm 
contract to VT Halter Marine Inc., a Pascagoula, Mississippi 
shipyard, for the construction of the first icebreaker with 
options to extend the contract for two additional vessels. The 
construction of the third icebreaker will most likely provide a 
dedicated Arctic asset. The primary mission of Polar Security 
Cutters 1 and 2 will be to take over the Coast Guard's existing 
responsibilities in the Antarctic to ensure a self-rescuing 
capability.
    While much of the Nation's focus regarding the Arctic in 
recent years has been on the critical need for new heavy 
icebreakers, new vessels are far from the only need in the 
region. A report conducted by the Homeland Security Operational 
Analysis Center identified four major gaps in Coast Guard 
Arctic Capabilities including unreliable communications, lack 
of adequate maritime domain awareness, scarcity of available 
assets (especially ice-resistant air support and icebreakers) 
and supporting infrastructure, and institutional difficulty to 
identify, articulate, and close capability gaps.\12\ The report 
states that if these capability gaps are not closed by the 
2030s, the Coast Guard risks facing substantial vulnerabilities 
in several of its missions in the Arctic including search and 
rescue, marine safety, ice operations, marine environmental 
protection, and ports, waterways, and coastal safety.\13\
---------------------------------------------------------------------------
    \12\ Homeland Security Operational Analysis Center (2018) 
Identifying Potential Gaps in the U.S. Coast Guard Arctic Capabilities 
[https://doi.org/10.7249/RR2310].
    \13\ Ronald O'Rourke, Congressional Research Service. Changes in 
the Arctic: Background & Issues for Congress. April 24, 2018.
---------------------------------------------------------------------------
    The Coast Guard's ability to exercise both military and 
civil authorities is uniquely suited to address the inter-
jurisdictional challenges of the Arctic. In its revised Arctic 
Strategic Outlook, released April 2019,\14\ the Coast Guard 
highlights three areas of necessary improvement to secure 
mission success: enhancing capability through asset 
acquisition, improved communications infrastructure, and Arctic 
Domain Awareness; strengthening rules-based order to establish 
Arctic maritime norms; and adapting the Coast Guard mission set 
to the Arctic through new practices and technologies. These 
conclusions generally address capability gaps identified in a 
2016 GAO study.\15\ The Coast Guard must adapt to enforce 
evolving regulatory frameworks for maritime activity in the 
Arctic and a changing strategic context, and will do so by 
forming new partnerships to promote rule of law.
---------------------------------------------------------------------------
    \14\ United States Coast Guard Arctic Strategy (Washington, D.C.: 
April 2019).
    \15\ U.S. Government Accountability Office (2016) Arctic Strategy 
Is Underway, but Agency Could Better Assess How Its Actions Mitigate 
Known Arctic Capability Gaps.
---------------------------------------------------------------------------

ARCTIC INFRASTRUCTURE CHALLENGES

    Numerous governmental and academic reports have identified 
infrastructure and operational challenges to maritime 
transportation in the U.S. Arctic. Liabilities mentioned 
include limited satellite coverage and architecture to support 
voice and data communications, the lack of a deep-draft port 
(i.e., depths greater than 35 feet), hazardous weather and ice 
conditions, and the lack of channel marking buoys and other 
floating visual aids to navigation, which are not possible due 
to continuously moving ice sheets.\16\ In addition, to ensure 
safe and efficient maritime transportation in the region, it is 
necessary to conduct surveys to improve nautical charts, 
improve communications capabilities, improve weather 
forecasting and modeling, construct a deep-draft U.S. Arctic 
port, and develop community and regional emergency response 
networks in preparation for vessel and aircraft accidents and 
environmental damage related to increased ship traffic and 
industrial development.
---------------------------------------------------------------------------
    \16\ Arctic Council (2009) Arctic Marine Shipping Assessment; U.S. 
White House (2013) National Strategy for the Arctic Region; U.S. 
Government Accountability Office (2014) Maritime Infrastructure: Key 
Issues Related to Commercial Activity in the U.S. Arctic over the Next 
Decade; Alaska Arctic Policy Commission (2015) Final Report; U.S. 
Committee on the Marine Transportation System (2016) A Ten-Year 
Prioritization of Infrastructure Needs in the U.S. Arctic; Council on 
Foreign Relations (2017) Arctic Imperatives, Reinforcing U.S. Strategy 
on America's Fourth Coast; Center for Strategic and International 
Studies (2017) Maritime Futures, the Arctic and the Bering Strait 
Region.
---------------------------------------------------------------------------
    In addition to known infrastructure requirements, the Coast 
Guard is exploring the need for the creation of new vessel 
routing measures to reduce the risk of marine casualties and 
increase the efficiency and predictability of vessel traffic in 
the U.S. Arctic.\17\ The Coast Guard is also conducting several 
Arctic-focused research projects in collaboration with academia 
at the Arctic Domain Awareness Center, including methodologies 
to minimize environmental damage from spilled oil in extreme 
cold, enhanced navigational capabilities in the Arctic, 
establishing exposure limits for Search and Rescue team members 
in extreme cold, and developing a classification system of ice 
conditions.\18\
---------------------------------------------------------------------------
    \17\ U.S. Coast Guard. Port Access Route Study: In the Chukchi Sea, 
Bering Strait, and Bering Sea. Preliminary Findings. 23 December 2016. 
Docket Number USCG-2014-0941 and USCG-2010-0833.
    \18\ U.S. Coast Guard. Acquisition Directorate. Research, 
Development, Test & Evaluation. FY18 RDT&E Project Portfolio. March 
2018. Examples: Next Generation Arctic Navigational Safety Information 
System (proj #6211), Arctic Operations Support (proj #6210), Robust 
Maritime Arctic Communications (proj #6213), Safety Parameters for ICE 
Operations (proj #5301), Response to Oil in Ice (proj #4701), Ice 
Condition Risk Assessment Tool (proj #6512), and Arctic Technology 
Evaluation 2018 (proj #62101).
---------------------------------------------------------------------------
    Other efforts to improve Arctic capabilities include the 
International Arctic Ocean Buoy Program, which maintains an 
international network of drifting buoys in the Arctic Ocean to 
provide meteorological and oceanographic data for real-time 
operational and research purposes. Additionally, H.R. 1314, the 
Integrated Coastal and Ocean Observation System Act Amendments 
of 2019, has been re-introduced in the 116th Congress to 
reauthorize funding for the U.S. Integrated Ocean Observing 
System (IOOS), both for observation data in the Arctic and 
other U.S. regions.

EXISTING INFRASTRUCTURE, NEAR-TERM RECOMMENDATIONS

    The U.S. Committee on the Marine Transportation System 
(CMTS) is a Federal Cabinet-level, inter-departmental committee 
that creates a partnership of Federal departments and agencies 
with responsibility for the Marine Transportation System (MTS). 
In 2010, the CMTS was directed by statute (PL 111-281, Section 
307(c)) to coordinate transportation policy in the U.S. Arctic 
for Safety and Security. Since then, they have published 
recommendations for Arctic infrastructure needs in 2013 and 
2016, and revised those recommendations in 2018. The CMTS 
recently released its findings and recommendations to 
prioritize infrastructure needs and secure sovereignty in the 
Arctic (summarized in Appendix I). These recommendations span 
five key categories integral to the Arctic MTS, including: (1) 
navigable waterways, (2) physical infrastructure, (3) 
information infrastructure, (4) emergency response, and (5) 
vessel operations.
    The CMTS recommendations from 2016 remain largely unchanged 
except for recommendation for the Coast Guard to finalize a new 
Port Access Route Study for the Bering Strait. Outstanding 
near-term recommendations from 2016 emphasize the urgency of 
congressional authorizations and appropriations to support 
prioritized Arctic infrastructure projects across the five 
categories.

                              WITNESS LIST

PANEL I

    <bullet>  Admiral Charles W. Ray, USCG, Vice Commandant, 
United States Coast Guard

PANEL II

    <bullet>  Rear Admiral Shepard Smith, Director, NOAA Office 
of Coast Survey
    <bullet>  Colonel Phillip J. Borders, Commander of District 
Alaska, U.S. Army Corps of Engineers

PANEL III

    <bullet>  Ms. Heather A. Conley, Senior Vice President, 
Europe, Eurasia, and the Arctic, Center for Strategic and 
International Studies
    <bullet>  Ms. Abbie Tingstad, Ph.D, Senior Physical 
Scientist, RAND Corporation
    <bullet>  Admiral Thad Allen, USCG ret., Senior Executive 
Advisor, Booz Allen Hamilton
    <bullet>  Hon. Mead Treadwell, Co-Chair, Polar Institute 
Advisory Board, Woodrow Wilson Center

      APPENDIX I: NEAR-TERM RECOMMENDATIONS FROM THE CMTS ARCTIC 
                 INFRASTRUCTURE NEEDS REPORT \<dagger>\
---------------------------------------------------------------------------

    \<dagger>\ https://www.cmts.gov/downloads/
NearTermRecommendationsArctic2018.pdf


                        Near-Term Recommendations
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Navigable                             Designate Port Clarence as an
Waterways                              Arctic Maritime Place of Refuge.
                                     -----------------------------------
                                      Review Port Clarence facilities to
                                       assess whether adequate support
                                       facilities are available at Port
                                       Clarence or in the region for a
                                       ship in need of assistance.
                                     -----------------------------------
                                      Leverage existing data-sharing
                                       frameworks, such as Data.gov, the
                                       Alaska Regional Response Team,
                                       and Alaska Ocean Observing
                                       System, to facilitate waterways
                                       planning and response to
                                       environmental emergencies.
                                     -----------------------------------
                                      Support Arctic Waterways Safety
                                       Committee efforts to bring
                                       stakeholders together.
                                     -----------------------------------
                                      Work with stakeholders to
                                       coordinate research efforts to de-
                                       conflict research within
                                       commercial and subsistence use
                                       areas.
                                     -----------------------------------
                                      Leverage international
                                       partnerships supporting waterways
                                       coordination.
                                     -----------------------------------
                                      Designate M-5 Alaska Marine
                                       Highway Connector to connect the
                                       Arctic Ocean and the western
                                       section of the Northwest Passage.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
Physical                              Prioritize the need for Arctic
Infrastructure                         port reception facilities to
                                       support international regulatory
                                       needs and future growth.
                                     -----------------------------------
                                      Expand Arctic coastal and river
                                       water-level observations to
                                       support flood and stormsurge
                                       warnings.
                                     -----------------------------------
                                      Co-locate new Continuously
                                       Operating Reference Stations and
                                       National Water Level Observation
                                       Network stations to significantly
                                       improve the Arctic geospatial
                                       framework with precise
                                       positioning and water levels.
                                     -----------------------------------
                                      Review U.S. Arctic maritime
                                       commercial activities to
                                       identifying major infrastructure
                                       gaps that should be addressed to
                                       promote safe and sustainable
                                       Arctic communities.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
Information                           Expand partnerships to provide new
Infrastructure                         satellite Automatic
                                       Identification System (AIS)
                                       capabilities for offshore
                                       activity information.
                                     -----------------------------------
                                      Advance Arctic communication
                                       networks to ensure vessel safety.
                                     -----------------------------------
                                      Place hydrography and charting of
                                       the U.S. maritime Arctic among
                                       the highest priority requirements
                                       for agency execution.
                                     -----------------------------------
                                      Improve weather, water, and
                                       climate predictions to an
                                       equivalent level of service as is
                                       provided to the rest of the
                                       nation.
                                     -----------------------------------
                                      Implement short-range, sea-ice
                                       forecasting capability.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
MTS Response Services                 Continue collaboration with State
                                       and local authorities to ensure
                                       readiness of Arctic maritime and
                                       aviation infrastructure for
                                       emergency response and Search and
                                       Rescue (SAR).
                                     -----------------------------------
                                      Develop a plan to transport
                                       critical response equipment from
                                       the contiguous U.S. into the
                                       Arctic area in the event of a
                                       catastrophic event.
                                     -----------------------------------
                                      Continue coordination through
                                       international fora to provide
                                       significant opportunities for
                                       engagement across the Federal
                                       Government and the international
                                       Arctic response community.
                                     -----------------------------------
                                      Support Pan-Arctic response
                                       equipment database development,
                                       best practices recommendations,
                                       and information sharing for
                                       continued development of
                                       guidelines for oil spill response
                                       in the Arctic.
                                     -----------------------------------
                                      Evaluate facilities currently
                                       available on the North Slope for
                                       use as seasonal staging areas by
                                       those engaged in readiness
                                       exercises or research.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
Vessel                                Expand U.S. icebreaking capacity
Operations                             to adequately meet mission
                                       demands in the high latitudes.
                                     -----------------------------------
                                      Finalize the Port Access Route
                                       Study for the Bering Strait and
                                       continue efforts to provide
                                       routes for vessel traffic in the
                                       U.S. Arctic.
                                     -----------------------------------
                                      Update domestic law to implement
                                       the mandatory provisions of the
                                       Polar Code and the Convention on
                                       Standards of Training,
                                       Certification and Watchkeeping
                                       for Seafarers.
                                     -----------------------------------
                                      Examine existing training and
                                       safety standards applicable to
                                       the U.S. fishing fleet with
                                       respect to the new Polar Code
                                       requirements.
------------------------------------------------------------------------



 THE COST OF DOING NOTHING: MARITIME INFRASTRUCTURE VULNERABILITIES IN 
                           AN EMERGING ARCTIC

                              ----------                              


                         WEDNESDAY, MAY 8, 2019

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:13 p.m. in 
room 2167, Rayburn House Office Building, Hon. Sean Patrick 
Maloney (Chairman of the subcommittee) presiding.
    Mr. Maloney. Listen, thank you all for being here. I am 
sorry for the late start. We had just come off the House floor. 
We appreciate that the Vice Commandant is here. We had an 
opportunity to spend some time together in southern Florida 
recently, got to participate in an event where USS Bear--excuse 
me, the U.S. Coast Guard vessel Bear--was able to bring back 
about $70 million in confiscated cocaine and marijuana, so I 
want to, before we even begin, thank Admiral Ray for all the 
help he provided when I was in Florida, and all the great men 
and women who I was able to learn from.
    Well, good afternoon, we will come to order, this 
afternoon's hearing is on Arctic maritime infrastructure, both 
what is needed now and what is needed in the near future.
    The simple truth is that the Arctic is warming. The 
statement is not conjecture, but measurable and observable 
fact. Melting sea ice and the opening of navigable waters make 
shorter voyages and substantial cost savings possible for ocean 
carriers sailing between major trading blocks. So today we will 
explore what infrastructure is necessary to safely and reliably 
sustain increased levels of commercial and governmental 
activity in this remote and inhospitable region.
    Similarly, increased oil and gas exploration, commercial 
shipping, and adventure tourism in the Arctic are likely to 
increase the risk of maritime accidents and create new sources 
of pollution in what still remains a mostly unspoiled domain. 
Yet, at present, harbors of refuge are few and far between. 
Despite several surveys, no deepwater port facility has been 
built to support high-latitude maritime operations.
    The U.S. Coast Guard is tasked with maintaining maritime 
safety, search and rescue, emergency response, and law 
enforcement across this vast area, but is asked to undertake 
these missions with limited resources or, in the worst of 
circumstances like the Government shutdown, without being paid.
    Certainly it was great news 2 weeks ago when the Coast 
Guard announced the award of a contract to finalize design and 
begin construction of the first new heavy icebreaker in over 45 
years. But the reality remains that Coast Guard District 17, 
the district responsible for Alaska and the U.S. Arctic, has 
pressing air support deficiencies and substantial unmet 
shoreside infrastructure needs that pose considerable 
challenges to the Coast Guard capabilities and mission 
readiness.
    As much as the Arctic is a uniquely challenging 
environment, it is also uniquely vulnerable. We currently rely 
on the international cooperative efforts for coordinated search 
and rescue, navigational safety, and environmental safety for 
oversight and response in the high north. Strong U.S. 
involvement in the Arctic Council and International Maritime 
Organization can help mitigate risks and ensure the safety of 
maritime operations.
    But at what point do we become too reliant on a shared 
infrastructure and capabilities offered by our Arctic 
neighbors?
    For several years now this subcommittee has examined the 
rapid emergence of the U.S. Arctic as a genuine new frontier, a 
frontier filled with grand promise, but great peril, too. I 
look forward to hearing from our expert witnesses this 
afternoon, to gather their recommendations on how best to 
secure our sovereign presence in the Arctic by making a 
strategic and sustained commitment to address our present and 
future maritime infrastructure needs.
    [Mr. Maloney's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Sean Patrick Maloney, a Representative in 
 Congress from the State of New York, and Chair, Subcommittee on Coast 
                   Guard and Maritime Transportation
    Good afternoon, and welcome to this afternoon's hearing on Arctic 
maritime infrastructure; both what is needed now, and what will be 
needed in the near future.
    The Arctic is warming. That statement is not conjecture but a 
measurable and observable fact.
    Melting sea ice and the opening of navigable waters make shorter 
voyages and substantial cost savings possible for ocean carriers 
sailing between major trading blocs. Today, we will explore what 
infrastructure is necessary to safely and reliably sustain increased 
levels of commercial and governmental activity in this remote and 
inhospitable region.
    Similarly, increased oil and gas exploration, commercial shipping, 
and adventure tourism in the Arctic are likely to increase the risk of 
maritime accidents and create new sources of pollution in what still 
remains a mostly unspoiled domain. Yet, at present, harbors of refuge 
are few and far between. Despite several surveys, no deepwater port 
facility has been built to support high-latitude maritime operations.
    The U.S. Coast Guard is tasked with maintaining maritime safety, 
search and rescue, and emergency response, and law enforcement across 
this vast landscape, but is asked to undertake these missions with 
limited resources, or in the worst of circumstances like the government 
shutdown, without being paid.
    Certainly, it was great news two weeks ago when the Coast Guard 
announced the award of a contract to finalize design and begin 
construction of the first new heavy icebreaker in over 45 years. But 
the reality remains that Coast Guard District 17, the District 
responsible for Alaska and the U.S. Arctic, has pressing air support 
deficiencies and substantial unmet shoreside infrastructure needs that 
pose considerable challenges to Coast Guard capabilities and mission 
readiness.
    As much as the Arctic is a uniquely challenging environment, it is 
also uniquely vulnerable. We currently rely on international 
cooperative efforts for coordinated search and rescue, navigational 
safety, and environmental safety for oversight and response in the High 
North. Strong U.S. involvement in the Arctic Council and International 
Maritime Organization can help mitigate risks and ensure the safety of 
maritime operations. But at what point do we become too reliant on the 
shared infrastructure and capabilities offered by our Arctic neighbors?
    For several years now, this subcommittee has examined the rapid 
emergence of the U.S. Arctic as a genuine new frontier; a frontier 
filled with grand promise but great peril, too. I look forward to 
hearing from our expert witnesses this afternoon to gather their 
recommendations on how best to secure our sovereign presence in the 
Arctic by making a strategic and sustained commitment to address our 
present and future maritime infrastructure needs.

    Mr. Maloney. I now call the ranking member for any opening 
remarks.
    Mr. Gibbs. Thank you, Chairman Maloney.
    The United States defines the Arctic as an area north of 
the Aleutian Islands. That area includes 568,000 square 
nautical miles of the United States exclusive economic zone, 
but very little maritime transportation infrastructure exists 
there. Extreme weather and sparse populations have kept 
maritime transportation in the area to a minimum. Fisheries and 
limited coastal transport occur there, and large commercial 
vessels skirt the southern part of the area, following the 
great circle route.
    The Arctic has new and promising prospects for routine 
commercial vessel operations, resource extraction, and 
fisheries further to the north. In the last several years a 
small number of recreational and passenger vessels have begun 
to venture into the far north.
    The Coast Guard has no year-round presence north of the 
Aleutian Islands since abandoning its loran station in 2008. 
Cutters and air assets do venture into the area during the 
summer and the Healy conducts research north of the Bering 
Strait. Unfortunately, as the GAO pointed out in 2016, the 
Coast Guard has no plan for or assets to address increased 
vessel traffic and other maritime uses of the Arctic. This is 
troubling, since vessel traffic and other uses seem certain to 
increase significantly over the next two decades, and even more 
troubling, given the interests of Russia and China in the 
Arctic.
    The United States needs to be able to fully assert its 
sovereignty in the Arctic, as well as carry out its search and 
rescue maritime safety, living marine resources, and 
environmental protection responsibilities. Of course, this 
nearly blank slate gives us the opportunity to carry out these 
missions in new and innovative ways.
    I look forward to hearing from the witnesses today in what 
they believe we need to do to assert our sovereignty in the 
north to ensure a safe and efficient maritime transportation 
system there.
    Thank you, Chairman. I yield back.
    [Mr. Gibbs's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Bob Gibbs, a Representative in Congress from 
the State of Ohio, and Ranking Member, Subcommittee on Coast Guard and 
                        Maritime Transportation
    The United States defines the Arctic as the area north of the 
Aleutian Islands. That area includes 568,000 square nautical miles of 
the United States Exclusive Economic Zone, but very little maritime 
transportation infrastructure exists there.
    Extreme weather and sparse population have kept maritime 
transportation in the area to a minimum. Fisheries and limited coastal 
transport occur there, and large commercial vessels skirt the southern 
part of the area following the Great Circle Route.
    Diminishing sea ice for longer periods of the year is making travel 
in the Arctic a more promising prospect for routine commercial vessel 
operations, resource extraction, farther North fisheries and even 
recreation. In the last several years, a small number of recreational 
and passenger vessels have begun to venture into the far North.
    The Coast Guard has had no year-round presence north of the 
Aleutians since abandoning its three LORAN stations in 2008. Cutters 
and air assets do venture into the area during the summer, and the 
HEALY conducts research north of the Bering Strait.
    Unfortunately, as GAO pointed out in 2016, the Coast Guard has no 
plan for, or assets to address increased vessel traffic and other 
maritime uses of the Arctic.
    This is troubling since vessel traffic and other uses seem certain 
to increase significantly over the next two decades, and even more 
troubling given the interest of Russia and China in the Arctic.
    The United States needs to be able to fully assert its sovereignty 
in the Arctic as well as carry out its search and rescue, maritime 
safety, living marine resources, and environmental protection 
responsibilities.
    Of course, this nearly blank slate gives us the opportunity to 
carry out these missions in new and innovative ways. I look forward to 
hearing from the witnesses today about what they believe we need to do 
to assert our sovereignty in the north, to assure a safe and efficient 
maritime transportation system there.

    Mr. Maloney. I thank the gentleman. I would now like to 
recognize the gentleman from Oregon's Fourth District, the 
chairman of our committee, my friend Peter DeFazio, for any 
opening remarks you would like to make.
    Mr. DeFazio. Thank you, and thanks for holding this 
incredibly important hearing. This has been a topic that has 
escaped the notice of past administrations and the Congress 
itself, and we really need to begin to plan more quickly than 
any of us ever thought for the opening of the Northwest 
Passage.
    In fact, I don't know where I was, because I have been 
doing a lot of travel and talking to a lot of people over the 
weekend, but I talked to someone who was going on a cruise, and 
they expect to try and get across.
    And I said, ``Well, I hope you are in touch with the 
Canadians and our Coast Guard, because, you know, we don't have 
a lot of capability up there.'' But it is a sailing ship out 
of, I think, Denmark or something. It is a known cruise 
company.
    In any case, the future is here, potentially. And, you 
know, we have got to begin to deal with it much more 
pragmatically and strategically. That is why we have the Coast 
Guard here today.
    I am thrilled we are finally on track for an icebreaker, 
hopefully to be followed by five more. And, you know, begin to 
be able to deal with both the challenges of our duties at the 
South Pole and in the Arctic. And the Great Lakes need a little 
help, too, with ice breaking. I don't want to neglect the Great 
Lakes.
    You know, I applaud the Coast Guard for releasing the 2019 
Arctic Strategy. I think that that is a great step forward. And 
you know, we look forward to your testimony today and whatever 
other recommendations you might provide to the committee.
    And also I know the--we have a number of other witnesses on 
the second panel, and I think the chairman has done a great job 
of assembling a group of folks who will help instruct us on 
whatever we might need to do in a Coast Guard reauthorization 
or other bills to move forward productively in the Arctic.
    So with that I yield back the balance my time.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Earlier this year, the Transportation and Infrastructure Committee 
convened two hearings to examine how Federal infrastructure policy 
could help mitigate and adapt to climate change.
    Today, the Coast Guard and Maritime Transportation Subcommittee 
tackles a topic that has for the most part escaped the notice of 
Congress. And that topic is the need to look both strategically and 
pragmatically at maritime infrastructure needs in a rapidly evolving 
Arctic environment.
    First off, I want to thank Chairman Maloney for devoting the 
subcommittee's time and attention to this issue of growing national 
importance. I also want to commend him for assembling a panel of expert 
witnesses that are second to none.
    Whether you agree about the science of global warming or not, the 
plain fact is that the Arctic has emerged as a region in flux due to 
rising temperatures. Decreased sea ice coverage, melting of permafrost 
and glaciers, and accelerated erosion of coastal areas now exposed to 
increased wave action--the effect of a warming climate is real, 
measurable, and fundamentally changing the Arctic environment.
    Now, it is not only conceivable, but likely, that the Arctic Ocean 
will become passable, at least on a seasonal basis, for maritime 
commerce and resource exploration and development in the next fifteen 
or twenty years.
    Moreover, based upon experience which shows that the actual rate of 
observed physical environmental change in the Arctic commonly exceeds 
the rates forecast by model projections, we would be wise to assume 
this new future will arrive much, much sooner than anticipated.
    Unfortunately, the Federal Government has been far too complacent 
over the past twenty years in confronting this substantial challenge 
through national and international policy. Modest ``whole of 
government'' planning efforts have fallen short of addressing current 
infrastructure needs.
    We have seen the Coast Guard's fleet of heavy icebreakers wither 
away. Furthermore, little demonstrable progress has been made in the 
construction of a deep water port, installation of telecommunication 
and navigation systems, and investment in other infrastructure 
necessary to support maritime transportation in this hostile and 
forbidding region.
    Recent positive events indicate that maybe, just maybe, the Federal 
Government is starting to turn the corner and give the emerging Arctic 
the attention it is due.
    I applaud the Coast Guard for releasing its 2019 Arctic Strategy 
and updating its policies and priorities in this region of growing 
geopolitical tension and challenge.
    I also was pleased to see the Coast Guard and U.S. Navy Integrated 
Program Office award the first contract in over 40 years to VT Halter 
Marine to finalize design and to construct the lead hull of what I hope 
will be a fleet of six new heavy icebreakers. This was very good news 
indeed!
    Yet there is so much more that must be done. Today, I want the 
witnesses to offer pragmatic, yet effective, recommendations for the 
types of Arctic maritime infrastructure investments the Congress should 
support, and a strategy and timetable for when we should commence to 
undertake this substantial work.
    In closing, I appeal to members on both sides: we gain nothing by 
failing to recognize the awakening of an accessible and exploitable 
Arctic. The last thing we can afford to do is wait until we are forced 
to act; an outcome that will surely be far more costly, far more 
difficult, far less thoughtful, and with many more unintended 
consequences.
    Let's use this hearing constructively and build on what we learn 
today to ensure that we avoid just such a scenario. Thank you.

    Mr. Maloney. I thank the gentleman and, seeing the ranking 
member, proceed to our first witness.
    We are very fortunate to be joined by Admiral Charles W. 
Ray, Vice Commandant of the United States Coast Guard.
    Thank you, sir, for being here today. We look forward to 
your testimony. I did mention the Bear; I should probably 
mention that we were also on the Isaac Mayo before I get myself 
in trouble. I want to thank those remarkable men and women, as 
well, and for all the work you do.
    And we are in possession of your written statement. So if 
we could ask you to keep your opening remarks to 5 minutes, 
that would help the Members proceed to their questions.
    Go ahead, sir, you may proceed.

  TESTIMONY OF ADMIRAL CHARLES W. RAY, VICE COMMANDANT, U.S. 
                          COAST GUARD

    Admiral Ray. Good afternoon, Chairman Maloney, Ranking 
Member Gibbs, Chairman DeFazio, distinguished members of the 
subcommittee. I appreciate this opportunity to address you as 
the 31st Vice Commandant of the Coast Guard, and thank you for 
entering my written comments in the record.
    Before I move on to the Arctic, sir, I wanted to just thank 
this committee for your support for the Pay Our Coast Guard 
legislation, and thank Chairman DeFazio for the same support. 
As I travel around, as I have with you down in Miami, out to 
the west coast to L.A., up to Kodiak, and down to Puerto Rico, 
this is one of the most frequent subjects that comes up with 
our folks that are out doing the work of the Nation and the 
Coast Guard. And so I thank you for your support moving 
forward, and we really need to get this across the goal line. 
Thank you.
    Moving on to the Arctic, Admiral Schultz and I look forward 
to continuing to work with this committee to advance our 
Nation's security sovereignty and economic interests in the 
Arctic. As you all know, the United States is an Arctic nation, 
and the Coast Guard has been the lead Federal agency up there 
for over 150 years.
    As the Nation's only surface presence in the region, the 
Coast Guard advances our national interests with a unique blend 
of polar operational capability, regulatory authorities, and 
international relationships. Over the past decade, as the 
chairman stated, as accessibility has improved, global 
competition has increased. The Arctic is involved in an 
increasingly important geostrategic region that requires a 
whole-of-government approach.
    Today nations seek to shape the security environment to 
their own advantage. Our two near-peer competitors, Russia and 
China, have declared the Arctic a strategic priority and 
continue to aggressively develop the capability and 
infrastructure to expand their influence.
    Even in the face of this increased competition, U.S. 
interests are well served by working with the eight Arctic 
nations. The Coast Guard continues to build trust and diplomacy 
with allies, partners, Native residents, and international 
bodies like the International Maritime Organization and the 
Arctic Coast Guard Forum to promote our Nation's influence in 
this critical region.
    Our recently published Arctic Strategic Outlook reaffirms 
our commitment to American leadership. It establishes three 
lines of effort to achieve long-term success. First will be 
our--we will enhance our capability to operate effectively in 
the dynamic Arctic domain. We will strengthen rules-based order 
and an adherence to the rule of law. Thirdly, we will innovate 
and adapt to promote resiliency and prosperity.
    For the United States to lead in the Arctic we must 
maintain a physical presence. The foundation of this presence 
is the Coast Guard's icebreaking fleet, and I want to thank 
this committee--I can't thank you enough; it was 43 years in 
the making for us to get where we are today--for your support 
to begin long-overdue recapitalization of our only heavy 
icebreaker. And as you all know, we awarded that contract in 
2013, and we hope it is the first of several that we need to do 
the Nation's business in the polar regions.
    Our presence also includes the operation in communities in 
the polar regions and in the Arctic and waters across the 
region, most notably every year we have a year-long operation 
called Operation Arctic Shield that includes deploying ships, 
aviation assets, and Coast Guard crews to the Arctic to conduct 
research and operations, law enforcement, marine safety, and 
engage with the communities. Part of this is facility and 
vessel inspections. Part of it is contingency response 
exercises.
    We are focused on the Marine Transportation System. For 
over 150 years your Coast Guard has operated in the Arctic and 
served Alaska communities. We are committed to this vital 
region, and currently we maintain shore infrastructure in 
Alaska, all across Alaska, and that is the stepping-off point--
Kodiak is--for most of our work in the actual Arctic. And so we 
appreciate your support for infrastructure where we will soon--
the next few years--home-port six Fast Response Cutters and two 
Offshore Patrol Cutters.
    As you know, the Coast Guard faces an extensive shore 
infrastructure backlog that we last tracked at about $1.7 
billion. A big part of that is across Alaska, where we need to 
work on piers and wharves and houses and community centers for 
our people.
    In closing, a strong presence in Alaska enables the Coast 
Guard to safeguard our national interests in the Arctic. I 
thank this committee for your unwavering support as your Coast 
Guard invests in our Alaska fleet and infrastructure. Thank you 
for this opportunity to testify, and I welcome your questions.
    [Admiral Ray's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Admiral Charles W. Ray, Vice Commandant, U.S. 
                              Coast Guard
                              introduction
    Good afternoon Mr. Chairman and distinguished Members of the 
Subcommittee. It is my pleasure to be here to discuss the U.S. Coast 
Guard's strategy and operations to advance safe and secure maritime 
activity, including the opportunities and challenges of Arctic 
infrastructure.
    The Coast Guard has been operating in the Arctic since 1867, when 
the United States purchased Alaska from Russia. As in all U.S. waters, 
our missions include enforcing laws and regulations, conducting search 
and rescue, and advancing navigation safety and environmental 
stewardship. As the Nation's visible maritime presence in the Arctic, 
the Coast Guard is also addressing the region's broader national 
security interests, including: economic security, environmental 
security, food security, geopolitical stability, national defense, and 
sovereignty.
    Our Nation's security demands on the Coast Guard in the Arctic are 
both pressing and enduring. The Arctic is one of the world's most 
challenging operating environments due to the extreme weather, vast 
distances, and lack of infrastructure. Additionally, as nations, 
industry, scientists, and the public explore and pursue emerging 
opportunities, the region is experiencing rising geopolitical interest 
and expanding human activity. Ensuring safety and security in this 
dynamic region requires a whole-of-government approach, in which the 
Coast Guard stands ready to play a significant role. The Coast Guard's 
vision for the Arctic is a cooperative environment that balances the 
needs and requirements of the region's diverse group of stakeholders.
    Our recently published Arctic Strategic Outlook reaffirms our 
commitment to American leadership in the region through partnership, 
unity of effort, and continuous innovation, and establishes three lines 
of effort to achieve long-term success. First, we will enhance 
capability to operate effectively in a dynamic Arctic domain; second, 
we will strengthen the rules-based order; and third, we will innovate 
and adapt to promote resilience and foster prosperity.
                national interests in the arctic region
    The United States is an Arctic nation with extensive sovereign 
rights and responsibilities in this region. As access to the Arctic 
evolves, many nations across the globe aspire to assert or expand their 
role in governing the region. The United States must be vigilant in 
protecting its national interests to ensure other nations do not 
develop their competing interests in the Arctic at our expense.
    Actions and intentions of Arctic and non-Arctic States are shaping 
the security environment and geopolitical stability of the region. In 
particular, our two nearest-peer competitors (Russia and China) have 
both declared the Arctic a strategic priority. Twenty percent of 
Russia's landmass is north of the Arctic Circle, and both onshore and 
offshore resource (minerals, oil, and gas) development is crucial to 
the Russian economy. Russia is also advancing the growth of the 
Northern Sea Route (NSR) for trans-Arctic shipping and other commercial 
opportunities. The NSR reached a new shipping record last year with 
9.74 million tons of goods transported along the route, and Russia 
advertises that number could increase ten-fold by 2030. The Russian 
government is currently rebuilding and expanding military bases that 
had previously fallen into disuse. These renewed capabilities include 
air bases, ports, weapons systems, troop deployments, domain awareness 
tools, and search and rescue assets. Additionally, Russia has the 
world's largest number of icebreakers. With nearly 50 icebreakers that 
include four operational, nuclear-powered heavy icebreakers, and three 
new heavy, nuclear-powered icebreakers currently under construction, 
Russia maintains the capabilities, capacities, experienced crews, and 
infrastructure necessary to operate into the Arctic year-round and 
surge as required.
    China has recently taken an active role in Arctic development, 
pursuing economic investments with every Arctic nation in key strategic 
areas, such as oil and gas development, ports, railways, and 
infrastructure. With the release of their Arctic Policy in January 
2018, they have declared themselves a nation intrinsically tied to the 
Arctic, and signaled their intention to play a security and governance 
role in the region. China has directed Chinese companies and government 
agencies to become more involved in Arctic affairs, and is rapidly 
developing its ability to operate in the region. China is also 
launching its first home-built icebreaker, XUE LONG II, and has begun 
designing a nuclear icebreaker expected to have twice the icebreaking 
capability of its conventional icebreakers.
    The United States also has economic and environmental interests in 
the Arctic, which are linked to the changing and expanding Arctic 
activity. Significant increases in natural resource extraction in the 
American Arctic have not yet materialized, but industries continue to 
explore opportunities to leverage emergent economic prospects. Tourism 
and transpolar flights are also increasing, both of which could 
potentially increase search and rescue demands and environmental risks. 
Additionally, we have observed steady but measured growth of shipping 
through the Bering Strait over the past ten years.
    As the Arctic continues to experience longer and larger periods of 
reduced or ice-free conditions, industry and other nations will likely 
continue to explore the possibility of seasonal trans-Arctic commercial 
shipping through the three Polar routes: the Northern Sea Route through 
the Russian Arctic, the Northwest Passage through the Canadian Arctic 
Archipelago, and the Transpolar Route through the central Arctic ocean. 
These routes could offer considerable savings between northern ports in 
Asia, Europe, and North America over traditional routes. However, the 
high variability of environmental conditions and limited shore 
infrastructure in the North American Arctic will pose a danger to even 
seasoned operators and likely increase the demand for Coast Guard 
services.
             coast guard operations in the american arctic
    Operation ARCTIC SHIELD is the Coast Guard's year-round planning 
and operational endeavor which provides mobile and scalable presence in 
the Arctic domain. In 2018, ARCTIC SHIELD operations advanced national 
and Coast Guard strategic goals by aligning operations to mitigate 
real-world threats and leveraged opportunities of strategic interest. 
This involved staging helicopters at a forward operating location in 
Kotzebue, AK, and deployment of major cutters, air assets, 
communication equipment, personnel, and logistics to support Coast 
Guard operations. The Coast Guard also deployed the medium icebreaker 
HEALY to conduct maritime patrols and support scientific operations. A 
high endurance cutter and a medium endurance cutter operated in the 
Bering, Chukchi, and Beaufort Seas, conducting maritime patrols and 
serving as forward deployed response assets. Additionally, the Coast 
Guard worked collaboratively with multiple agencies to enhance 
prevention and response plans at all levels of government.
    Our 2018 operational highlights include: completion of two dozen 
search and rescue cases (saving or assisting over 50 lives); conducting 
multiple exercises and training evolutions; hosting oil spill response 
drills; visits to numerous remote villages (educating more than 4,000 
children in boating and water safety programs); as well as exchanges 
and joint operations with the Royal Canadian Navy and Coast Guard.
    This year, ARCTIC SHIELD 2019 shoreside operations are currently 
underway, with a focus on western Alaska and the Bering Strait. A 
three-pronged approach of outreach, operations, and assessment of 
capabilities will support marine safety, search and rescue, law 
enforcement, and other Coast Guard statutory missions in the Arctic. 
Consistent with our recently updated Arctic Strategic Outlook, our goal 
is to further develop a comprehensive understanding of the capabilities 
required to operate in this austere environment, as well as to broaden 
partnerships in support of Arctic operations.
    In 2019, operations will continue to be supported with increased 
cutter, aircraft, and shoreside presence across Alaska. Specific 
activities include facility and vessel inspections, gold dredge fleet 
inspections, maritime safety compliance enforcement, ice rescue 
training, marine mammal protection enforcement flights, sovereignty 
patrols, and scientific research. Planned activities include an oil 
spill preparedness and response exercise on the North Slope and a joint 
marine pollution contingency exercise with international partners. 
Year-round outreach efforts will continue to deliver education and 
awareness services to Arctic communities and outlying native villages.
              icebreaking capacity and acquisition status
    The ability for the United States to lead in the Arctic, both 
diplomatically and operationally, hinges on having the capabilities and 
capacities to ensure national security and uphold sovereignty. Purpose-
built U.S. icebreakers enable American influence through assured access 
to the polar regions, safeguarding our national interests. These 
platforms deliver Coast Guard authorities anytime, anywhere, and 
without these capabilities, we risk significant gaps in our ability to 
respond to regional contingencies.
    The current Coast Guard icebreaker capacity is one heavy polar 
icebreaker, CGC POLAR STAR--commissioned in 1976, and one medium 
icebreaker, CGC HEALY--commissioned in 2000. The primary differences 
between heavy and medium icebreakers are endurance and power. The Coast 
Guard considers a heavy icebreaker to be one that can break at least 
six feet of ice at a continuous speed of three knots and operate year-
round in the Arctic, with the necessary systems and endurance to 
protect its crew in the event it has to ``winter-over'' in substantial 
ice conditions. Conversely, medium icebreakers are designed to operate 
seasonally in the Arctic.
    Due to the strong support of the Administration and Congress, the 
FY 2019 appropriation included full funding for acquisition of our 
first Polar Security Cutter (PSC), and some long lead time materials 
for the second. This investment sends a strong message that the Nation 
is serious about our interests in the Arctic. Just two weeks ago, the 
joint Coast Guard and Navy Integrated Program Office (IPO) awarded VT 
Halter Marine Inc., of Pascagoula, Mississippi, a fixed price incentive 
(firm) contract for the detail design and construction of the lead PSC. 
We are as close as we have been in over 40 years to recapitalizing our 
icebreaking fleet, and continued investment will ensure we meet our 
Nation's growing needs in the rapidly evolving and dynamic polar 
regions.
    In order to conduct the full range of Coast Guard missions, Coast 
Guard icebreakers must be fully interoperable with interagency and 
international stakeholders, including the Department of Defense (DoD), 
to carry out national defense operations. Thus, the new PSC will 
include sufficient space, weight, and power to conduct the full 
complement of multi-mission activities that support our Nation's 
current and future needs in the Arctic.
    The Coast Guard also understands that we must maintain our existing 
heavy and medium icebreaking capability while proceeding with 
recapitalization. Construction on the first PSC is planned to begin in 
2021 with delivery planned for 2024; however, the contract includes 
financial incentives for earlier delivery. Maintenance of POLAR STAR 
will be critical to sustaining this capability until the new PSCs are 
delivered. Robust planning efforts for a service life extension project 
on POLAR STAR are already underway and initial work for this project 
will begin in 2020, with phased industrial work occurring annually from 
2021 through 2023. The end goal of this process will be to extend the 
vessel's service life until delivery of at least the second new PSC.
                          shore infrastructure
    In addition to having the necessary platforms to maintain our 
presence in the Arctic, the Coast Guard maintains a robust shore 
infrastructure laydown in Alaska. Shore facilities support all Coast 
Guard operations and personnel, as well as provide required 
infrastructure to support the needs of the Service's operational 
communities. Investments in shore infrastructure are critical to 
modernizing the Coast Guard and equipping our workforce with the 
facilities required to meet mission.
    With approximately 10% of the Coast Guard's real property inventory 
located in Alaska, the need for proper capital investments is all the 
more critical given the vast distances between shore facilities in that 
region. We are currently building waterfront facilities and shore 
infrastructure to support the delivery of six new Fast Response Cutters 
(FRC) and two Offshore Patrol Cutters (OPC) to Alaska, as well as the 
critical housing and family support facilities to accommodate the 
additional personnel and their families to operate and maintain these 
new assets. Additionally over the last few years, we have built a new 
hangar to support forward deployed helicopters in Cold Bay, 20 new 
housing units in Kodiak, as well as new facilities in Kodiak to enable 
our transition from C-130H to C-130J aircraft. These efforts reaffirm 
our commitment to the region and our need for infrastructure to support 
Arctic operations.
                               conclusion
    The Coast Guard will continue to lead across the national and 
international landscape to help shape the Arctic domain as a 
cooperative environment while preserving our sovereign rights. We 
understand the significant investment required to secure the Arctic, 
and we appreciate and embrace the trust the Nation has placed in the 
Service to accomplish this. Thank you for the opportunity to testify 
before you today and for all you do for the men and women of your Coast 
Guard. I look forward to answering your questions.

    Mr. Maloney. Thank you, Admiral Ray. I will now proceed to 
Members' questions, which will be limited to 5 minutes. I will 
begin by recognizing myself.
    Admiral, first let me start by saying--because the focus of 
today's hearing is on the Arctic and Alaska in many ways, you 
know--I should mention that we lost a member of the Coast Guard 
community in Alaska, a young man named Michael Kozloski, who 
was actually a resident of my district, whose family lives 
about 8 miles from my house. His wife, Brie, and their kids--at 
least grew up there, I should say. And that is a loss we felt 
very acutely in the Hudson Valley.
    I want to thank the Commandant for coming up for the 
funeral and for the extraordinary support that the Coast Guard 
has shown to Mr. Kozloski's family. We hate to see these things 
happen, but it is a reminder of the sacrifices the members of 
the Coast Guard make every day. So we thank the Coasties for 
that.
    Let me ask you about the--I am interested in the Polar 
Security Cutter. You talk about--can you describe for us the 
capabilities that that vessel is going to provide, how many 
ships we need, how that compares to the fleets that we see from 
the Russians and from others?
    Admiral Ray. Yes, sir. Thank you for your question. Thank 
you for attending Boatswain Kozloski's funeral. It is part of 
the inherent nature--the dangerous nature of our business. 
Well, we thank you for your support. It meant a lot.
    With regards to the Polar Security Cutter, the Commandant 
has been saying--and we have all been saying this--we did a 
study a few years ago called the High Latitude Study which did 
analysis on the Coast Guard's 11 mission areas, which ones 
apply to the Arctic, the Antarctic. And it kind of arrayed 
where we need to be, and when. And a long story short, we need 
the ability to project year-round presence in the Arctic. And 
that is possible with the right kind of icebreakers. It is 
possible to be up there summertime and wintertime.
    And so, when we do the math--and it is fairly 
straightforward--and you do what it takes to do that, when you 
consider shipyard availabilities, we need six overall 
icebreakers. Three of those need to be heavy icebreakers to be 
able to project our presence in the Arctic and do our yearly 
duty to break out the National Science Foundation station in 
McMurdo, which is also vital to the Nation's interests down in 
Antarctica.
    And then we need three medium icebreakers that do any 
number of things, from scientific research to projecting 
sovereignty in places where there are boundary areas. They will 
be Polar Security Cutters, as well. And it is important that we 
talk about them as security cutters, as opposed to just 
icebreakers, because all Coast Guard ships are multimission, 
and they can be doing one mission one day and the next day they 
could be doing search and rescue, law enforcement, or any of 
the others.
    So six and three is how we have been shaping this up. But 
we are really excited about the first one, now that we have got 
that off the ways and going, and we expect to--great things 
from Halter down in Pascagoula. They have got a great record.
    And if that answered your question, sir----
    Mr. Maloney. Yes. I am also interested in how our 
capabilities compare to those of other great powers who may be 
thinking strategically about the Arctic, particularly Russia, 
China. Could you say a word about that, and what kind of 
comparison would you make between our capabilities right now 
and those of those two countries?
    Admiral Ray. As we say in the maritime services, we are in 
a big stern chase with the Russians, sir. I mean, they have got 
50 icebreakers of various classes. Four of them are nuclear-
powered heavy icebreakers. They have been committed to a 
rebuilding program for their icebreaker fleet for many years 
without fail.
    The Chinese just this year launched their second 
icebreaker, which is approaching a heavy icebreaker, which is 
Xue Long 2. And they are extremely aggressive with how they 
sail these. The Xue Long 1, which was their first icebreaker, 
has been to the Arctic every year for the past five or six--our 
Arctic--off of our--and they are not an Arctic nation. And so 
the Xue Long 2, the expectation is they will be similarly in 
their way that they sail and engage around the planet.
    Of course in the Baltic states--I am sorry, in the 
Scandinavian states there are multiple icebreakers, but they 
are mainly littoral close-in, they are not projecting over the 
horizon. So when we think of other nations' icebreakers, we 
primarily think of the Russians and the Chinese; the Swedes 
have some long-distance icebreakers, but, other than that, that 
is kind of the--that is the ones that we talk about.
    Mr. Maloney. And if I could get you to say a word about the 
shoreside infrastructure that we are also going to need.
    Admiral Ray. Yes, sir. With regards to Coast Guard 
shoreside infrastructure, our current focus is where all of our 
people depart from to go to the Arctic. That is the Kodiak, 
that is our northernmost place. And so that is where we have 
the most plans and the most specifics about investment.
    Our approach, as you know, to operating in the Arctic, 
given the dynamic nature of it, is we will take these 
icebreakers--when we get sufficiently built out, we can move 
them wherever the fight is. And ``fight'' is just a term of 
art. Wherever the action is we will move those icebreakers. So 
it could be as far south as, you know, approaching the Bering 
Sea, or as far east as our border with Canada. And so that is 
our approach, is mobile infrastructure that will deploy. And 
that is why icebreakers, or Polar Security Cutters, are so 
important. That region is not ice free. There is just less 
multiyear ice than there has been in the history of the world.
    But--so the ability to move and operate in ice-covered 
waters, whether it is just a year's worth of ice or a couple of 
years, that is our approach, operationally. The preponderance 
of our infrastructure requests for the U.S. Coast Guard are in 
Kodiak and other parts of Alaska, where we support that region.
    Mr. Maloney. I thank the gentleman.
    Mr. Gibbs?
    Mr. Gibbs. Thank you.
    First of all, Admiral, and all the men and women who serve 
under you, I want to thank you, gratitude of the country, 
because the Coast Guard is doing great work in drug 
interdiction and everything else you do--and security. So I 
want to make sure you--we appreciate what you all do.
    My first question, when we are talking about the Polar 
Security Cutter, the PSC--and we got that going now--I guess 
one of my first questions, you are talking down the road if we 
get the first one--it has been 40 years, I guess, whatever it 
was you said--to getting, you know, a second or third one. And 
would it be more economical to maybe work on--to get the 
production line set up to--just to do, like, five heavies, 
instead of doing any medium icebreakers, and just--you know, 
could we save dollars by making a long-term commitment to make 
all heavies and not change the production cycle, the production 
assembly line, and all the work that goes into developing a 
whole new--you know, a different-sized ship? But--go ahead.
    Admiral Ray. It could be, sir. I mean there is no doubt 
that there are economies of scale when it comes to producing 
the same class of ship from the same yard over.
    I think every--all the bodies that have studied this agree 
that we need at least three of these heavies.
    Mr. Gibbs. Yes.
    Admiral Ray. So--and the 43 years I referred to earlier, 
that is the last time we built a heavy icebreaker. Look 
forward; we can't wait 43 years. We are looking to having her 
in the water in 2024, at the latest, with incentives on the 
contract to do it sooner than that, 2023, which is fairly rapid 
for this class of ship.
    So--and we intend to continue to seek Polar Security Cutter 
2 and 3 moving forward, and then we will be in a position to 
decide how things are shaping up.
    Mr. Gibbs. Yes, I just wanted to raise the question. And, 
you know, you have to get that production set up, maybe, to 
transition to a different class. Maybe that doesn't make sense, 
and the heavies can do more, anyways.
    On this first one, when it is operational--of course, a lot 
of the time it is going to be spent down for the National 
Science Foundation, the McMurdo Station in Antarctica. What do 
you look--do you anticipate how many days that would be up in 
the Arctic?
    Admiral Ray. Sir, when I first came in the Service in 1981 
we had down, I want to say, five icebreakers. And we did Arctic 
East, Arctic West, we did an Antarctic patrol. So when we have 
the capacity that we need, we will send these ships north and 
south, and they will be--we will be operating in places that we 
traditionally operated, but we haven't had the capacity to do 
lately.
    So with regards to when we would send in the Arctic, we 
will need to get--we are doing work to extend the service life 
of Polar Star. We are starting that next year, because we need 
to extend her out until we get a second heavy icebreaker. When 
we have two heavy icebreakers, then we can talk about--in 
operation--we can talk about sending one north. And that one 
could be--that will not be before 2023.
    [A post-hearing clarification of Admiral Ray's remarks 
follows:]

                                 <F-dash>
    Post-hearing clarification of remarks from the U.S. Coast Guard
    The goal of Polar Star's SLEP is to extend her service life until 
delivery of the second PSC to ensure self-rescue capability. The Coast 
Guard does not intend to expand the CGC Polar Star's operations beyond 
current operational tempo (OPTEMPO) following service life extension 
activities. Once the first PSC is delivered, the Coast Guard will 
continue to operate Polar Star to ensure self-rescue capability. Since 
capacity of the icebreaking fleet will increase by the addition of a 
PSC, while one of the Coast Guard's heavy icebreakers is conducting the 
Antarctic mission, the other will have capacity to conduct other 
missions, including Arctic operations.

    Mr. Gibbs. OK, I want to talk a little bit about gaps. I 
know in panel 3 they will talk about some of the gaps, I guess 
shortfalls, and they should discuss navigable waters, physical 
infrastructure information, infrastructure responsibilities, 
vessel operations, and also the GAO report of the Coast Guard 
studies; the gaps would be communications, Arctic, Maritime 
Domain Awareness, infrastructure, training, exercise 
opportunities in ice breaking.
    Can you kind of relate to us how you are trying to fill 
these gaps, and what our operational status is, I guess, on--
when you talk about these challenges you have, and the gaps?
    Admiral Ray. Yes, sir. We have--with regards to the 
waterways--kind of just going down top to bottom, if you don't 
mind--we have worked with the Waterways Safety Committee to 
study the waterways, starting from the Unimak Pass, which is 
down in the Aleutians, all the way up to the Bering Strait.
    And so, understanding--we developed, working with the 
Russians, a port access route study, which is, in essence, the 
prequel for a traffic separation scheme that has been both 
coordinated with the Native community with regards to the 
migratory patterns of their subsistence lifestyle, and then 
with the draft--and worked with NOAA and others. So I guess on 
the front end of prevention work on the waterways, I think we 
have moved down the road with that.
    With regard to physical infrastructure, as I said, thanks 
to this committee we have got a good start on infrastructure 
that we need to be able to sail and operate from Kodiak. That 
is our center of gravity in Alaska. Just about everyone that 
goes to the Arctic, their last stop is in Kodiak before they go 
there. So we are making progress to do that. And that is where 
their families live, that is where their kids go to school, 
that is where--that is our center of gravity. So that is our 
part with regards to physical infrastructure.
    With regards to the information infrastructure, there is 
several things going on. We are working with the Department of 
Defense to get access to MUOS, which is an updated Department 
of Defense satellite communication, and we are making progress 
to where we can communicate reliably with satellite 
communications up to the 85th latitude, which is further than 
we have ever been able to do before. We have been somewhat 
constrained to either line-of-sight communications and/or HF 
communications, which is a little bit intermittent up there.
    And then we launched this year two CubeSats that we--in 
cooperation with other Government agencies--to do a polar orbit 
to receive emergency signals. And so, when you put those 
together, we are working on the communications part.
    And then lastly, with regards to our vessel operations, we 
have talked about the icebreaker or the National Security 
Cutter. And to us that is the most fundamental leap forward.
    Mr. Gibbs. OK. Thank you, Chairman.
    Mr. Maloney. Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman.
    Admiral Ray, let me start by saying thank you very much for 
your service and your leadership of the fine men and women that 
serve in the Coast Guard. I have an opportunity, the privilege, 
to serve on the House Armed Services Committee, where we have 
oversight of the Army, Air Force, Navy, and Marines, so this 
term, being appointed to the Transportation and Infrastructure, 
it is a real honor to kind of round out all of the components 
that work together in defense of our Nation and our Nation's 
interests, both home and abroad.
    In your testimony you mentioned Operation Arctic Shield as 
the Coast Guard's year-round planning and operational endeavor 
which provides mobile and scalable presence in the Arctic 
domain. You also mentioned the Coast Guard's goals to further 
develop a comprehensive understanding of the capabilities 
required to operate in the Arctic, as well as the broadened 
partnerships in support of Arctic operations.
    My questions, there are two, are related. Can you talk 
about what those partnerships are, and explain their value? How 
do we better leverage them to ensure we are meeting our 
operational needs?
    And related to that, how can we upscale or strengthen or 
improve your relationship with the Navy to fill existing gaps 
in our capabilities?
    Admiral Ray. Yes, sir. Thank you for the question. Thank 
you for your service across the armed services. You have 
covered the whole gamut now. Thank you.
    Well, our partnerships--it is really--this Arctic Shield, I 
am really proud of this. We have been doing it for several 
years now. It starts, literally, at the village level. We 
engage with village elders and across multiple villages across 
the North Slope, and we--our people go up there all year round, 
but we particularly surge in the summer when it is ice out.
    And we engage it at the school-kid level. We educated over 
400 kids from the North Slope, and that is a lot of kids on the 
North Slope. We educated 400 of them in, you know, kind of 
water safety and things like that.
    And then you work your way up to the Native corporation 
level, which are really significant elements of governance 
there in Alaska and in the Arctic, all the way up to the State 
and then, of course, the Federal level. We work across all 
partners.
    Our specific partners for Arctic Shield are the Department 
of Defense. We work with the Northern Command. They do--and the 
Alaska--folks in Alaska down in Elmendorf, they do a lot of our 
transport of our equipment up there, and so we interact. Our 
helicopters are housed in an Alaska Air National Guard hangar 
in Kotzebue, which I think we rent for about $1 a year, which 
is a pretty good deal in Alaska. And we--so great cooperation 
across the way.
    With regards to the Navy, we are consistently at the table, 
planning with the U.S. Navy. We would not be where we are today 
with our Polar Security Cutter program, were it not for our 
integrated program office with the U.S. Navy. I meet with 
Assistant Secretary Geurts, who is just an incredible servant 
of the Nation with regards to acquisition. He is one of the 
best we got. And were it not for him and his crew, we wouldn't 
be where we are with Polar Security Cutter--of course with your 
support, as well, but the ability to execute that.
    Our Commandant and CNO are engaged with regards to the 
requirements for strategic planning. We have provided input to 
the Navy, and they have accepted that. They are leaning forward 
to meet their requirements with regards to the NDAA.
    Mr. Brown. Thank you. Let me ask this question. In your 
testimony you also talked about the need for the Coast Guard to 
maintain a robust infrastructure in Alaska to support 
operations and capacity needs. You also state that 
approximately 10 percent of the Coast Guard's real property 
inventory is located in Alaska.
    The questions: with the reduced ice conditions, or 
certainly the changing ice conditions in the Arctic, and free-
flowing seas that create erosion, are there any Coast Guard 
installations that are currently at risk as a result of the 
changing landscape? And is the Coast Guard tracking which 
installations may be at risk in the future? And if you need to 
take that for the record, that is fine, as well.
    Admiral Ray. Sir, I think I can answer that. The weather in 
the Kodiak region, which is about our furthest north and west 
place, has been pretty consistent over the past few years. I 
mean it--there is bad weather there, and a big tidal range, and 
you are just one storm away from having a problem, but with 
regards to the durability and resiliency, we are in there--that 
is why this recapitalization of our shore infrastructure is so 
important. It is a consistent drumbeat.
    We are literally updating World War II-era buildings to 
modern resiliency standards. And when we do that they will last 
for 50 or 70 years. But north of that we are generally 
operating out of temporary facilities. We are doing it--that we 
are moving on our ships and in our aircraft to different 
places.
    So I will do a review and get back to you if there is any 
other ones that we need to track, but I am not aware of any 
right now.
    Mr. Brown. Thank you, Admiral. Thank you, Mr. Chairman. I 
yield back.
    Mr. Maloney. I thank the gentleman.
    Mr. Weber?
    Mr. Weber. Thank you, Mr. Chairman. Admiral, we appreciate 
you being here. And in full disclosure, my uncle, the last of 
five surviving boys, was a Coastie. And so we sure appreciate 
what you all do.
    The Bering Strait width, offhand, do you know how wide that 
is across there?
    Admiral Ray. The closest point is--I have to--I have looked 
at this several times, and you hear between 50 and 75 nautical 
miles. But it is not any more than 75.
    Mr. Weber. So safe to say you don't go summer camping up 
there.
    Admiral Ray. No, sir. But, I mean, I have been through it 
several times. But I have read it, this comes up pretty 
regularly. And in fact, I made a note to myself last night to 
recheck what the latest estimate--the last estimate I saw was 
about 70 nautical miles.
    Mr. Weber. Did you put that note in your iPhone?
    Admiral Ray. No, sir. I wrote it a little green book.
    Mr. Weber. Well, that is the way we normally do it, you 
know, at our age.
    Do you expect--how many days away, when you get the first 
PSC, do you expect them to be at sea on task, so to speak, on 
the mission?
    Admiral Ray. Our general planning factor for our cutters, 
major cutters, is 185 days away from home port. That is general 
planning. We exceed that with some degree of regularity. Rarely 
do we not meet that, unless there is a maintenance issue. And 
with some of our older cutters now, that is a little bit of a 
problem.
    So 185 days away from where home port is. For instance, 
when the Polar Star goes south through Antarctica, it is about 
a 100-day mission, more or less, maybe approaching 120. And 
then, when Healy goes north, it is at least a 3- or 4-month 
patrol up north in the Arctic. So that is kind of the standard 
planning factor.
    Mr. Weber. Would those numbers be the same for the second 
PSC?
    Admiral Ray. Yes, sir.
    Mr. Weber. Third?
    Admiral Ray. Yes, sir. I mean, that is--we will look at it. 
We look at it quite frequently. In fact, with the National 
Security Cutters we just went through a pretty extensive review 
a couple of years ago about how many days away from home port 
was recommended. Because the flipside of that is you got to do 
maintenance on them when they are back in. And we need people 
to continue to want to go to sea, so they got to have a little 
bit of time to see their family. So there is a flip side.
    But generally speaking, 185 days is our planning factor, 
and we revisit it every few years.
    Mr. Weber. Absolutely. Do you see a Chinese and a Russian 
presence up there around the Bering Strait? Have you been able 
to determine who is there the most?
    Admiral Ray. Yes, sir. There they are there, the Russians--
I mean the transits through the Bering Strait have been--a lot 
of it has been as a result of the Russian kind of growth in 
their petroleum exploration on the North Slope of Russia. And 
so there is a--and more transit is expected. That growth is 
going to continue as they go down to Asia.
    With regards to the Chinese, thus far, other than their 
commercial enterprises, where they are engaged with the 
Russians--and they are, to a degree--their independent 
icebreaker operations are primarily--they will call it 
research, we call it other things when they go up north above--
--
    Mr. Weber. Reconnaissance?
    Admiral Ray. Yes, sir. And so that is generally--and they 
are there from the shoulder seasons, we call it, early summer 
to late fall, all the way through the summer, depending on what 
their operational plan is.
    Mr. Weber. Did I understand you to say the Russians have 50 
icebreakers, 4 of which are nuclear?
    Admiral Ray. Yes, sir.
    Mr. Weber. Are you able to identify those going through, 
what percentage----
    Admiral Ray. They are generally working, staying up on the 
North Slope, those--their Northern Sea Route. They do not 
venture south. Most of the time their operations are from the 
northern part of the--just north of the Bering Strait over 
west, all the way to Europe.
    Mr. Weber. So those nuclear vessels could stay out a lot 
longer than the traditional vessels.
    Admiral Ray. Yes, sir.
    Mr. Weber. OK. And then you said something that caught my 
attention. You said you have, generally, line-of-sight 
communications?
    Admiral Ray. Well, there are multiple frequencies that we 
use for operational communications. We do sat phones, everybody 
is informed of that. A lot of the smaller vessels that are--and 
there are small vessels that you wouldn't think would be up in 
the Arctic that are up there now.
    Mr. Weber. So you try to hail them by radio.
    Admiral Ray. Yes, sir FM radio is what--that is line-of-
sight radio.
    Mr. Weber. Oh, that is line of sight.
    Admiral Ray. Yes, sir.
    Mr. Weber. OK, I got you. OK, I misunderstood that.
    Admiral Ray. So, depending on how high your antenna is is 
how far your line of sight is.
    Mr. Weber. I got you. OK. Well, I appreciate that, Admiral.
    And Mr. Chairman, I yield back.
    Mr. Maloney. I thank the gentleman.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman. Mr. Chairman, to start 
I would like to ask unanimous consent to enter into the record 
testimony of Willie Goodwin, the chairman of the Arctic 
Waterways Safety Committee.
    Mr. Maloney. Without objection.
    [The information follows:]

                                 <F-dash>
    Statement of Willie Goodwin, Chairman, Arctic Waterways Safety 
           Committee, Submitted for the Record by Hon. Larsen
                           executive summary
    The Arctic Waterways Safety Committee (AWSC) appreciates this 
opportunity to submit testimony to the Subcommittee on this topic of 
extreme importance to mariners of the far north.
    Our goal in submitting this testimony is to help educate the 
Members of the Subcommittee on the very serious challenges confronting 
northern communities, marine mammal subsistence hunters, and other 
northern mariners as a result of the increases in large-vessel marine 
traffic we are seeing in our northern Alaskan coastal waters. We also 
wish to highlight the tremendous risk created by the lack of 
communications and other infrastructure to support the maritime 
interactions of these disparate user groups, as well as the lack of 
infrastructure to support disaster response in this remote and 
treacherous region.
    As America's Harbor Safety Committee for the waters from the Bering 
Strait Region to the border with Canada, the AWSC is charged with 
responsibility for ensuring a safe maritime environment for all 
mariners working in or transiting through these waters. Through local 
efforts and the largely unfunded work of the AWSC, we are identifying 
and developing traffic-management measures to address the increase in 
maritime risks accompanying this traffic. However, it is imperative 
that our federal government become more engaged on these matters to 
help ensure the ongoing success of our work and the safety of all 
mariners in America's northern waters.
                               testimony
Who Are the Mariners of America's Northern Waters?
    For millennia, virtually the only mariners in the waters from the 
Bering Strait Region to Canada were marine mammal subsistence hunters. 
Today, these hunters, traveling or hunting in small 6-8 person skiffs, 
continue to constitute the largest class of mariners found in these 
waters. The subsistence food economy of northern Alaska, which also 
helps to feed Native residents throughout the state, is heavily 
dependent on seasonal marine mammal harvests.\1\ In some communities, 
90 percent of the food supply comes from the ocean. The principal 
marine resources are the five main arctic marine mammals: the bowhead 
whale, beluga whale, walrus, ice seals, and polar bear. These large 
mammals are so important to Alaska Native food security that 
subsistence hunters have come together to create five tribally-
authorized hunter groups to work with the Departments of Commerce and 
Interior on harvest management and habitat protection under the Marine 
Mammal Protection Act.
---------------------------------------------------------------------------
    \1\ BurnSilver S, Magdanz J, Stotts R, Berman M, Kofinas G (2016) 
Are mixed economies persistent or transitional? Evidence using social 
networks from arctic Alaska. American Anthropologist 118(1):121-129. 
See also, graphics showing subsistence sharing networks and outflows 
from two northern Alaskan villages, included with testimony.
---------------------------------------------------------------------------
    Failure of the harvests for these animals, for any reason, 
threatens food security and can spell hunger for many.
    In addition to the above, given the absence of a road system in 
northern Alaska, the coastal waterways are central to travel among 
communities. For all mariners, nature itself presents serious 
challenges, from the treacherous waters of the Bering, Chukchi, and 
Beaufort Seas to seasonal ice, rapidly changing weather patterns, high 
winds, heavy fog, and whiteouts. As the Subcommittee is learning, these 
natural risks are now compounded by the presence of large ocean-going 
vessels entering the Arctic for reasons related to marine research, as 
well as tourism, and commercial, industrial, and international transit.
Arctic Residents Have Valuable Experience with Large Vessel Traffic and 
        Coastal Industrial Activities.
    Northern residents, especially the bowhead whale subsistence 
hunters of the Alaska Eskimo Whaling Commission (AEWC), have been 
working with offshore oil and gas operators since the 1980s, to address 
impacts of exploration and development activities on the marine 
environment, marine resources, and subsistence hunting activities. 
Through the annual process of the Open Water Season Conflict Avoidance 
Agreement, initiated in 1985, the whaling captains of the AEWC have 
developed a highly successful collaborative process through which the 
ocean is shared, using an agreed ship-to-shore communications protocol 
and time-area arrangements, and with requirements for sound 
environmental management. Reliance on this process has facilitated 
successful offshore development in the Beaufort Sea, while ensuring 
maritime safety, a healthy marine ecosystem, and unaffected subsistence 
harvest opportunities.\2\
---------------------------------------------------------------------------
    \2\ Lefevre, J, (2013) A Pioneering Effort in the Design of Process 
and Law Supporting Integrated Ocean Management, Environmental Law 
Reporter, 43 ELR 10893-10908.
---------------------------------------------------------------------------
    Similar approaches to collaborative management have enabled 
operations at the Red Dog Mine to co-exist with marine and terrestrial 
subsistence hunting activities in the NANA Region.
    In 2012, as the reality of ice retreat and increasing arctic 
maritime traffic became apparent, the five arctic marine mammal hunter 
groups,\3\ in consultation with the U.S. Coast Guard's District 17, 
began working together to form the Arctic Waterways Safety Committee. 
The 15-member AWSC was incorporated as a not-for-profit entity in 
October 2014. This is yet another example of the commitment of northern 
residents to collaborative problem solving and management.
---------------------------------------------------------------------------
    \3\ The bowhead whale subsistence hunters of the Alaska Eskimo 
Whaling Commission, the beluga whale hunters of the Alaska Beluga Whale 
Committee, the walrus hunters of the Eskimo Walrus Commission, the seal 
hunters of the Ice Seal Committee, and the polar bear hunters of the 
Alaska Nanuuq Commission (now Nannut Co-Management Council).
---------------------------------------------------------------------------
The Arctic Waterways Safety Committee Has Oversight of the Waters from 
        the Northern Bering Sea to the Canadian Border.
    The AWSC is the largest Harbor Safety Committee in the United 
States, by area. And it is the only Harbor Safety Committee that 
includes subsistence hunters. This is because, in Alaska, the greatest 
number of marine users are subsistence hunters, working from small 
skiffs to gather marine food resources for their communities and for 
subsistence sharing with Native families throughout the state.
    In other areas of the country, hunting tends to be more of a 
recreational activity. In the Arctic, hunting sustains life. Thus, in 
northern Alaska, a hunter is someone who gets things done. In this 
case, the marine mammal hunters took the initiative, with the Coast 
Guard's guidance, to identify the key maritime interests and bring them 
together.
    The 15 members of the AWSC include one seat for a representative 
from each of the five marine mammal hunter groups, as well as the North 
Slope Borough, the Northwest Arctic Borough, the City of Nome, the 
Alaska Marine Pilots Association, Marine Research (vessel operators and 
research funders), Cruise Tourism, Tug and Barge Operators, Oil and 
Gas/Mining, Fishing, and Regional Tribal Entities.\4\
---------------------------------------------------------------------------
    \4\ See, Arctic Waterways Safety Committee Brochure, included with 
testimony.
---------------------------------------------------------------------------
    Immediately following its formation, the AWSC began to work closely 
with the Coast Guard, NOAA, and the Alaska Delegation to Congress to 
advocate for bathymetric surveys through the Bering Strait and along 
norther coastal areas. The AWSC engaged with District 17 in their work 
on the Port Access Route Study for the Bering Strait Region and is in 
the process of engaging in the Chukchi Sea/Beaufort Sea PARS. The 
Committee is engaged with NOAA and Coast Guard District 17, providing 
updates and additions to the Coast Pilot and Notice to Mariners, with 
seasonal notifications of subsistence hunting times and areas.
    The AWSC is in the process of drafting the Arctic Waterways Safety 
Plan for its region of coverage. To create this Plan, the AWSC has 
consulted the well-established guidelines for offshore oil and gas 
activities, taken from the Alaska Eskimo Whaling Commission's Open 
Water Season Conflict Avoidance Agreement, as well as the guidelines 
from the NANA Region's work with Red Dog Mine. The AWSC is using the 
Puget Sound Waterways Safety Plan as a guide and consulting with 
District 17 whenever possible.
    To address the substantial amount of marine research traffic, 
especially federal traffic, now working in the Arctic, the AWSC works 
very closely with NOAA, NSF, BOEM, Coast Guard, and the University of 
Alaska, Fairbanks to develop marine research protocols. The goal is to 
promote vessel safety and to help reduce interference with subsistence 
hunting. Standards of Care for Research Activities were completed in 
2016 and are available on the AWSC website.
    Another initial area of focus is tug-and-barge operations. The tug-
and-barge guidelines are being put together in cooperation with Crowley 
Maritime, one of the principal tug-and-barge operators in northern 
Alaska.
Continuing to Build a Safe Maritime Environment in Alaska's Arctic Will 
        Take Investment.
    The AWSC has become the primary forum for arctic waterways-users to 
gather, exchange information, and coordinate their operations with each 
other and with subsistence hunters, with meetings now attracting more 
than 50 individual participants. Federal agencies, including Coast 
Guard, are enthusiastic about this public forum and certainly are 
making use of it. Academic researchers, environmental groups, and 
commercial and industrial vessel operators express their gratitude for 
the opportunity to participate in this collaborative venue. Working 
together, the Committee and its participants are making a difference on 
the water. The opportunity to meet, exchange ideas, raise concerns, and 
reach consensus on solutions creates the opportunity to increase safety 
for everyone using Alaska's northern coastal waters.
    The AWSC's success and growing recognition in such a short time are 
remarkable. However, its success so far is small compared to the 
challenges presented by the growing presence of large vessels in waters 
that are home to thousands of mariners in small craft and to marine 
mammals who themselves must adapt to a rapidly changing ecosystem.
    Already the incidents of ship-strikes and line entanglements on 
whales are rising noticeably. In 2017, the Committee was notified of 24 
different research cruises planned for arctic waters in a three-month 
period. In 2016, Crystal Cruise Lines brought approximately 2,000 
people to the Arctic on the Crystal Serenity for a cruise up the coast 
of Alaska and through the Northwest Passage. Smaller commercial and 
private cruise traffic is becoming a regular phenomenon. It is not 
unusual for vessels to anchor offshore and discharge foreign passengers 
into coastal communities. Residents report unidentified vessels hauling 
unknown cargo through Alaska's coastal waters.
    Clearly the forum provided by the AWSC and the work it has been 
able to accomplish during its brief existence are worth continuing. 
However, unlike Harbor Safety Committees in other coastal areas, AWSC 
membership is largely representative of subsistence users. Thus, 
resources for supporting travel to meetings, meeting venues, and staff 
time needed for work on the Waterways Safety Plan, consultations with 
the USCG, researchers, and others, and even for preparation of this 
testimony must be found through outside resources or gained through 
volunteer efforts. Philanthropic groups generously assisted with the 
start-up of the Committee, but those resources are no longer available.
    Multiple meetings of multiple groups are occurring in and about the 
Arctic, many with federal support. Growing numbers of ``experts'' are 
offering opinions and recommending plans for ``The New Arctic.'' The 
Arctic Waterways Safety Committee is the only group that is actually 
making a difference on the water. It is imperative that our federal 
government invest in this critical consultative process as the AWSC 
works to conduct the traffic and infrastructure planning necessary to 
ensure safe navigation in Alaska's northern waters.
The Need for Coastal Communications Infrastructure in Northern Alaska 
        Is Urgent.
    Thanks to Mr. Ed Page and his team at the Alaska Marine Exchange, 
there is AIS coverage for most of the northern waterway, which means 
vessels can be tracked through the AIS system. However, since Shell's 
departure from the Arctic in 2015, there has been no infrastructure for 
ship-to-shore communications. Local residents cannot warn transiting 
vessels if they are entering waters occupied by hunters or other local 
residents in small craft. Transiting vessels cannot communicate with 
potential sources of emergency assistance on shore if they are in 
distress.
    When the Crystal Serenity passed along the northern coast, as it 
left Nome and headed for Greenland, an unexpected pan of ice offshore 
of Utqiagvik (Barrow), threatened to drive the 2,000-passenger ship 
into waters occupied by bowhead whale subsistence hunters conducting 
the critical fall harvest. To avert disaster, staff for the Alaska 
Eskimo Whaling Commission, on a Sunday morning, had to scramble to find 
a contact in the corporate offices of Crystal Cruise Lines who could 
establish communications with the skipper of the Serenity. This lack of 
communications infrastructure and the disregard for human life it 
demonstrates would not be tolerated anywhere else in the United States. 
Why is it tolerated in Alaska?
    It is impossible to stress enough the risk to life caused by the 
lack of communications infrastructure covering these waters. It leaves 
local residents vulnerable to potentially deadly interactions with 
large vessels. It leaves transiting vessels without a means of seeking 
assistance from local mariners in the event of an emergency. Alaska is 
a very large state with an extensive area for the Coast Guard to cover. 
The Coast Guard station at Dutch Harbor is 700 miles from Nome and 
1,200 miles from Pt. Barrow. That's greater than the distance from 
Washington DC to Omaha, Nebraska. If there were an emergency in these 
northern waters, local hunters might be the only responders on-sight 
for days.
    When the Alaska Eskimo Whaling Commission and offshore oil and gas 
operators initiated the Open Water Season Conflict Avoidance Agreement 
in 1985, the first mitigation measure put in place to ensure maritime 
safety and preserve the bowhead whale subsistence harvest was a radio 
tower at Deadhorse. Through 2015, an elaborate system of radio towers 
with ship-to-shore capabilities using VHF and satellite phones 
supported real-time communications and marine safety, especially for 
subsistence hunters. Every community from St. Lawrence Island to the 
Canadian border had a radio tower staffed by individuals who 
coordinated the movements of large vessels with the activities of small 
subsistence hunting boats. Beginning with the radio tower at Dead 
Horse, this privately-funded communications infrastructure grew and 
expanded over the course of 30 years. Oil and gas operators funded and 
used this system. Tug-and-barge used it. Transiting vessels used it. 
Coast Guard used it.
    Marine mammal hunters depended on this communications system as 
their lifeline to shore. The Arctic Ocean is a dangerous place at any 
time. Northern waters still experience sea ice. Wind, weather, and sea-
state can change without warning. Storms with hurricane-force winds are 
not uncommon. Adding large ocean-going vessels to these waters, where 
people are already risking their lives to feed their families, can be a 
prescription for disaster. The risk is multiplied by the lack of sound, 
reliable communications and traffic management.
    On any given day in any given area, there may be hundreds of people 
on the water in small craft, working and risking their lives to feed 
their communities and to support Alaska's subsistence food economy. 
Unknown numbers of ocean-going vessels are now transiting these waters. 
There is no ship-to-shore communications infrastructure.
    AWSC representatives have reached out to the Coast Guard. We have 
reached out to the White House. We have reached out to the Committee on 
Marine Transportation Systems. We have looked for ways to attract 
private investors. We have briefed members of Congress.
                                summary
    The Arctic is no longer opening. It is open. Our residents are 
subsistence hunters. We are hardworking people who get things done. We 
feed our communities and look for responsible ways to share our 
resources. But we aren't going to get much further protecting our 
coastal waters--or the resources that are vital to our survival, or our 
hunters and residents, or the people transiting along our coast--
without resources and engagement from our federal government.
    To summarize, here is the situation today. What we have as the 
Arctic opens and what we need.
    This is what we have:
    <bullet>  At any given time and in any given location, we have 
hundreds of citizens transiting and hunting in our coastal waters in 
small craft.
    <bullet>  We have increasing numbers of large ocean-going vessels 
coming through those same waters, largely unaware of our hunters' 
presence.
    <bullet>  We have a public forum, the AWSC, where local, federal, 
and international maritime interests are working together to develop 
consensus measures for arctic transit and maritime safety, as well as 
critical maritime notifications and advocacy for infrastructure and 
additional critical safety measures.
    This is what we need for maritime safety:
    <bullet>  We need resources to continue the work of the AWSC.
    <bullet>  We need a consistent Coast Guard presence in our waters.
    <bullet>  We need infrastructure for ship-to-shore communications 
with the vessels that are transiting our waters.
    <bullet>  We need infrastructure and other resources to support 
disaster response.
    <bullet>  We need modern ocean floor mapping for the vast majority 
of our waters.
    <bullet>  We need a way to ensure that mariners are aware of the 
traffic management measures so far agreed to under our Waterways Safety 
Plan.\5\
---------------------------------------------------------------------------
    \5\ The AWSC isn't even listed on the U.S. Coast Guard's Port 
Directory link on its Homeport website.
---------------------------------------------------------------------------
    And that is the short list.
    If you remember nothing else from this testimony, please remember 
this. The Arctic is home to thousands of U.S. citizens in coastal 
maritime communities working on the water in small craft. The Arctic 
also is a frontier where thousands of people are now traveling in large 
vessels in poorly charted waters. Without communications 
infrastructure. Without comprehensive traffic safety measures. Without 
disaster response infrastructure or even protocols. And with very 
limited Coast Guard coverage. Our federal government can work with us 
to support the approach we are taking, putting safety measures and 
infrastructure in place before the unthinkable happens. Or our federal 
government can take responsibility for addressing human disaster in one 
of the harshest environments on earth, without infrastructure or even 
communications capabilities.
    I encourage you to choose the first option.
    Thank you.

    Mr. Larsen. Thank you, Mr. Chairman, I appreciate that. And 
related to that my first question is about indigenous peoples. 
I wanted to highlight a little bit more about their indigenous 
needs amidst the traffic, increased traffic, of larger ships.
    You mentioned North Slope cooperation. But obviously, 
transit is going north and then going, presumably, east or 
west. So how is the Coast Guard fully collaborating with 
indigenous groups in the U.S. Arctic to balance their 
sovereignty and subsistence hunting needs with the growing 
presence of larger vessels?
    Admiral Ray. We--in fact, I know Mr. Goodwin, and thank you 
for--you know, for your entering his statements.
    We pride ourselves on taking into account the perspective 
of the Natives when it comes to the use of the oceans adjacent 
to the lands that they have occupied for centuries. And we go 
about it in multiple ways. But primarily with regards--the 
Bering Straits port access route study was a good example. That 
was specifically designed with the migration routes of the 
whales that they hunt, of the walruses, and other animals that 
they use for their lifestyle.
    And so we will do the same thing we have started. We have 
started the initial phases of an Arctic Coast port access route 
study, which will take the same things into, you know, into 
account.
    We also engage with the elders with regards to just how to 
operate in the Arctic. And, you know, it is really an 
interesting situation to go up there as a person from the lower 
48 and try to, you know, provide value. It is an important 
thing to go up and respect them, and we preach this. When--we 
have kind of instruction for our people that have never been to 
the Arctic, and we talk to them about the value of doing that, 
and respect of the elders. It sounds--maybe it doesn't sound 
exactly that high tech, but it is really important.
    And so we take their input into effect with regards to any 
scheme that we propose. And these are schemes that will go all 
the way to the International Maritime Organization. They have 
factored in the Native perspective.
    Mr. Larsen. We take the same approach to Representative 
Young.
    [Laughter.]
    Mr. Larsen. How far along are you in putting together 
firmer operation plans in the Arctic? It sounds like you are 
doing some experimenting, but how much of this con ops is 
actually getting written into the Coast Guard's longer term 
operation plans?
    Admiral Ray. Well, we are--you know, the Arctic is a place 
that you don't--when you need to operate there, it is too late. 
You need to be planning now to operate there. Everything is 
harder. When you go north it is harder. It is harder to fuel 
airplanes, it is harder to get airplanes started, it is harder 
to moor ships, it is harder to--everything we do is dangerous, 
as the chairman talked about. That was in Homer, Alaska. That 
is far south, compared to where I am talking about operating.
    And so it is--we send new Coasties up there. Every year we 
go up there in Arctic Shield and they will rotate. We have air 
crews, we have crews from multiple ships we send up there. We 
send people to Nome and other places to do commercial vessel 
inspections. And so all these people are learning how to 
operate in the Arctic. And it is a yearly thing that we do, and 
we surge it during the summer months when there is more 
activity, so we are more ready.
    So you get there--this operation is--it is ongoing. Last 
year alone we had 20 search and rescue cases. And the number 
that sticks in my mind is I think we had 35 lives saved. Now, 
some of this varied from caribou hunters out east of the North 
Slope to actual people in distress at sea. We are not--if we 
get a call, we will go wherever it needs to be to look for 
them. So----
    Mr. Larsen. Would you----
    Admiral Ray [continuing]. We are doing the actual 
operations.
    Mr. Larsen. Would you assess that you are making now--you 
are at a point where you are making marginal changes, or you 
are still making larger changes to operation plans?
    Admiral Ray. Well, the biggest----
    Mr. Larsen. If you could wrap, I have got another question, 
so just make it quick.
    Admiral Ray. Yes, sir. We are making marginal changes that 
will go along--regarding capability.
    Mr. Larsen. All right. And finally, how does not being part 
of the Law of the Sea Treaty help or hinder the Coast Guard 
sovereignty operations in the Arctic?
    Admiral Ray. The Law of the Sea could help us moving 
forward, and multiple people believe it would be a significant 
help when it comes to rights over extended continental seabed 
and other issues. The Coast Guard operates as if we were a 
party to it. And thus far, that has been effective for us.
    Mr. Larsen. Thank you. Thank you, Mr. Chairman.
    Mr. Maloney. Mr. Lowenthal?
    Mr. Lowenthal. Thank you, Mr. Chair. And Admiral, thank you 
for coming to speak with us about the urgent need to improve 
our Coast Guard's Arctic capabilities, and to continue to 
protect our country's significant interests in this region.
    As the Coast Guard's Arctic Strategic Outlook notes, sea 
water temperature rise has already begun to affect the 
migration pattern of fish stocks in the Arctic, creating new 
risks of illegal, unreported, and unregulated fishing that can 
undermine our efforts to maintain healthy fish stocks. I am 
proud that the U.S. brokered the Central Arctic Ocean Agreement 
to prevent over-fishing in the Arctic with a joint effort for 
scientific monitoring of fish migration in this region.
    In addition to a moratorium on unregulated fishing, this 
effort will help to establish a scientific baseline measure for 
the Arctic Ocean ecosystems so we can measure the effects of 
climate change and fisheries activity.
    But Admiral, these are just good intentions without the 
resources we need to protect American interests in the Arctic, 
both to enforce fishery laws and to conduct this important 
research. Admiral, can you tell us how the Coast Guard is 
working to support these scientific and fisheries enforcement 
missions now, and what capabilities the Service is investing in 
to ensure that we carry out these initiatives in the years 
going forward?
    Admiral Ray. Sir, we support the science efforts of NOAA 
and NMFS and others with regards to understanding the fish 
stocks in the Bering and north. And we--and so--and we also 
work with the other Arctic nations to understand their 
assessment of fisheries, you know, progress, and their 
perspective on the fisheries.
    I think the bottom line is the Coast Guard has maintained a 
presence in the Bering Sea continuously in my lifetime, and 
focused on fisheries, focused on enforcing fisheries.
    There was a time a few years ago when we were nose to nose 
with the Russians over the fisheries in the Bering Sea. Those--
we cooperate much better now than we did a few years ago. So we 
have a presence, we understand the fisheries, and we move our 
forces to be in a position to surveil and to, in some cases, 
rescue the fishermen that are working in those regions.
    Mr. Lowenthal. I was just wondering--following up on the 
last point, what are the capabilities that the Service now is 
investing in to ensure that we carry out these initiatives in 
the future? Could you kind of target--tell us a little bit 
about exactly what you are investing in, what are the 
capabilities to carry out this venture in the future?
    Admiral Ray. Yes, sir. Thank you. Thanks to this committee, 
we are--so we talked about the Polar Security Cutter. That will 
provide a platform to do fisheries enforcement from anywhere in 
the Arctic.
    The second thing is National Security Cutters which we have 
been building for several years, and have had great effect on 
our enforcement missions. We will be home-porting two Offshore 
Patrol Cutters in Kodiak. They will have the reach to go all 
the way up to the ice edge, and they are not ice cutters, but 
they will have the ability to get to the ice edge.
    So--and then H-60 helicopters. We are--once again, thanks 
to this committee, we are actually growing the fleet of those 
H-60 helicopters to be able to reach out to get to the 
fishermen. And our H-65 helicopters, we are extending the 
service life of those. Those are the ones that embark on our 
ships in the Arctic and in the Bering Sea.
    Mr. Lowenthal. Thank you, Admiral, and I yield back.
    Mr. Maloney. Mr. Gallagher?
    Mr. Gallagher. Thank you, Mr. Chairman.
    Admiral, as you look at the Arctic as a zone of increasing 
competition, in the past year there has been a lot of reports 
that the Chinese Communist Party has attempted to secure a 
greater presence, not only Arctic in general, but in Greenland 
in particular. And we have had to work with our allies--Denmark 
in particular--to deny them that access.
    Tell us a little bit about how you view the Chinese threat 
in that region in general, and then how we should be thinking 
about Greenland in particular.
    Admiral Ray. Yes, sir. I was just in Finland about a month 
ago with the folks from Denmark and Greenland, and so kind of 
have pretty fresh perspective from them.
    Of course, we have got a strategic United States base, 
Thule Air Force Base here in northwest--or north--or western, 
and that is critically important. And there is no doubt in my 
mind that part of the Chinese intent is to get as close to that 
as they can. And so we need to be mindful of that, I believe.
    What our icebreaker fleet will allow us to do, speaking 
from a Coast Guard perspective, is it will allow us to have the 
capacity to patrol around Greenland, as we did, you know, in 
years past. And so, having that presence is important to our 
allies to be able to work there to support them. Because when 
you get east of Nuuk on the lower west side of Greenland, there 
is no humans around that side on the east side and north. And 
they need--you know, that is a partnership that we need to 
continue to develop, and that is our intent.
    Mr. Gallagher. Do you think there is room for a greater 
U.S. presence in Greenland, going forward? I know--I believe it 
is finalized, that we have opened up a consulate in Nuuk, which 
I view as a great step forward, and long overdue. Do you think 
there is room to expand our presence?
    Admiral Ray. Well, I won't speak to the terrestrial part of 
it, that is not my purview. But I do believe having the ships 
that are capable of sailing those waters is important, and 
there is room for advancement on that.
    Mr. Gallagher. And then we had--I believe last week the 
Pentagon delivered its annual report on Chinese military 
capabilities, and there was a special section contained therein 
solely devoted to Chinese activity in the Arctic. Perhaps you 
could give us the Coast Guard's perspective on that report, or 
that section. I know it is related to my first question, but I 
just wanted to give you a chance because I am not sure that 
report has yet been widely read on the Hill, but I view it as 
particularly important.
    Admiral Ray. My perspective on the Chinese activity in the 
Arctic is that it is not much different than Chinese activity 
in the rest of world. They exert presence, they kind of sail 
where they can, and by maintaining--establishing a presence, 
they kind of--it almost becomes an acceptance of that.
    I mean, to talk about the Chinese in the Arctic when the 
closest point of China to the Arctic is somewhere around 900 
nautical miles, that is kind of a stretch. And so you heard our 
Secretary of State the last couple of days, and his comments 
about that, and we certainly concur with that.
    I think in the Arctic what we see is they are doing 
exploration, they are doing science, but they are also doing 
exploration for economic purposes, and they are doing 
exploration for other purposes, as well.
    Mr. Gallagher. And finally I just want to close by saying 
that you have some incredible young men and women in northeast 
Wisconsin that are representing the Coast Guard very well, and 
we appreciate their presence and they are a great part of our 
community. So thank you for being here today.
    Admiral Ray. Thank you, sir. The Great Lakes are an 
important part of the Coast Guard. Thank you.
    Mr. Maloney. Would the gentleman like to yield 30 seconds 
to the ranking member for a question?
    Mr. Gallagher. I would be honored to yield.
    Mr. Gibbs. Thank you. Thank you for yielding.
    Just a quick question, Admiral. The Coast Guard is 
finalizing its Bering Sea port access route study, and the 
implementation of that, shipping routes, and safety, and--in 
the Arctic region. And the concern I have--there is a study 
done 5 years ago in the Atlantic coast port access route study, 
and I believe nothing has really come about that, or 
implementation of that. Can we get a commitment that the study 
for--the Bering route study will be, you know, implemented?
    Admiral Ray. Yes, sir. In fact, we have made great progress 
on that. That was, you know, ratified at the International 
Maritime Organization this past year, and it was kind of 
unprecedented cooperation between us and the Russians. It just 
shows there are things we could cooperate on when we don't 
cooperate on other things.
    And the Coast Guard has prided ourselves through the North 
Pacific Coast Guard Forum and now the Arctic Coast Guard Forum, 
we find areas that we think have room for cooperation, and we 
focus on those and not others. And that access route study was 
one of those.
    Mr. Gibbs. And we will work for implementation when we get 
it.
    Admiral Ray. Yes, sir.
    Mr. Gibbs. OK, thank you.
    Mr. Maloney. Well, thank you, Admiral. I want to, without 
objection, move on to the second panel, but I want to thank 
Admiral Ray for his time.
    I also want to associate myself with the questioning and 
the remarks of the gentleman from Wisconsin. A lot of us are 
very concerned about the strategic threat posed by the Chinese 
in the Arctic and everywhere else. And so I want you to 
understand that there is broad-based concern here on their 
activities, and we would be very interested in your ongoing 
perspective on that, and what are you seeing. It is something 
we are all very interested in.
    Sir, thank you very much for your time. We would like to 
move to the second panel.
    Admiral Ray. Thank you, Mr. Chairman, I appreciate it.
    [Pause.]
    Mr. Maloney. I would like to now welcome our second panel 
of witnesses. We are joined by Rear Admiral Shepard Smith, 
Director of the Office of Coast Survey of the National Oceanic 
and Atmospheric Administration, NOAA, and Colonel Phillip 
Borders, Commander of District Alaska of the U.S. Army Corps of 
Engineers.
    Thank you for being here, gentlemen. We look forward to 
your testimony.
    Without objection, our witnesses' full statements will be 
included in the record.
    As with the previous panel, since your written testimony 
has been made part of the record, the subcommittee requests 
that you limit your oral testimony to 5 minutes, if possible.
    You may proceed, Admiral Smith.

TESTIMONY OF REAR ADMIRAL SHEPARD M. SMITH, DIRECTOR, OFFICE OF 
COAST SURVEY, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION; 
  AND COLONEL PHILLIP J. BORDERS, COMMANDER, ALASKA DISTRICT, 
                  U.S. ARMY CORPS OF ENGINEERS

    Admiral Smith. Yes, sir. Good afternoon, Chairman Maloney, 
Ranking Member Gibbs, and members of the subcommittee. My name 
is Shepard Smith, and I am the Director of the Office of Coast 
Survey at the National Oceanic and Atmospheric Administration 
within the Department of Commerce. Thank you for inviting me to 
testify today on our work to support safe and efficient marine 
transportation in the Arctic.
    The U.S. is an Arctic nation by virtue of Alaska's 
geography. The remote and harsh environment there results in 
short operating seasons and other unique challenges, requiring 
extensive collaboration with international and regional 
partners. To this end, NOAA cooperates with academic, regional, 
State, and indigenous stakeholders. We also rely on and support 
our Federal partners and the Coast Guard, Navy, Army Corps of 
Engineers, and the Departments of Interior and Energy, all of 
whom, including NOAA, are part of the interagency Committee on 
the Marine Transportation System.
    NOAA's services and products related to navigation, 
weather, and emergency response science are featured heavily in 
parts of the CMTS 10-year prioritization of infrastructure 
needs in the U.S. Arctic.
    We have been working to increase NOAA's presence in the 
Arctic since 1870, when the Coast and Geodetic Survey schooner 
Yukon surveyed Alaskan waters and our Arctic work began. I will 
give a general overview of NOAA's services, but focused mostly 
on our navigation services that support maritime commerce, 
emergency response, and environmental stewardship in the 
Arctic.
    NOAA is committed to producing reliable marine 
transportation, weather, hazard assessment, and other services 
to safeguard life, property, infrastructure, and security in 
the Arctic. This work also allows stakeholders and constituents 
to make informed decisions that protect Arctic communities, 
economies, and ecosystems. NOAA's navigation services--notably 
our nautical charts--are essential to moving goods and services 
safely and efficiently in the Arctic.
    Nautical charts are built upon the core NOAA competencies 
and responsibilities: positioning tides and water level data, 
shoreline mapping, and hydrographic surveying.
    NOAA supports accurate positioning through the National 
Spatial Reference System. This is the national coordinate 
system managed by our National Geodetic Survey that allows us 
to make precise spatial measurements. To continue our efforts 
to make the system more accurate, NOAA completed the collection 
of airborne gravity data on mainland Alaska last year. We are 
planning on returning to Alaska in 2020 to complete surveys of 
the Aleutian Islands.
    Along the coast NOAA's National Water Level Observation 
Network provides long-term observations to inform the decisions 
of increasingly vulnerable Arctic communities. In cooperation 
with the Alaska Ocean Observing System, AOOS, NOAA is 
developing portable, low-cost systems to fill information gaps 
in the Arctic. This will allow the National Weather Service to 
provide improved storm surge warnings and forecasts in small 
coastal communities.
    The scale of the hydrographic surveying requirement in 
Alaska and the Arctic is vast. Over the past 3 years NOAA and 
its contract partners acquired 1,500 square nautical miles of 
Arctic survey data. Our survey plans for 2019 include an 
extensive set of project areas in Kuskokwim Bay. NOAA's 51-
year-old survey vessels and our survey contractors are an 
essential component of the balanced hydrographic survey program 
NOAA employs in Alaska and across the Nation.
    NOAA continually works with our stakeholders to inform our 
survey priorities. Our Federal advisory committee, the 
Hydrographic Services Review Panel, convened in Juneau last 
year in August for just this purpose.
    The CMTS 2015 report on vessel traffic through the Bering 
Strait predicts that it will increase 500 percent by 2025, 
along with the risk of oil and other hazardous material spills. 
NOAA supports the Coast Guard response by providing oil spill 
modeling tools and data management, including the Arctic 
Environmental Response Management Application, known as ERMA.
    Last August NOAA participated in a mutual aid deployment 
exercise on Alaska's North Slope oil field, and provided oil 
spill response training to over 200 industry and State and 
Federal representatives.
    With 3 percent of the Arctic Circle within Alaska, 
international cooperation is also critical for the success of 
our efforts. NOAA participates in the Arctic Council and its 
working groups, such as the Protection of the Arctic Marine 
Environment and Arctic Monitoring and Assessment Program. NOAA 
is also a member of the Sustaining Arctic Observing Network and 
the Arctic Regional Hydrographic Commission.
    Thank you again for the opportunity to testify today and 
discuss NOAA's Arctic marine navigation and related services. I 
appreciate the subcommittee's time and attention, and look 
forward to answering your questions.
    [Admiral Smith's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Rear Admiral Shepard M. Smith, Director, Office 
    of Coast Survey, National Oceanic and Atmospheric Administration
                              introduction
    Good afternoon Chairman Maloney, Ranking Member Gibbs, and Members 
of the Subcommittee. It is a pleasure to be here today with my U.S. 
Coast Guard and U.S. Army Corps of Engineers colleagues to discuss our 
work supporting safe and efficient marine transportation in the Arctic. 
The Department of Commerce's National Oceanic and Atmospheric 
Administration (NOAA) cooperates and coordinates on a regular basis 
with these agencies in support of the nation's economic and national 
security interests in the Arctic.
    NOAA's Arctic responsibilities cut across every NOAA mission area, 
from weather and sea ice analyses, to navigation services and fisheries 
management. For over two hundred years, NOAA and its predecessor 
organizations have provided foundational data, products, and services 
to support safe, efficient maritime commerce across the nation. NOAA 
has a long history in the Arctic, including conducting research and 
providing weather and climate services, sea ice forecasting, nautical 
charting and other navigation services, natural resource management, 
and oil spill preparedness and response. Today, as sea ice diminishes 
and economic and maritime activity in the Arctic grows, NOAA remains 
committed to its work in the Arctic. For this testimony, I will focus 
on the NOAA components highlighted in the Committee on the Marine 
Transportation System's 2018 report on critical infrastructure 
investments necessary to support a safe and secure Arctic marine 
transportation system.
                              cmts report
    In December 2018, the Committee on the Marine Transportation System 
(CMTS) issued an update [https://www.cmts.gov/downloads/
NearTermRecommendations
Arctic2018.pdf] on the near-term recommendations in its 2016 Ten-Year 
Prioritization of Infrastructure Needs in the U.S. Arctic [https://
www.cmts.gov/downloads/NSAR_1.1.2_10-
Year_MTS_Investment_Framework_Final_
5_4_16.pdf].\1\ The report's recommendations span five key categories 
integral to the Arctic Marine Transportation System (Arctic MTS), 
including: (1) navigable waterways, (2) physical infrastructure, (3) 
information infrastructure, (4) emergency response, and (5) vessel 
operations. As the report describes, even as sea ice retreat increases 
opportunities for navigation-related activities, the Arctic remains a 
challenging environment for marine transportation. There are still 
unpredictable ice floes, extreme weather conditions, and seasonal 
accessibility based on variation in ice location. NOAA's navigation 
products, as well as its weather, and emergency response science and 
services feature heavily in the physical, information infrastructure 
and emergency response sections of the report. The U.S. MTS Arctic 
Infrastructure Table at the end of the report is a good snapshot of 
current conditions and gaps in critical Arctic MTS infrastructure.
---------------------------------------------------------------------------
    \1\ These reports are accessible online at https://www.cmts.gov/
topics/arctic.
---------------------------------------------------------------------------
                       noaa's arctic mts services
    Because most of the U.S. Arctic is not connected by road or rail, 
marine transportation is an essential means of transporting goods and 
people. NOAA's navigation, observation, and positioning services are 
important for safe and efficient maritime commerce, security, community 
re-supply of food and fuel, construction, and other commerce-related 
activities. Thus, nautical charts for Alaska and the Arctic are a key 
component of NOAA's nautical charting mission.
    The major requirements for nautical charts are (1) accurate 
positioning, (2) coastal oceanography such as tides and water levels, 
(3) shoreline mapping, and (4) hydrographic surveying. As described 
below, NOAA is taking steps to improve the accuracy and reliability of 
these core capabilities in the Arctic and the nautical charting and 
navigation services they support.
    NOAA released its National Charting Plan in 2017 to improve chart 
coverage and take full advantage of the capabilities of today's 
technologies, including digital Electronic Navigational Charts (ENCs). 
This national plan updates and incorporates NOAA's older Arctic 
Nautical Charting Plan. These plans are based on extensive outreach to 
users. They also are designed to ensure NOAA continues to lead and 
implement international requirements for surveying and ENC charting.
Positioning and the National Spatial Reference System
    Nautical charts rely on accurate shoreline information and precise 
positioning, elevation, tide, and water level data, all of which are 
dependent on an accurate land-based reference framework. NOAA's 
National Geodetic Survey (NGS) provides the authoritative framework for 
all positioning activities in the Nation, known as the National Spatial 
Reference System (NSRS). This authoritative coordinate system defines 
latitude, longitude, height, gravity, and shoreline information, which 
supports a wide range of important activities, including mapping and 
charting, navigation, transportation, infrastructure, flood risk 
determination, national security, and ecosystem management.
    Land elevation and positioning data in Alaska currently have errors 
of up to a meter or more. To rectify this and modernize the NSRS, NOAA 
collects airborne gravity data under its Gravity for the Redefinition 
of the American Vertical Datum (GRAV-D) initiative. GRAV-D data 
collection for mainland Alaska was completed in 2018. GRAV-D plans on 
returning to Alaska in 2020 to complete surveys of the Aleutian 
Islands. NOAA is also working to provide improved positioning in Alaska 
through its network of Continuously Operating Reference Stations 
(CORS). These efforts are part of NOAA's 2022 update to the NSRS, which 
will enable up to centimeter-level accuracy for latitude, longitude, 
and height, using Global Navigation Satellite System survey techniques 
at any location.
Tides and Water Levels
    As stated above, accurate water level data is essential for 
accurate nautical charts. NOAA's Center for Operational Oceanographic 
Products and Services (CO-OPS) operates and maintains the National 
Water Level Observation Network (NWLON). In addition to providing data 
essential for surveying and charting, these long-term observations of 
coastal water levels improve understanding and predictions of coastal 
change, storm surge, and saltwater intrusion into freshwater systems 
that are urgently needed to inform decisions by increasingly vulnerable 
coastal communities in the Arctic. Presently, CO-OPS operates 27 long-
term NWLON tide stations in Alaska, 10 of which are located in the 
Arctic. CO-OPS has identified over 30 gaps in NWLON coverage for 
Alaska, the majority of which are in the Arctic.
    To supplement NWLON data, the Alaska Ocean Observing System (AOOS), 
which is a part of the NOAA-led Integrated Ocean Observing System 
(IOOS) program, has helped install portable, low-cost systems that help 
to fill observation gaps needed for NOAA's National Weather Service 
(NWS) storm surge warnings and forecasts in small coastal communities. 
NOAA is also collaborating with private industry to build a public data 
management system that parallels the CO-OPS website. This system will 
serve as an example for advancing nationwide access to external source 
water level data. Recently, the NWS funded CO-OPS to install an NWLON 
station in Unalakleet, Alaska, to provide real-time information for 
storm surge models, as well as navigation. The maintenance of this 
station, as well as others in Alaska, has been contracted out to a 
local Alaska company. NOAA also plans to replace the Port Moller 
station in the Aleutians, which burned down in 2017, with Fiscal Year 
2019 dollars.
                                  noaa
Shoreline Mapping
    Shoreline surveys are also critical to keeping nautical charts up 
to date. In 2018, NOAA updated 4100 miles of Arctic shoreline for its 
Continuously Updated Shoreline Product in conjunction with the 
rescheming of related NOAA ENCs. This data enables mariners to pinpoint 
their locations relative to the coast, navigate to and from ports 
safely, and find harbors of refuge when in need.
    In conjunction with AOOS, the state of Alaska, and other partners, 
NOAA is also supporting the development of an Alaska Coastal Mapping 
Strategy for publication in 2019. This strategy will include Arctic 
priorities in its assessment of needs for coastal topography and 
nearshore bathymetry, along with other types of mapping. The effort is 
intended to identify state stakeholder priorities for new collections, 
the costs associated with mapping, and ways to leverage new mapping 
projects and partnerships.
Hydrographic Surveying
    The scale of the hydrographic survey requirement in Alaska and the 
Arctic is vast, with 426,000 square nautical miles within the U.S. 
Exclusive Economic Zone and nearly half of that significant to 
navigation. Soundings on some nautical charts in the Arctic are still 
from Captain Cook.
    Through the Office of the Coast Survey, NOAA continues to 
prioritize and undertake hydrographic surveying in the expansive, 
remote and harsh Arctic environment. Over the past three years, NOAA 
and its contract partners have acquired nearly 1,500 square nautical 
miles of hydrographic survey data in the Arctic. For 2019, our survey 
plans include an extensive set of project areas in Kuskokwim Bay. 
NOAA's survey contractors are an essential component of the balanced 
hydrographic survey program NOAA employs in Alaska and across the 
nation. The 51-year old NOAA Survey Vessel Fairweather will also survey 
around Cape Newenham.
    NOAA also works with private sector partners and academia to 
develop and deploy unmanned surface vessels (USV) for chart-quality 
surveys. For the past two years, our contractor in Alaska has employed 
USVs to conduct hydrographic surveys. In August 2018, NOAA and 
researchers from the University of New Hampshire's Center for Coastal 
and Ocean Mapping made the first successful launch of a USV for an 
operational hydrographic survey from a NOAA vessel in the Arctic. NOAA 
also tested four Saildrone USVs in the Bering and Chukchi Seas and is 
further investigating the use of Saildrones as an additional, cost-
effective survey capability. Based on the success of that mission, we 
are currently updating our Bering Sea charts with the USV data.
Weather and Sea Ice Forecasts
    The ability to transmit timely weather and accurate information and 
sea ice forecasts depends heavily on the ability to predict inclement 
weather and changes in currents or ice cover and extent. One side 
effect of an ice-diminished Arctic is a reduction in the dampening 
effect of ice on waves. As spring and fall storms intensify, wave 
action increases due to a lack of ice cover. In addition, diminished 
fall and spring sea ice also has the potential to intensify high 
latitude storms as both moisture and heat are exposed with the open 
water. Thus, early warning of impending storms is important for both 
ships and coastal communities in the Arctic.
    NOAA's NWS is increasing targeted in-situ observations, both 
surface-based and aloft, to improve model assimilation of observed 
data, situational awareness, and scientific understanding of the 
Arctic. NWS is also leveraging new remote sensing capabilities, such as 
unmanned aerial systems (UAS), unmanned aerial vehicles (UAV), and 
satellite technology in addition to next generation autolaunching, 
upper air systems at all NWS Alaska Region sites. The NWS Alaska Region 
has also proactively addressed both current and emerging operational 
forecast gaps by establishing and resourcing the Alaska Environmental 
Science and Service Integration Center, which will support both 
regional and international Impact Decision Support Services.
    Moreover, NOAA is focusing on the science fundamentals to improve 
coupled water, ice, atmosphere models. Much of the focus of model 
improvements to date have been on the mid- and lower-latitudes. Areas 
of specific improvement are the stable Arctic boundary layer, 
interactions between the oceans, ice, and atmosphere in the marginal 
ice zone, riverine impacts to ice, and troposphere-stratosphere 
interactions. These activities will improve NOAA's ability to forecast 
the weather and Arctic sea ice.
    The National Ice Center (NIC), a partnership among NOAA, the U.S. 
Navy, and U.S. Coast Guard, provides sea ice assessments for the 
Arctic. The NIC produces a daily, 48-hour Marginal Ice Zone forecast in 
text format. The NWS Alaska Sea Ice Program also produces a short-
range, sea-ice forecasting capability with 5-day sea ice graphical and 
text forecasts. Besides short-range products, NOAA NWS is developing 
experimental weekly sea ice forecasts that include sea ice extent, 
concentration, and sea ice melt and freeze dates.
    The NIC uses data from NOAA Joint Polar Satellite System and 
Geostationary Operational Environmental Satellites-West (GOES-West), 
and Department of Defense (DoD) weather satellites, as well as 
leverages data from European and Japanese, and purchases data from the 
commercial sector to support its mission. These data sets inform the 
timing and accuracy of weather and hazard forecasts out to seven days, 
including better predictions for fog, ice formations, and ice breaking 
in the Arctic. In addition, researchers at NOAA's Earth System Research 
Laboratory have developed a fully-coupled ice- ocean-atmosphere model 
focused on 0-10 day forecasts. Currently, this modeling team is working 
with the NWS to advance Arctic sea ice forecast capabilities.
Oil Spill and Hazard Preparedness and Response
    Decreasing summer sea ice is contributing to growth in commerce, 
tourism, and energy exploration in the Arctic. According to another 
CMTS study of vessel traffic in 2015 (which the CMTS is now working to 
update as well), shipping transits through the Bering Strait are 
expected to increase 500 percent by 2025. This increased activity 
heightens the risk of accidents and discharges of oil and hazardous 
materials. NOAA's Alaska regional Scientific Support Coordinator 
provides scientific support to the federal on- scene coordinator for 
oil spills and other emergencies such as search and rescue. NOAA's 
contributions include modeling the fate and movement of spills, 
identifying natural resources at risk, and providing software, mapping 
tools, and data management capabilities. By law, NOAA is also a trustee 
for natural resources that have been injured by oil and chemicals 
spills and conducts damage assessment and restoration of these 
resources.
    NOAA participates in joint training and workshops with interagency 
partners and other Arctic nations on activities such as the use of 
mechanical recovery, dispersants, and in situ burning following 
transboundary spill events. NOAA compiles baseline information on 
natural resources in the Arctic and promulgates standard techniques and 
guidelines for observing and measuring oil spills and assessing 
shorelines.
    NOAA Office of Response and Restoration (ORR) also maintains the 
Arctic Environmental Response Management Application (ERMA ) to 
integrate and synthesize data into a single interactive map, provide 
quick geospatial visualizations, and improve communication and 
coordination among multiple responder agencies. As a common operational 
picture, ERMA  brings together all of the available information needed 
for an effective emergency response. In 2017, with funding assistance 
from the Bureau of Safety and Environmental Enforcement, NOAA improved 
its display for the Arctic by adding polar projection base maps. This 
provides a less distorted display of the region while maintaining 
accurate bearings to the coastline and provides a better tool for pan 
Arctic data sharing and perspectives.
    Interagency preparedness exercises are essential for critical 
improvements in spill response procedures. In August 2018, NOAA 
participated in the Mutual Aid Deployment (MAD) exercise on Alaska's 
North Slope oil field. The 2018 exercise was hosted by Exxon Mobil and 
included over 200 industry and state and federal representatives. NOAA 
provided support with oil spill trajectory modeling, weather forecasts, 
resources at risk and sensitive areas information, facilitation of the 
Endangered Species Act Section 7 consultation, Shoreline Cleanup 
Assessment Techniques planning, ERMA , in-situ burn planning, and data 
management planning. NOAA, with other members of the Alaska Regional 
Response Team's Food Safety Workgroup, also led the development of the 
``Ensuring Food Safety Following an Oil Spill in Alaska: Regulatory 
Authorities and Responsibilities'' report that was released in December 
2018.
    International oil spill exercises are also important. In November 
2018, NOAA ORR staff traveled with colleagues from the U.S. Coast Guard 
and the State of Alaska to Yuzhno-Sakhalinsk, Russia, to participate in 
a ``Seminar on Understanding Maritime Pollution Threats and Response 
Systems in the Russian Federation-United States Trans-Boundary Area.'' 
The meetings concluded with an international tabletop exercise to test 
and practice the provisions of the existing ``Joint Contingency Plan of 
the United States of America and the Russian Federation on Combating 
Pollution in the Bering and Chukchi Seas.''
    During the United States chairmanship of the Arctic Council for 
2015 and 2016, NOAA chaired the Emergency Prevention, Preparedness, and 
Response (EPPR) Workgroup. Under this leadership, the U.S. delegation 
to the workgroup delivered several important projects including a Pan-
Arctic Oil Spill Response Equipment Database, a Circumpolar Oil Spill 
Response Equipment Viability Analysis, an updated Guide on Oil Spill 
Response in Ice and Snow Conditions, and further advancement of 
exercise procedures for the Agreement on Cooperation on Marine Oil 
Pollution Preparedness and Response. Currently, NOAA is a member of 
U.S. Delegation for EPPR and provides the current state of the art of 
response techniques, particularly on the use of dispersants in Arctic 
environments.
                noaa research supporting the arctic mts
    NOAA continues to observe and model long-term changes occurring in 
sea ice thickness and extent which are important both for global 
climate modeling and understanding how access to the Arctic is changing 
with reduced seasonal ice cover. Deployed Seasonal Ice Mass Buoys 
provide near real-time data on ocean and air temperature through the 
sea ice that, combined with data from the atmosphere and ocean, 
contributes to the fundamental understanding of the role of the sea ice 
cover in the global climate system. These observations enable seasonal 
to decadal predictions in sea ice cover.
            international, interagency and local engagement
    NOAA, in collaboration with numerous other agencies, has supported 
U.S. participation in the international Arctic Council since its 
establishment in 1996. The U.S. served as the second chair of the 
council from 1998 to 2000 and chaired the Council again from 2015 to 
2017. Through the Council's Protection of the Arctic Marine Environment 
working group and other efforts, NOAA has supported coordination of 
efforts to promote safe Arctic navigation. Last year, the Council 
launched a public website to assist in the implementation of the Polar 
Code. To better address Arctic hydrographic and nautical charting 
challenges, NOAA has also participated in the Arctic Regional 
Hydrographic Commission since 2010.
    NOAA serves as Vice Chair of the U.S. Arctic Observing Network 
Board after serving as Chair and has continued work towards a sustained 
and well-defined network of Arctic observations across NOAA, other 
Federal agencies, the State of Alaska and Alaska Native Tribes, 
academia, industry, and international partners, such as the Sustaining 
Arctic Observing Network. NOAA is a long-standing sponsor of the Arctic 
Report Card, an annual, peer-reviewed report developed by 85 scientists 
across 12 countries. The Arctic Report Card issued its 13th report in 
December 2018. The publication's annual update provides reliable data 
and observations to support local and regional decision makers in 
making informed decisions for Arctic communities, national security, 
industrial growth, environmental health, and food security.
    On a local level, the increase in vessel traffic through the Bering 
Strait into the Chukchi and Beaufort Seas is of concern to Alaska 
Native coastal communities in the region. These communities rely on 
subsistence hunting of marine mammals, which are critical to their 
nutritional, cultural, mental and spiritual well-being. NOAA has been 
working with the Arctic Waterways Safety Committee (AWSC), as well as 
Alaska Native Organizations and regional bodies, to ensure the increase 
in research vessel traffic does not negatively impact the ability of 
the communities to hunt marine mammals. Since 2015, NOAA has requested 
community input for summer survey plans with the AWSC. During these 
briefings on planned work, NOAA also details its findings from its 
prior year surveys.
  looking to the future: enhancing noaa's core missions in the arctic
    While NOAA's core missions remain the same, advances in technology 
are providing opportunities to greatly enhance the accuracy, 
timeliness, and integration of our products and services, including 
those that inform and support marine navigation and transportation in 
the Arctic. To ensure that we consider the needs of and challenges 
facing our Arctic stakeholders, NOAA continues to look for innovative 
partnerships with the private sector and other stakeholders, including 
the ability of the private sector to incorporate NOAA data and services 
to develop new applications to enhance operations and efficiency.
                               conclusion
    NOAA plays a unique and important role in providing critical 
information infrastructure to support safe, reliable, and efficient 
marine transportation. Rapidly changing conditions and increased 
accessibility bring new urgency to NOAA's work to support increased 
activity in Arctic waters. Local, state, federal, and international 
partnerships are critical to achieving successful Arctic operations in 
this unique and challenging environment. NOAA is working to develop and 
apply technology and data in innovative ways to improve our navigation 
products and services. Thank you again for the opportunity to testify 
today. I appreciate the Subcommittee's time and attention and look 
forward to answering your questions.

    Mr. Maloney. Thank you, Admiral.
    Colonel Borders?
    Colonel Borders. Thank you, sir. Admiral Smith, thank you 
very much. We work with NOAA quite often in the Corps of 
Engineers, especially up in Alaska. In fact, I just received 
the concurrence to move through design with our Whittier study. 
So thank you.
    Chairman Maloney and distinguished members of the 
subcommittee, I am Colonel Phil Borders. I am the commander of 
the U.S. Army Corps of Engineers in the Alaska District. I 
actually live just outside of Anchorage, so I flew down here to 
this hot weather.
    Thank you for the opportunity to appear before you today 
and discuss navigation needs in the Arctic, particularly the 
Port of Nome. Today I will provide you a quick overview of the 
Corps navigation program in Alaska, then focus in upon the 
preliminary conclusions of our soon-to-be published draft 
integrated feasibility report and environmental assessment for 
the Port of Nome Modification Study, highlighting some of the 
navigation needs in western Alaska and the Arctic.
    As you know, the increased ocean water temperatures, 
reduction in pack ice, and the longer opening of the Northern 
Passage, Alaska and Alaskan ports are of vital interest to our 
Nation and our North American allies. Since 1902, when Congress 
requested the Corps to perform preliminary examinations of the 
Wrangell Channel in southeast Alaska, the Corps has played an 
important role in addressing navigation needs in the State.
    In Alaska few communities are connected to Alaska's limited 
road system, resulting in ports and harbors playing an 
important role in statewide transportation and economy. The 
Corps of Engineers has constructed, overall, 62 harbors and 
channel projects over the last 117 years, with 57 of those 62 
still in use today. Recently, construction projects in Alaska 
in Valdez and Port Lions, along with the 9 current navigation 
studies my district has, and the 2 authorized navigation 
projects that are ready for design, shows the demand of 
navigation improvements in Alaska remains strong today.
    As part of the Corps' program in Alaska, the district has 
investigated the need for navigational improvement in the 
Arctic. In our 2013 report entitled ``Alaska Deep Draft Arctic 
Port System Study,'' we noted more than 3,000 vessels used the 
great circle to transit annually, and there are over 400 Bering 
Strait transits annually. So the opening of the Arctic waters 
to maritime traffic is presenting new challenges with respect 
to maritime safety and environmental protection, as well as 
opportunities for greater efficiencies in shipping.
    This ability of vessels to transit into and through the 
Arctic has increased in conjunction with the lengthening of 
time of open water, free ice, currently from about May to 
November.
    A prime example of the navigation is Nome, Alaska. The 
Corps' navigation project at Nome was originally completed in 
1923, and then expanded in 1954, and again modified in 2006. So 
we have been at this for a while. Located 737 miles north of 
Dutch Harbor along the Aleutian chain, Nome is the only major 
port facility in western and northern Alaska providing safe 
freight transfers for vessels in excess of 22 draft capable 
facilities.
    Currently, multiple Government vessels, large cruise ships, 
research vessels, and large fuel tankers conduct lightering 
into Nome to access necessary facilities to bring both crew and 
cargo ashore. In total, vessels exceeding the draft depth 
entered the port spent over 1,200 hours in anchor offshore at 
Nome in 2017 alone, just to conduct those lightering 
operations.
    Due to the lack of available deep draft along the western 
and northern coast, the U.S. Coast Guard, as stated earlier, is 
limited to small vessels and helicopters. The nearest Coast 
Guard station to Nome is about 800 miles away south in Kodiak, 
as the admiral mentioned. However, because of the long sailing 
times through remote and often challenging waters, security and 
safety become our concern of paramount, both for the Coast 
Guard and for the Corps.
    An increasing number of oil and gas transferred vessels are 
transiting the Atlantic, making spills a growing concern, 
mainly because of the limited facilities or ready available 
supplies, should a cleanup happen at sea.
    In summary, though Nome is not the only community in Alaska 
in need of navigation permits, the situation in Nome is a good 
example. We are proud to work in collaboration with many other 
Federal agencies as we do routinely, and recommend Arctic 
implementation and needs of the Arctic.
    Thank you, Mr. Chairman and subcommittee members. I am open 
to your questions, as always.
    [Colonel Borders's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Colonel Phillip J. Borders, Commander, Alaska 
                 District, U.S. Army Corps of Engineers
                              introduction
    Chairman Maloney, Ranking Member Gibbs and distinguished members of 
the subcommittee, I am Colonel Phillip J. Borders, Commander of U.S. 
Army Corps of Engineers (Corps) Alaska District. Thank you for the 
opportunity to appear before you today to discuss the role of the Corps 
in support of commercial navigation in the Arctic. The Corps works in 
collaboration with other federal agencies, and with state, local, and 
tribal entities on this issue.
    I will provide you an overview of the involvement of the Corps in 
Alaska's port development, and an update on our soon to be published 
Draft Integrated Feasibility Report and Environmental Assessment for 
the Port of Nome Modification study.
          the corps of engineers navigation program in alaska
    Since 1902, when Congress authorized the Corps to perform 
preliminary examinations of Wrangell Channel in southeast Alaska, the 
Corps has played an important role in support of commercial navigation 
in the state. Due to few connections to Alaska's road system, many of 
the state's coastal communities rely on ports and airports for 
transportation. The Corps of Engineers has improved the channels at 62 
ports in Alaska over the last 117 years. Fifty-seven of these ports are 
in use today. The Corps recently completed projects to deepen the ports 
of Valdez and Port Lions.
    A 2013 Corps report, entitled ``Alaska Deep Draft Arctic Port 
System Study'', noted that ``[m]ore than 3,000 vessels use the Great 
Circle route through Alaska's Unimak Pass each year and there are over 
400 Bering Strait transits annually. The opening of Arctic waters to 
maritime traffic is presenting new challenges with respect to maritime 
safety and environmental protection as well as opportunities for 
greater efficiencies for shippers.'' This ability of vessels to transit 
into and through the Arctic has increased in conjunction with the 
lengthening of time of open water/ice free conditions, currently about 
May to November of each year.
                    port of nome modification study
    Over the past 10 or so years, the Corps has been evaluating the 
costs and benefits of options for channel improvements at one or more 
ports in western Alaska. In the first phase of that effort, we explored 
14 potential sites and concluded that a proposal involving two of these 
ports (Nome and Port Clarence) had the best potential for justification 
based on a further analysis. By February 2015, the Corps had dropped 
Port Clarence from consideration. It has focused since then on options 
for the Port of Nome.
    The Corps first improved the Port of Nome in 1923. It modified that 
project in 1954, and again in 2006 to its present configuration. 
Located 737 miles north of Dutch Harbor, Nome is the largest port in 
western and northern Alaska. Its main commercial docking area is in 
waters with a depth of -22ft MLLW.
    Currently, multiple government vessels, large cruise ships and 
larger research vessels conduct business in Nome while anchored 
offshore in deeper water. This business includes the transfer of 
personnel and equipment to and from the ships. In addition, large fuel 
tankers anchored offshore of Nome lighter their load by offloading it 
to smaller vessels for delivery to Nome and other small communities of 
the area.
    Mr. Chairman and subcommittee members, this concludes my statement. 
Again, I appreciate the opportunity to testify today and look forward 
to answering any questions you may have.

    Mr. Maloney. Thank you, Colonel. We will now proceed to 
Members' questions, and I recognize myself for 5 minutes.
    Colonel, can you help me understand the subject you were 
just talking about? What is the optimal depth for that port in 
Nome? I know we are fortunate enough to be joined by Admiral 
Allen, who is going to tell us it is--I think, according to 
your standards--deeper than 22 feet, deeper than the 35 feet 
they might get to with additional docking. Shouldn't it be 45 
feet? Can you talk a little bit about that, sir?
    Colonel Borders. Sir, in this project, it is a civil works 
project using the Remote and Subsistence Harbor Act of WDRA 
2007. So we maintain the draft and the study--has been upon the 
vessels that use it and the Coast Guard vessels. So the study 
is looking forward to between 30 and 40 MLLW, mean lower low 
water, for the study that we have out there.
    I understand the 45-foot depth, but that is for another 
organization. If they want, they have that capability there--
for the Arleigh Burke-class, I believe, is what you are 
referring to sir.
    Mr. Maloney. And so if I could just press you on that a 
little bit, what does that answer mean that you just--could you 
put that into terms that a normal human could understand?
    Colonel Borders. So the community of Nome, sir, on the 
shipping vessels that are up there, it is the assessment of the 
vessels that use that facility normally, and that is where we 
come up with between the 30 and the 40.
    Mr. Maloney. Right, but we have got a dynamic situation, 
don't we, Colonel? You would agree the whole point of what we 
are talking about today is the emerging reexamination of the 
Arctic, and developing a strategic plan, of keeping up with the 
great power competition. It is not going to be enough to just 
service the vessels who are using it now. Isn't that fair to 
say?
    I mean, in other words, do we have any other deepwater 
ports anywhere nearby?
    Colonel Borders. Sir, there is Port Clarence, which is----
    Mr. Maloney. That is it, right?
    Colonel Borders [continuing]. Natural deepwater with no 
facilities----
    Mr. Maloney. You are not considering Port Clarence any more 
are you, right? So this is the only one we are considering, 
right, is Nome?
    Colonel Borders. So it is the one that have, over the last 
three studies, has come to the conclusion that Nome is the best 
viable port with a benefit-cost ratio that also supports the 
community because we are using a civil works authority to do 
this.
    Mr. Maloney. And so, if we want to have a port, that is 
going to be it. And if we want to have a port we can actually 
use into the future with all the capabilities we want to 
develop--and we are going to spend a lot of taxpayer money on--
it has got to be deeper than 22 feet, even 35 feet, doesn't it?
    Colonel Borders. For national defense reasons, sir, I think 
that you are correct for--45 feet would be the optimal. But 
once again, this is--we are doing this under a civil works 
premise right now, and the authorities that the Corps has. So 
we do a lot of MILCON work, we are just currently not using 
that for this particular project.
    Mr. Maloney. I understand, thanks. And I appreciate your 
point. But I also think you appreciate the larger point, which 
we are paid to focus on, at least on this side of the dais.
    Admiral Smith, can you tell me a little bit about what your 
challenges are in the Arctic, what your infrastructure needs 
are? Obviously, it is a vast region. The extraordinary work you 
do in other places simply hasn't been possible in that region. 
I understand that.
    Can you put some context around that for us, and what we 
ought to be thinking about, what we ought to expect, what you 
would need to really bring it up to the same kind of standards 
we enjoy in other places?
    Admiral Smith. Yes, sir. Most of our work for hydrographic 
surveys in the Arctic for shipboard work has been staged out of 
Dutch Harbor using Nome as a sort of forward-operating base 
when it is accessible to us.
    And, you know, as a result of that and the vast distances 
that we have talked about earlier, it is a very short 
operational season available to us for surveying. And so the 
two ships that we have and our contractors have to cram a whole 
season's worth of activities into that short window.
    We have--recognizing this challenge, we are looking at ways 
of hitting that area as hard as we can with as many platforms 
as we can during that short season. So, to that end, we are 
looking at unmanned systems with--that are independent, with 
high-endurance, ship-based unmanned systems that can sort of be 
a force multiplier for our existing ships and future ships, and 
increased use of partnerships and crowdsourcing for the region.
    All of those together are still not going to be enough, 
because it is such a huge challenge. But we are being very 
creative with all of the technology and resources available to 
us.
    Mr. Maloney. And we also heard Admiral Ray talk about how 
everything is harder in the Arctic. Could you say a word about 
how you track ice movement and ice flows, oil spills, 
potentially, and any additional challenges you have there?
    Admiral Smith. Yes, sir. Very briefly, it is an interagency 
effort with NOAA and the Navy and the Coast Guard for, you 
know, different parts of the program. There is a lot of 
satellite observations, aircraft observations, and that 
tracking has been consistent over time.
    The oil spill response is particularly tricky, because we 
rely on modeling, which itself is then relying on observations 
and mapping, which is sparse in the Arctic. So we are investing 
in science for understanding the behavior of oil in that type 
of environment, as well as in the modeling necessary to support 
it.
    Mr. Maloney. Thank you, sir.
    Mr. Gibbs?
    Mr. Gibbs. Thank you, Mr. Chairman. I would just like to 
start out a little bit of a lighter note. I guess Captain Cook 
surveyed Alaska in 1778, and hopefully some of that survey data 
has been updated since then. You don't have to answer that.
    I do want to talk a little about the charts and the survey 
and what actions can NOAA take to complete surveys and process 
the data from those surveys of navigationally significant areas 
of the Arctic charted more quickly.
    And I want to tie this in a little bit with this other 
concept or a process called a Continuously Operating Reference 
System, or CORS. You know, the coastal mapping with the Army 
Corps NOAA does, they play together, interact. And I guess the 
two questions that come out of that really--does NOAA 
coordinate coastal mapping requirements and survey operations 
with the U.S. Army Corps of Engineers, the National Coastal 
Mapping Program?
    And also, could you tell the committee how this important 
program relates not only to NOAA's mission, but geographic data 
more generally? Because I have kind of heard that sometimes our 
coasts change on the maps, can you explain this whole area of 
how we developed these charts, and how we can do it better and 
more efficiently?
    Admiral Smith. Yes, sir. Thank you for the question. I 
understand the first question to be about the process of taking 
from observation until it is useful to the public. I am pleased 
to report that we have made huge progress on that in the last 
decade or so. This has been a personal passion of mine. And 
that has resulted--the improvement has been a result of both 
processing improvements in hydrographic surveying, but also 
changes in the way that we update our charts and distribute 
them.
    And, in fact, it is the charting changes that have probably 
led to the most notable improvement in this. So instead of 
waiting for a new edition of a paper chart to be printed, 
distributed to warehouses, and then sent out to customers, we 
are entirely digital now, and all charts are printed on demand. 
So when a new survey comes in, we can update it on the chart, 
and it can be available next Thursday.
    So the holdover from being a print shop is now gone, and 
that has cut years off of the time it takes to update charts. 
The Continuously Operating Reference Systems are GPS-based 
reference systems that are very dense. In the continental U.S. 
they are largely partnerships. And so where there is any 
infrastructure--from university or other Federal agencies--we 
tend to have these. This is one area where, because there are 
thinner communities and less activity in general, we have less 
in Alaska.
    But I am pleased to report that the National Geodetic 
Survey has a foundation CORS program that I know we will be 
hearing more about soon that will provide the underlying 
highest order positioning system to underlie the 2022 datum 
changes.
    Coordinate with the Army Corps? Absolutely, both for the 
channel programs, channel dredging--that is where most of the 
data comes from--but also for the coastal mapping program from 
the system run out of Mississippi and their other programs 
around the country.
    We have a 100-percent interoperability. That is, we can use 
the data when necessary. We also do coordinate knowing what 
each other's plans are, so that we can meet each other's needs 
as we go forward. So we don't always use the data, because it 
is not always relevant, but we do have available full 
interoperability. And that really ties into the coastal change, 
as well, particularly with less ice in Alaska, there is more 
erosion of the coastline, and we are seeing more coastal 
change. And with larger scale charts, that sort of change is 
more relevant and easier to----
    Mr. Gibbs. I appreciate it, I am glad to hear that you are 
working together on that.
    Admiral Smith. Yes, sir.
    Mr. Gibbs. Colonel, we are told that the Chief's Report for 
the Port of Nome Modification Study--due fall 2019--is there 
any changes to that schedule? And is the Corps encompassing 
expected national security and other associate benefits in 
their evaluation of the Arctic deep draft port?
    Colonel Borders. Sir, we don't anticipate any change. In 
fact, we anticipate achieve support in June of 2020 for the 
report. So we are on schedule for that.
    I believe the second part of your question was----
    Mr. Gibbs. About national security or other associated 
benefits.
    Colonel Borders. We do--we have included national security 
in this report structure. Uniquely enough--so there is 
currently no metric in our process to address that, but we are 
addressing that as far as being in the report, so that, like 
the chairman spoke to earlier, it can be it can be looked at in 
the larger perspective outside of the authority that we are we 
are looking at this project.
    Mr. Gibbs. I know you have got a challenge, because that is 
really the only possibility of having a deepwater port in that 
area, right?
    Colonel Borders. That is my understanding, sir.
    Mr. Gibbs. And the challenge----
    Colonel Borders. It is the best chance, sir.
    Mr. Gibbs. Yes, and the challenge is getting the draft deep 
enough.
    All right. Thank you, Chairman. I yield back.
    Mr. Maloney. I thank the gentleman. Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman. Admiral Smith, in your 
testimony you talk about the need for strategic partnerships 
and increased capability to ensure a steady stream of data and 
accurate information for sea ice and weather forecasts. The 
National Ice Center, which is located in my district in 
Suitland, Maryland, is one of those strategic partnerships 
between NOAA, the Navy, and the Coast Guard.
    Could you just talk a little bit about the ice center, and 
the value of that data, and what it means for operations in the 
Arctic?
    Admiral Smith. Yes, sir. Well, I will do my best, and if I 
don't meet your needs I can do--we can get followup information 
to you.
    So the ice center provides operational forecasts and 
conditions that are suitable for marine navigation. It is one 
of a suite of services that we provide to--that supports 
shipping services, marine navigation in general. It is, you 
know, heavily used, of course, for military, commercial, 
recreational, and other services.
    And so I am not sure what the--I mean I think that is the--
--
    Mr. Brown. In my district, you say something nice about it, 
and then they all feel good that----
    Admiral Smith. Yes, sir.
    Mr. Brown [continuing]. They are being, you know, 
acknowledged for their good work. So thank you very much.
    Admiral Smith. And if I could also just say that that--the 
three-agency cooperation for an operational program like that 
is unusual, and really, really noteworthy. And we are really 
pleased to be part of that.
    Mr. Brown. Great. Well, thanks.
    Colonel Borders, in your testimony--at least in your 
written testimony, you point out that the Corps of Engineers 
has improved channels at 62 ports in Alaska, and that 57 of 
those are still in use today. With the increasingly ice-free 
conditions in the Arctic, what are some of the things we can do 
better to increase our capacity in the Arctic and improve 
efficiency at our ports?
    Colonel Borders. So a lot of it, sir, is getting in the 
studies. So down here in the lower 48--excuse the 
colloquialism--but a lot of the environmental studies, marine 
mammal studies, the endangered species studies, they are easy 
to gather, they are quickly gathered because the data is over 
and over years.
    But when I had the mayor of Kotzebue in my office, and we 
did one of our civil works milestones, the agency decision 
milestone. So Mayor Smith--Eugene was in there, and he got a 
brief with me. And he said, literally, to get the information 
we can give to NOAA so they can make the right decision, we are 
going to have to put a fisherman or a fisher person on that 
dock to count the number of ringed seals that go by. The data 
just doesn't exist.
    So some of it is collecting and learning more, I think, is 
the best answer, sir.
    Mr. Brown. So what do you need from Congress to help you 
with that?
    Colonel Borders. Right now, sir, we just need the studies 
that we have to continue to be funded and supported. I would 
say that, outside of that--maybe I am speaking outside of my 
lane a little bit, but for NOAA and other agencies to have the 
ability to conduct some more broad-based studies in Alaska so 
that data is more openly, readily available, so when we get 
ready to build something we can build it.
    Mr. Brown. Great. Thank you, Mr. Chairman. I yield back.
    Mr. Maloney. Well, seeing no other Members who might have 
questions, I am going to thank the gentlemen for their 
testimony. We do have a third panel, so I am going to try to 
move ahead with this. Thank you both very much. Let's go to the 
third panel.
    [Pause.]
    Mr. Maloney. Well, thank you all for being here. Without 
further delay I would like to move now to our final panel of 
witnesses.
    We are joined today by Admiral Thad Allen, U.S. Coast Guard 
retired, coauthor of the Council on Foreign Relations report, 
``Arctic Imperatives: Reinforcing U.S. Strategy on America's 
Fourth Coast''; Ms. Heather A. Conley, senior vice president 
for Europe, Eurasia, and the Arctic for the Center for 
Strategic and International Studies; Dr. Abbie Tingstad, senior 
physical scientist for the RAND Corporation; and the Honorable 
Mead Treadwell, cochair of the Polar Institute for the Woodrow 
Wilson Center.
    Thank you all for being here today. We look forward to your 
testimony.
    Without objection, our witnesses' full statements will be 
included in the record.
    As with the previous panels, since your written testimony 
has been made part of the record, the subcommittee requests 
that you limit your oral testimony to 5 minutes.
    I am going to start with you, Admiral Allen. Thank you all 
for being patient and for allowing us to get through the other 
panels first.
    In particular, Admiral Allen, I want to thank you very much 
for your four decades of service to the country. We respect 
very much your service to the Coast Guard, your work during 
Hurricanes Katrina and Rita. And of course, Deepwater Horizon. 
And I have read the report you coauthored for the Council on 
Foreign Relations, and it is a terrific piece of work. I know 
it has been out there for 2 years, but we are very thankful for 
your presence today. I wanted to give you an opportunity to 
highlight for us the importance of some of the issues you 
raised in that report.
    Go ahead, sir.

 TESTIMONY OF ADMIRAL THAD W. ALLEN, U.S. COAST GUARD (RET.); 
 HEATHER A. CONLEY, SENIOR VICE PRESIDENT FOR EUROPE, EURASIA, 
AND THE ARCTIC, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES; 
  ABBIE TINGSTAD, Ph.D., SENIOR PHYSICAL SCIENTIST, THE RAND 
CORPORATION; AND HON. MEAD TREADWELL, COCHAIR, POLAR INSTITUTE, 
                     WOODROW WILSON CENTER

    Admiral Allen. Thank you, sir. Mr. Chairman Maloney, 
Ranking Member Gibbs, other members of the committee--and I saw 
some old friends here that are no longer in the room, I will 
try and reach out and touch them at another time--I am pleased 
to be here with my distinguished colleagues, all of whom have a 
lot to add to the testimony today.
    And I would like to comment on the Corps of Engineers and 
NOAA. Their testimony, as you know, was to the point, but 
incredible support provided to me during the hurricanes in the 
oil spill response, and my entire service and the Coast Guard.
    For the record I am here today testifying in my personal 
capacity, not representing any entity. And I used to say when I 
was giving speeches that I am going to be frank and honest. 
Because I am retired, my pension is assured. I can only tell 
you today that I am retired.
    [Laughter.]
    Admiral Allen. In 2016, as you noted, I was honored to 
colead an independent task force sponsored by the Council on 
Foreign Relations that issued a report entitled ``Arctic 
Imperatives: Reinforcing U.S. Strategy on America's Fourth 
Coast.'' That report developed recommendations for policymakers 
to consider in the transition process, as you noted, in 2016. I 
am going to summarize the key findings of that report, and the 
full report is available, and I have recommended to the staff 
it be appended to the report of the of the hearing, sir.
    Mr. Maloney. Without objection.
    [The information follows:]

                                 <F-dash>
     Report by Council on Foreign Relations, ``Arctic Imperatives: 
 Reinforcing U.S. Strategy on America's Fourth Coast,'' Submitted for 
                       the Record by Hon. Maloney
    The report is retained in committee files and a PDF may be 
downloaded from the Council on Foreign Relations website at https://
www.cfr.org/report/arctic-imperatives.

    Admiral Allen. As stated in the report, the Arctic is a 
crossroads of international politics and a forewarning for the 
world. The United States, through Alaska, is a significant 
Arctic nation with strategic economic and scientific interests. 
As sea ice continues to melt, countries inside and outside the 
Arctic region have updated their strategic and commercial 
calculations to take advantage of the changing conditions 
stemming from the opening of the region.
    The United States needs to increase its strategic 
commitment to the region or risk leaving its interests 
unprotected.
    The task force organized its work into four interrelated 
areas: U.S. policy; U.S. national security; economic, energy 
and environmental issues; and, finally, Alaska and Alaska 
Natives. We consulted broadly, and support a comprehensive, 
integrated approach in assessing future options in the Arctic. 
That approach includes sustaining international partnerships--
that was noted by Admiral Ray--of the Arctic Council, 
International Maritime Organization, and the Coast Guard Arctic 
Forum.
    The task force identified six main goals U.S. policymakers 
should pursue to protect the United States growing economic and 
strategic interests in the Arctic.
    First, ratify the U.N. Convention on the Law of the Sea. 
The Senate should help secure the United States legal rights to 
more than 386,000 square miles of subsea resources along its 
extended continental shelf by ratifying this treaty. Admiral 
Ray talked about rules-based operations in Alaska. This is the 
overarching global governance strategy for this globe and, in 
my view, the United States should be ashamed it hasn't ratified 
it yet.
    I am retired.
    [Laughter.]
    Admiral Allen. Fund and maintain polar icebreakers. We 
recommended six; I won't get into that, because it has been 
detailed fairly significantly in the hearing to date.
    Improve Arctic infrastructure.
    Invest in telecommunications, energy, and other 
infrastructure in Alaska, and find locations for safe harbor 
ports and a deepwater port.
    Three, strengthen cooperation with other Arctic nations. 
Continue diplomatic efforts with the Arctic Council and work 
with other Arctic states, including Russia, on confidence-
building and cooperative security measures.
    I would add continuing cooperation with Russia is vital, 
and the Coast Guard has done that through my entire career, and 
needs to continue to do that, regardless of the larger security 
environment we are operating in.
    And finally, fund scientific research. Sustain budget 
support for scientific research beyond 2017 to understand the 
regional and global impact of accelerated change.
    I am going to omit my other comments, because they have 
been covered by other folks. I would like to go to just maybe 
just one comment to close with, and it is in response to 
Admiral Ray's comments about peer competitors.
    There is an old saying that I wish I could attribute to an 
author, but I can't, unfortunately. And the quote is, ``You 
don't have sovereignty unless you can exert it.'' Our peer 
competitors understand that about the Arctic, and are 
demonstrating strategic intent with their current actions. In 
the United States we spend more time arguing about who 
understands the climate better.
    Before I retired from the Coast Guard I was asked by a 
Member of Congress about my opinion on global warming. I 
responded there was water where there didn't used to be, and I 
was responsible for it. It is time to understand that we are 
all responsible for the Arctic and this planet. I would be 
happy to take your questions.
    [Admiral Allen's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Admiral Thad W. Allen, U.S. Coast Guard (Ret.)
    Mr. Chairman Maloney, Ranking Member Gibbs, and members of the 
committee, I am pleased to have been invited to testify on this 
important topic and I thank you for the opportunity.
    I am also pleased to be here with my distinguished colleagues. 
Admiral Charlie Ray is a superb leader. I have enjoyed long standing, 
valuable relationships with both NOAA and the Army Corps of Engineers. 
Their support to me and the Nation was critical in the responses to 
Hurricanes Katrina and Rita and to the Deepwater Horizon Oil Spill. 
Heather Conley is an old friend from CSIS and an expert in her field. 
Abbie Tingstad represents RAND where I served as a Senior Fellow and I 
welcome her. And finally, Mead Treadwell, who has made Arctic issues, 
governance, and infrastructure his life's passion.
    For the record I am testifying in my personal capacity today and am 
not representing any other entity.
    In 2016, I was honored to co-lead an independent Task Force 
sponsored by the Council on Foreign Relations (CFR) that issued a 
report entitled ``Arctic Imperatives: Reinforcing U.S. Strategy on 
America's Fourth Coast.'' That report developed recommendations for 
policy makers to consider in the Presidential transition process.
    As stated in the report, ``The Arctic is a crossroads of 
international politics and a forewarning for the world. The United 
States, through Alaska, is a significant Arctic nation with strategic, 
economic, and scientific interests. As sea ice continues to melt, 
countries inside and outside the Arctic region have updated their 
strategic and commercial calculations to take advantage of the changing 
conditions stemming from the opening of the region. The United States 
needs to increase its strategic commitment to the region or risk 
leaving its interests unprotected.''
    The Task Force organized its work in four interrelated areas: U.S. 
Policy; U.S. National Security; Economic, Energy and Environmental 
Issues; and, finally, Alaska and Alaska natives. We consulted broadly 
and support a comprehensive, integrated approach in assessing future 
options in the Arctic. That approach includes sustaining international 
partnership through the Arctic Council, International Maritime 
Organization, and the Coast Guard Arctic Forum.
    The Task Force identified six main goals that U.S. policymakers 
should pursue to protect the United States' growing economic and 
strategic interests in the Arctic:
    <bullet>  ``Ratify the UN Convention on the Law of the Sea. The 
Senate should help secure the United States' legal rights to more than 
386,000 square miles of subsea resources along its extended continental 
shelf by ratifying this treaty.
    <bullet>  Fund and maintain polar ice-breaking ships. Congress 
should approve funding for up to six icebreakers to improve operational 
capacity in the Arctic, so as to have at least three operational ships 
in the polar regions at any one time.
    <bullet>  Improve Arctic infrastructure. Invest in 
telecommunications, energy, and other infrastructure in Alaska and find 
locations for safe harbor ports and a deepwater port.
    <bullet>  Strengthen cooperation with other Arctic nations. 
Continue diplomatic efforts within the Arctic Council and work with 
other Arctic states, including Russia, on confidence-building and 
cooperative security measures.
    <bullet>  Support sustainable development and Alaska Native 
communities. ``Maintain the [Arctic] Council's focus on sustainable 
development, environmental protection, and continued involvement of the 
Arctic's indigenous peoples.''
    <bullet>  Fund scientific research. Sustain budget support for 
scientific research beyond 2017 to understand the regional and global 
impact of accelerated climate change.''
    In regard to today's hearing the report emphasizes that, ``The 
United States needs to bolster its infrastructure and assets in the 
Arctic to safeguard its strategic interests, defend its national 
borders, protect the environment, and maintain its scientific and 
technological leadership.''
    More specifically, almost no marine infrastructure is in place 
within the U.S. maritime Arctic. In some areas infrastructure is 
provided by the oil and gas industry to support their facilities. 
However, this infrastructure supports industrial operations. Other 
needs are creating severe challenges for public authorities at the 
local, state, and national level. New commercial activity would be 
hampered by inadequate infrastructure. Deepwater ports exist in Norway, 
Iceland, and Russia, the largest of which is in Murmansk, Russia, but 
the North American Arctic has no major port to service transoceanic 
maritime transportation. The port at Nome, Alaska, is only twenty-two 
feet deep, but the city of Nome hopes to build out its docks to reach a 
draft of thirty-five feet deep without dredging. The Army Corps of 
Engineers defines a deepwater port as forty-five feet deep. The Task 
Force urged policymakers to reinforce U.S. strategic presence in the 
Arctic by making a sustained commitment to boosting technology and 
building the infrastructure for safe operations in the region.
    In closing I would like to make a general comment on the U.S. 
position in the Arctic and appreciate Admiral Ray's comments on peer 
competitors.
    There is an old saying that I wish I could attribute to an author--
but can't. ``You don't have sovereignty unless you can exert it.'' Our 
peer competitors understand that about the Arctic and are demonstrating 
strategic intent with their current actions. In the United States we 
spend more time arguing about who understands the climate better. 
Before I retired from the Coast Guard I was asked by a member of 
Congress about my opinion on global warming. I responded that there was 
water where there didn't used to be and I was responsible for it. It is 
time to understand that we are all responsible for the Arctic and this 
planet.
    I recommend the CFR report be appended to the record of this 
hearing and I am happy to answer your questions.

    Mr. Maloney. Thank you very much, sir.
    Ms. Conley?
    Ms. Conley. Chairman Maloney, Ranking Member Gibbs, thank 
you so much for this kind invitation to testify before you this 
afternoon. And thank you for your thoughtful work for many 
years related to strengthening America's capabilities in the 
Arctic.
    I actually really appreciate the title of this hearing, as 
there is a cost to doing nothing, and there is also a cost for 
taking action. I thought, since my written testimony is already 
placed in the record, that I would just provide a few moments 
of reflection on Secretary Pompeo's, I think, groundbreaking 
speech on Monday in Finland, and then to just offer some ideas 
for your consideration.
    Although Secretary Pompeo's speech against the backdrop of 
the Arctic Council was perhaps a misplaced moment, because the 
Arctic Council does not deal with hard security, nor does it 
really deal with economic issues, I think it is an important 
moment that a senior U.S. Government official has now stated 
that we are in a new age of strategic engagement in the Arctic. 
This is not new news to this committee, but I think it is new 
that it has been articulated.
    But as I note in my written testimony, we fall again into a 
trap of our own making by describing what our competitors are 
doing, and that in some way substitutes for what we are not 
doing. So we can talk about Russia's 41 icebreakers, but we 
need 6. We can talk about the 16 deepwater ports that perhaps 
Russia may have, but we just need 1. We need to have more 
flexible, capable forces and assets that can operate in ice-
covered waters and can fight in cold weather.
    So my suggestion--and it came to me as I was listening to 
the testimony--is, quite frankly, we do need an operational 
plan, I would argue, along the lines--and I closely follow U.S. 
force posture in Europe and NATO--we need something akin to the 
European--it was first called the Reassurance Initiative, it 
went to the European Deterrence Initiative, and now it is the 
European Defense Initiative.
    What happened? U.S. had withdrawn forces from Europe, and 
then the annexation of Crimea and the incursion into the Donbas 
occurred, and all of a sudden we had to get very focused and 
have a dedicated spending on air, land, and maritime component 
to make our forces more robust.
    I would argue we need an Arctic sovereignty initiative. It 
needs to work both with the Coast Guard and with the Navy. It 
needs to be multiyear and dedicated. We have to take the 
urgency of great power competition in the Arctic and move 
forward with actual spending. What I have heard is lots of 
conversation about what we should do; we have to put the 
imperative of what we will do. And again, it is not about what 
our competitors are doing, it is about what the U.S. must do to 
protect its security interests in the Arctic.
    Again, just two more or three more brief reflections on 
Secretary Pompeo's speech. He noted that respect and 
transparency are the price of admission in the Arctic. Well, I 
would probably rephrase that, and I would say that it is 
respect for international law and norms, which is the price for 
stability, security, environmental protection, and prosperity 
in the Arctic.
    So we--right now everyone is respecting international law, 
but we don't have transparency. We have a lack of transparency 
of why Russia is constructing very sophisticated air bases with 
surface-to-air missiles, and developing new and exercising new 
Arctic-specific equipment. We don't have transparency on what 
China is doing in their observation centers or in their 
infrastructure development norms and Arctic code of conduct, 
and greater confidence-building measures are needed.
    Secretary Pompeo also alerted us to the differences in the 
maritime legal interpretations of the Northwest Passage and the 
Northern Sea Route. This is important. But lumping Canada and 
Russia into the same bucket, I think, is incorrect. We have an 
ally and a NATO partner that we share protection of North 
America and NORAD. We have a difference of opinion. We manage 
that opinion. Russia's difference of opinion is a slightly 
different issue.
    But again, we have to look at this in context. The reason 
that we don't have a major issue right now with that legal 
interpretation is because the traffic has been so minimal in 
the Northern Sea Route. In 2018 there were 27 full transits 
through the Northern Sea Route. We haven't really raised this 
issue, quite frankly, because it hasn't been used that much. 
And I suspect that the Northern Sea Route is not the primary 
interest for the Chinese. It is the transpolar, or central 
passage that is of importance to them. I don't believe they are 
going to pay those port fees in the future.
    So I--just one closing comment that I have, and that is our 
work at the Arctic Council. The U.S. position on the Arctic 
Council and the declaration, unfortunately, had the unique 
result of having Russia and China sound more like environmental 
advocates, and working more harmoniously with our own allies 
than the U.S. We have to effectively use these vehicles, 
whether it is the International Maritime Organization or the 
Arctic Council, to shape the influence we want. When the U.S. 
walks away from these institutions, we cede influence and power 
to our competitors.
    We have to stop kicking our own goals and get busy working 
on developing America's capabilities in the Arctic. Thank you.
    [Ms. Conley's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Heather A. Conley, Senior Vice President for 
Europe, Eurasia, and the Arctic, Center for Strategic and International 
                                Studies
    Mr. Chairman, Ranking Member Gibbs, and distinguished members of 
the subcommittee, thank you for the kind invitation to speak to you 
once again and for holding this important hearing to discuss what we 
must do to ensure American sovereignty in the Arctic.
    It has been my great privilege to testify before this subcommittee 
for the past four years on the Arctic. But it is my great frustration 
that I find myself repeating my previous testimonies, with the only 
exception that I offer updates on what our competitors, China and 
Russia, are doing to secure their strategic interests in the Arctic. 
Unfortunately, the only updates on U.S. policy that I can offer you 
today is what you already know very well, primarily due to the hard 
work of this subcommittee: first, the U.S. has finally set the wheels 
in motion to construct one heavy ice-breaker which we hope will be 
available for use in Antarctica by 2024. We hope that the Polar Star 
will continue to be operational while the new icebreaker is being 
built. We hope there will be additional heavy and medium ice-breakers 
built in the future that could be regularly utilized in the Arctic. But 
hope is not an effective operational plan. Second, various U.S. 
agencies and departments have produced several more Arctic studies and 
strategies which underscores that the United States has perfected our 
ability to describe an Arctic policy, but we cannot or will not 
implement one. Rest assured our competitors are implementing their 
policies.
                             a lost decade
    After spending over a decade researching U.S. strategic interests 
in the Arctic and the geopolitics of the region, I am encouraged that, 
over the past several months, there is a new and growing consciousness 
in Washington about the rise of great power competition in the Arctic 
and in particular, the role of China in the Arctic. This consciousness 
has also been heightened by the extraordinary and unprecedented pace of 
climate transformation we are witnessing in the Arctic. Our most 
predicative models are now off by decades.
    Unfortunately, it has taken the U.S. a decade to realize what U.S. 
Coast Guard Rear Admiral Gene Brooks, then Commander of District-17, 
told us in 2008: ``The Arctic is upon us, now.'' U.S. policy toward the 
Arctic never included a sense of urgency and anticipation to build the 
infrastructure and capabilities to protect America's fourth coast, or 
to prioritize our needs in the Arctic, or to make tough budget 
decisions. We have lost a decade. The U.S. cannot sufficiently 
safeguard U.S. territorial waters and our Exclusive Economic Zone, 
particularly given the up-tick in LNG carriers and other foreign-
flagged vessels traversing the narrow Bering Strait. I fear the U.S. 
Coast Guard has now become so accustomed to being inadequately 
resourced to execute its mission in the Arctic that it accepts its lack 
of readiness as a state of normalcy that cannot be challenged. The U.S. 
Coast Guard continues to rely on outdated capabilities and thinly 
resourced budgets which equates to a seasonal U.S. Coast Guard presence 
(July-October). Should an incident occur in the American Arctic, the 
only way that the U.S. can effectively manage is if it occurs during 
the summer season and near a pre-positioned U.S. maritime asset. Years 
of underinvestment and policy stagnation are coming home to roost.
    In my testimony last year, I described in detail what China and 
Russia are doing economically and militarily in the Arctic and 
underscored my growing concerns that the U.S. was now at risk of losing 
its ability to protect and project its sovereignty and maintain full 
access to the Arctic. We cannot strategically sustain another lost 
American decade in the Arctic.
                     the power of american presence
    While I recognize this goes beyond the remit of this subcommittee, 
but as this is the only subcommittee that hosts regular Arctic 
hearings, this subcommittee is the best place to have a broader and 
more holistic conversation about U.S. policy toward the Arctic. It is 
essential that we broaden our concept of physical presence and its 
relationship to sovereignty in the Arctic. Sovereign presence can take 
the form of scientific ventures, sustainable infrastructure 
development, diplomacy, and an enduring security and maritime presence. 
All instruments of U.S. power must be deployed.
    Growing U.S. Science and Diplomatic Presence in the Arctic. China 
has effectively used scientific research and its investments in Arctic 
indigenous communities to enhance its physical presence in the region. 
China opened its first Arctic scientific research station in 2004 on 
the island of Svalbard. Today, Chinese scientists have registered 80 
projects on the island, including biological, social, and atmospheric 
studies.\1\ In 2017, China conducted a circumpolar scientific research 
program in which their icebreaker, the Xue Long, traversed both the 
Northwest Passage and Northern Sea Route in the same season. In 2018, 
Beijing opened the China-Iceland Arctic Science Observatory (CIAO) in 
Northern Iceland. The facility has a wide mandate and focuses on 
climate change, satellite remote sensing, geosciences, oceanography, 
and fisheries among other issues.\2\ Two weeks ago, at the fifth 
International Arctic Forum in St. Petersburg, China and Russia agreed 
to establish the Chinese-Russian Arctic Research Center to study issues 
such as ice conditions along the Northern Sea Route (NSR), a vital 
Arctic maritime transit route for both Russian and Chinese economic 
ambitions.\3\
---------------------------------------------------------------------------
    \1\ Av Ole Magnus Rapp, ``Kina raser mot Norge,'' Klassekampen, 
March 7, 2019. https://www.klassekampen.no/article/20190307/ARTICLE/
190309978; ``China at Loggerheads with Norway Over Access to Arctic 
Archipelago,'' Sputnik, March 12, 2019. https://sputniknews.com/europe/
201903121073147498-norway-china-arctic-arhipelago-svalbard/.
    \2\ Melody Schreiber, ``A new China-Iceland Arctic science 
observatory is already expanding its focus,'' Arctic Today, October 31, 
2018. https://www.arctictoday.com/new-china-iceland-arctic-science-
observatory-already-expanding-focus/.
    \3\ Pavel Devyatkin, ``Russian and Chinese Scientists to Establish 
Arctic Research Center,'' High North News, April 15,2019. https://
www.highnorthnews.com/en/russian-and-chinese-scientists-establish-
arctic-research-center.
---------------------------------------------------------------------------
    While the U.S. has a substantial polar science budget, we should 
more actively pursue bilateral arrangements across the circumpolar 
Arctic to create additional American scientific observation and 
research centers.
    Diplomatically, China has increased the frequency of visits by 
senior Chinese officials to capitals as well as a variety of 
international conferences. It has also increased its embassy personnel 
in Arctic Council member states, particularly in Iceland. This is 
critically important as Iceland assumed the chair of the Arctic Council 
yesterday (May 7th). It is encouraging news that the U.S. will 
reportedly have a foreign service officer spend about half of his or 
her time in Nuuk, Greenland. This is a step in the right direction, but 
it is not enough. The U.S. should consider increasing its diplomatic 
presence in Greenland as well as in Iceland, Northern Norway and in 
Finland by establishing what the State Department once termed American 
Presence Posts (APPs). These posts could include either diplomats or 
scientists who open a small office in strategic locations to ensure 
consistent American diplomatic presence.
    Growing U.S. Infrastructure and Security Presence. It took over ten 
years to begin the procurement process for one U.S. heavy icebreaker 
which will largely be deployed to Antarctica. A similar timeline to 
construct critical infrastructure like a deep water port or improve 
satellite communications would leave the U.S. ill-prepared to address 
the growing economic and military presence of Russia and China in the 
Arctic. Although the Coast Guard's Arctic strategy always underscores 
the need for the U.S. to enhance its marine domain awareness and 
communication capabilities in the region, very little action is taken 
to increase these capabilities. U.S. military requirements exist for 
communications support for submarines, aircraft, other platforms, and 
forces operating in the high northern latitudes but these requirements 
do not take into account increased Coast Guard operations as a result 
of accelerated Arctic melting.\4\ The U.S. should consider the 
expansion of current commercial satellite communication networks 
already in place, including Iridium Satellite, a commercial satellite 
communications service available in the Arctic that is used by the U.S. 
Air Force.\5\ To further improve our operational capabilities, the 
Coast Guard should host additional forward operating location bases in 
Alaska as well as increase hangar space and aviation assets that are 
staffed beyond the summer season.
---------------------------------------------------------------------------
    \4\ Patrick L. Smith, Leslie A. Wickman, and Inki A. Min, 
``Broadband Satellite Communications for future U.S. Military and Coast 
Guard Operations in an Ice-Free Arctic,'' Aerospace Corporation, July 
1, 2011.
    \5\ Ibid.
---------------------------------------------------------------------------
    Beyond icebreakers, the U.S. lacks ice-strengthened surface 
vessels. Currently, U.S. Navy submarines are the only vessels capable 
of regularly monitoring the Central Arctic Ocean. NATO's Trident 
Juncture exercise last fall should have been a powerful wake-up call 
for the U.S. military. While the exercise did not occur when ice 
conditions were present, U.S. troops experienced harsh weather 
conditions not seen since the Cold War. It is encouraging that the 
Secretary of the Navy has announced additional exercises in Alaska this 
September but again, these exercises, while providing valuable 
experience, occur in the more benign summer months when sea ice in the 
Bering Sea is at a minimum. Working in less challenging conditions does 
not improve familiarity with cold-weather warfare and ice conditions 
which have atrophied over the years. Ironically, the planned U.S. 
exercise will likely occur at the same time the Russian military will 
be implementing its Tsentr-2019 exercise which will test some of 
Russian's most advanced and modern Arctic-designed weapon systems.
    The U.S. must develop an operational plan that envisions a 
persistent security presence in the Arctic. A key pillar of this 
presence must include the enhanced protection of our missile defense 
architecture located in the Arctic. This will be critical as Russia's 
military footprint near Alaska and Greenland grows, and as China's 
growing economic and scientific infrastructure could support a strong 
PLA and PLAN presence. We must also carefully analyze the potential 
dual-use capabilities and implications of Chinese-built infrastructure 
for nearby U.S. troops and assets.
                the cost of doing nothing will escalate
    If the U.S. chooses not to enhance its physical presence in the 
Arctic or use multilateral instruments like the International Maritime 
Organization (IMO), the Arctic Council, and other entities to protect 
our interests and reinforce international legal norms, U.S. access to 
and influence in the Arctic region will diminish and our allies and 
partners in the region will increasingly accommodate Russia's and 
China's preferred policy outcomes. It is difficult to calculate the 
exact cost and national security implications of doing nothing, but we 
can already see the ``cost'' of policy stagnation over the last lost 
decade. The U.S. has fallen behind its competitors and policy options 
have been eroded.
    There are several other near-term strategic costs of doing nothing 
that must be considered should the U.S. continue to choose not to 
increase its physical presence in or develop an operational plan for 
the Arctic.
    Iceland's Arctic Council Chairmanship. As Iceland now assumes the 
chairmanship of the Arctic Council, we must be alert to the likely 
increase of influence by China on the Arctic Council. Economically, 
China has invested approximately $1.2 billion [https://www.cna.org/
cna_files/pdf/COP-2017-U-015944-1Rev.pdf] in Iceland (between 2012 and 
2017), representing 5.7 percent [https://www.cna.org/cna_files/pdf/COP-
2017-U-015944-1Rev.pdf] of the country's GDP, after Iceland became the 
first European nation to sign a free trade agreement with China in 
2008.\6\ The U.S. must enhance its bilateral diplomatic engagement with 
Iceland throughout this two-year period just as it increases its 
security presence through the European Defense Initiative (EDI) with 
increased hangar space at Keflavik Air Force Base to conduct anti-
submarine operations in the North Atlantic. It should be noted that 
Russia assumes the Arctic Council chairmanship mantle after Iceland in 
2021.
---------------------------------------------------------------------------
    \6\ Mark E. Rosen and Cara B. Thuringer, ``Unconstrained Foreign 
Direct Investment: An Emerging Challenge to Arctic Security,'' CNA 
Corporation, November 2017. https://www.cna.org/cna_files/pdf/COP-2017-
U-015944-1Rev.pdf.
---------------------------------------------------------------------------
    The Arctic Council itself is at an organizational crossroads. 
Political will among member states to affect change is low, which makes 
the intergovernmental forum ripe for both prolonged stagnation (leading 
to irrelevance) and potential influence by permanent observers such as 
China. The U.S. can choose to spend its time and diplomatic energy 
wordsmithing a ministerial declaration (to avoid the words ``climate 
change'') or it can meaningfully engage to shape the Arctic Council's 
future.
    China's Economic Growth in Greenland. In the context of China's 
growing economic presence in the Arctic, Greenland has leapt to the 
forefront of U.S. concern. Chinese investments in Greenland center on 
energy and mineral resources, making Chinese state-owned enterprises' 
(SOEs) the top foreign investors [https://jamestown.org/program/china-
greenland-mines-science-nods-independence/] in Greenland.\7\ In 2018, 
the U.S. and Danish governments intervened at the last minute to 
prevent Beijing from being awarded a contract to develop three airports 
in Greenland, the site of deep-water ports and a critical location for 
the U.S. ballistic missile early warning system. While this 
intervention may have temporarily arrested China's efforts to invest in 
Greenland, such a ``whack-a-mole'' policy is not a comprehensive or 
strategic plan for the region. Working closely with the Danish 
authorities, we need a more robust plan of action for Greenland and a 
comprehensive analysis of a growing Chinese economic and scientific 
presence in Greenland and its implications for Thule AFB and the larger 
U.S. ballistic missile early warning system.
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    The Growth of Arctic LNG. The focal point of Arctic economic 
development for Russia and China is the Russian Yamal LNG-1 and Yamal 
LNG-2 projects on the Yamal Peninsula. This is a powerful example of 
the economic interaction between our two peer competitors. Chinese 
companies own 29.9 percent of the $27 billion project of Yamal LNG-1, 
an ``anchor'' investment that can translate into future ``cluster'' 
infrastructure investments such as port, rail, and telecommunications 
projects. Recently, two Chinese companies--China National Oil and Gas 
Exploration and Development Company (CNODC), a subsidiary of China 
National Petroleum Corporation, and China National Offshore Oil 
Corporation (CNOOC) signed agreements with Russia's Novatek to buy a 
combined 20 percent stake in the Yamal LNG-2 project.\8\ Such an 
agreement, along with the Yamal LNG-1, will undoubtedly spur an 
increase in use by LNG carriers of the Bering Strait. As larger vessels 
become more frequent through the passage, U.S. Coast Guard resources 
will be increasingly strained, inhibiting their ability to protect 
America's coastline.
---------------------------------------------------------------------------
    \8\  Katya Golubkova and Maria Kiselyova, ``Russia's Novatek to 
sell 20 percent in Arctic LNG 2 to China,'' Reuters, April 25, 2019. 
https://www.reuters.com/article/us-russia-gas-novatek-cnodc/russias-
novatek-to-sell-20-percent-in-arctic-lng-2-to-china-idUSKCN1S11WY.
---------------------------------------------------------------------------
    Russia's Extended Outer Continental Shelf Claims. The Russian 
government has presented extensive scientific data in 2001 and again in 
2015 to claim significant portions of the continental shelf extending 
far into the Central Arctic Ocean. In 2016, the Danish government 
rejected the Russian government's approach to open bilateral 
negotiations on a mutually acceptable solution (Denmark has submitted 
scientific data for overlapping claims) to the extended outer 
continental shelf claims, preferring to wait for the conclusions of the 
Committee on the Limits of the Continental Shelf (CLSC). Canada has 
also submitted a claim that overlaps with Russia's. Thus far, this 
issue has been handled appropriately within the UN Convention on the 
Law of the Sea (UNCLOS). However, should Russia choose to take a more 
unilateral approach to its claims, this could destabilize the region. 
As the claimants await a ruling that is likely to take several more 
years, Russia has reinforced its conventional military presence on the 
Kola Peninsula as well as its military footprint across the Russian 
Arctic to include radars, air bases, and coastal defense systems on 
remote islands like Wrangel Island [https://www.tearline.mil/
public_page/russias-resurgent-military-posture-in-the-arctic-a-case-
study-of-wrangel-island/], Kotelny Island [https://www.tearline.mil/
public_page/the-ice-curtain-protecting-the-arctic-motherland/], and 
Severnaya Zemlya.
    Sovereignty and Svalbard. The 1920 Treaty of Spitsbergen or 
Svalbard grants Norway sovereignty over Svalbard but allows signatories 
of the treaty to access and participate in the economic development and 
scientific understanding of Svalbard. Norway regulates these activities 
without discrimination. The Treaty also prohibits Norway from 
establishing a naval base or any military fortification or use Svalbard 
for warlike purposes.\9\ This is the legal basis upon which China has 
established its 2004 scientific station and Russia has invested in coal 
mines. There have been tensions between Russia and Norway over 
fisheries management as well as mine ownership concerns, but such 
disputes have been resolved due to mutual interest in preserving the 
cooperative nature of the Arctic region. Some experts, however, have 
expressed concern that Russia's new Arctic command on the Kola 
Peninsula, which emphasizes the planning and training of amphibious 
operations supported by missile strikes on shore, could leave military 
options available to it in an effort to alter the archipelago's neutral 
status.\10\ President Putin recently cautioned in a speech on April 9th 
in St. Petersburg, ``I wouldn't like tosee the Arctic turning into 
something like Crimea . . . ''
---------------------------------------------------------------------------
    \9\ Heather A. Conley, et al. History Lessons for the Arctic, 
Center for Strategic and International Studies, December 2016, 15. 
https://csis-prod.s3.amazonaws.com/s3fs-public/publication/
161219_Conley_HistoryLessonsForArctic_Web.pdf
    \10\ Pavel K. Baev, ``Russian Strategic Guidelines and Threat 
Assessments for the Arctic,'' George C. Marshall European Center for 
Security Studies, Security Insights No. 26, ISSN 1867-4119, April 2019. 
https://www.marshallcenter.org/MCPUBLICWEB/mcdocs/
security_insights_26_-_baev_march_2019_-_final_-_letter_size.pdf.
---------------------------------------------------------------------------
    After a decade of stagnation, the U.S. finds itself lagging behind 
its peer competitors. A lack of policy priorities, commitment of multi-
year financial resources, and political will has shifted the U.S. from 
being a reluctant Arctic power to an inadequate Arctic power. The U.S. 
must reassert its presence in all its manifestations to protect 
American sovereignty, ensure U.S. access to the region, and shape and 
influence its future development. If not, we will continue to occupy 
ourselves by describing what others are doing in the Arctic every time 
a Congressional hearing is held. The strategic costs to the U.S. for 
this path will be great.

    Mr. Maloney. Thank you, Ms. Conley.
    Dr. Tingstad, am I saying your name correctly, Doctor?
    Ms. Tingstad. You are, sir.
    Mr. Maloney. Tingstad.
    Ms. Tingstad. Thank you.
    Mr. Maloney. Go ahead, ma'am.
    Ms. Tingstad. Chairman Maloney, Ranking Member Gibbs, thank 
you very much for the opportunity to appear before you this 
afternoon.
    The three main points I would like to leave the committee 
with today are: one of the greatest concerns that has emerged 
in my research are incidents that might imperil safety, bring 
military or other assets together in escalatory ways, or 
release toxins into the environment in the Arctic; the second 
point is that, although there are many factors that will impact 
future outcomes in the Arctic, cooperation at all levels, 
including issues to do with geopolitics and governance, will be 
among the most influential; and third, mitigating capability 
gaps to enable safety, security, and stewardship activities 
will help enable U.S. governance in the Arctic, but will 
require investing in organizations and people, as well as in 
multiple types of assets and infrastructure.
    There is no silver technology or other bullet. The 
solution, whatever the specifics, will be multifaceted. I will 
return to each of these points briefly in the remainder of my 
time.
    First, the importance of discrete events. One of the 
primary findings from the research I referred to in my written 
testimony was the concern of stakeholders writ large about 
safety, risk of escalation stemming from marginal insulated 
incidents, and the containment and mitigation of environmental 
hazards.
    In addition to the immediate concern about loss of life and 
property, among other things, these types of events have the 
potential in the future to cause a chain reaction leading to 
general issues of rising tensions, perhaps between 
stakeholders, as well as the creation or perception of a 
security and governance void in the Arctic region. This will 
naturally impact indigenous and other local communities, it 
will impact the role of the U.S. Coast Guard, and it could lead 
to increased involvement or even assertiveness from individual 
Arctic stakeholders, to include Russia and China.
    Let me pause for a minute on Russia and China. One of the 
other aspects of our work has been looking at the durability of 
Arctic cooperation. Naturally, Russian assertiveness in the 
Arctic and the emergence of China as a long-term player in the 
region has raised questions about the durability of this 
cooperation for getting ahead of governance and other issues, 
something I touched upon momentarily. The United States and 
others are right to be wary of Russian and Chinese activity in 
the Arctic, but must be mindful of some important points.
    First of all, Russia and China do not have identical 
histories, stakes, or interests in the region. Russia's 
confidence in the efficacy of the protective ice barrier for 
its long strategically and economic economically important 
northern rim, is understandably waning. In contrast, China does 
not hold any territory in the Arctic. It is, of course, one of 
13 Arctic Council permanent observer states, and as such has 
participated by the council's rules and in the spirit of 
cooperation thus far. That said, the economic and military 
resources at China's disposal make it a very powerful 
stakeholder, and there is no doubt that China seeks investment 
and influence in the region. Whether China's near Arctic state 
concept will catch on with others, creating the potential for a 
negotiating bloc, also remains on the horizon.
    Returning to cooperation and governance as two important 
factors among many in influencing the vulnerability of the 
Arctic to safety and security incidents, these decisions that 
Arctic stakeholders make about these as a group and 
individually will shape activity in the Arctic and affect the 
resources required and available to govern that activity. This 
is very important for demands on the maritime transportation 
system, and the transportation system writ large, I would 
argue, in the Arctic, and on the U.S. Coast Guard in terms of 
what the Service does, when, where, how often, and at what 
intensity.
    I will conclude by talking about the third point I raised, 
which is about U.S. Coast Guard capability gaps in the Arctic. 
And what we found in our research was that there are three main 
types of gaps: communications in navigation; maritime and other 
domain awareness; as well as response capabilities.
    Some specific recommendations that came out of our study 
included installing additional communications infrastructure. 
Admiral Ray talked a little bit about that earlier. Also, 
investing in remotely controlled air, sea, and amphibious craft 
for providing persistent wide-area surveillance; updating data 
gathering and database construction processes to enhance the 
role of automation; developing operating concepts, plans, and 
investment strategies that recognize the need for both agile 
first-response assets, as well as infrastructure and logistics 
to sustain longer term operations and to conduct heavy lifting; 
increasing the number of forward-operating locations and 
resources, including local and mobile elements, as well as 
continuing improving long-term relationships with Native 
communities, and pre-positioning key response items in those 
partner communities.
    I conclude by reiterating once again that any mitigating 
strategy will involve a multifaceted approach. Part of good 
governance is being equipped to prevent and mitigate problems 
by making the right investments in organizations and people, as 
well as in multiple assets and infrastructure. Thank you.
    [Ms. Tingstad's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Abbie Tingstad, Ph.D.,\1\ Senior Physical 
                  Scientist, The RAND Corporation \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research.
    \2\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.
---------------------------------------------------------------------------
    Chairman Maloney, Ranking Member Gibbs, and other distinguished 
members of the committee, thank you for the opportunity to appear 
before you this afternoon. Ongoing and emerging transformations in the 
Arctic are raising many important questions, and we do not yet have all 
the answers. How will or should international and domestic governance 
evolve? What is next for indigenous communities? How will China's role 
evolve? What is the United States' path?
    I am going to focus on anticipating and pre-emptively addressing 
some key Arctic vulnerabilities. The three main points I would like to 
leave the committee with today are:
    1.  One of the greatest concerns that has emerged in my research 
are incidents that might imperil safety, bring military (or other) 
assets together in escalatory ways, or release toxins into the 
environment.
    2.  Regional cooperation and governance will influence demands on 
the maritime (and broader) transportation system and the U.S. Coast 
Guard through their role in generating, preventing, and mitigating 
problems.
    3.  Mitigating capability gaps to enable safety, security, and 
stewardship activities will require investing in organizations and 
people, as well as in multiple types of assets and infrastructure.
    I elaborate in detail on these points in what follows.
the arctic is vulnerable to incidents endangering safety, security, and 
                        environmental integrity
    There are many uncertainties about the Arctic. However, we do know 
something about the primary drivers of change and how these could shape 
and disturb the Arctic's complex environment. In our research, my 
colleagues and I have used scenarios to explore the types of changes 
that might result in regional safety, security, and environmental 
vulnerabilities.
    Several fundamental drivers of change influence potential paths of 
change in the Arctic. These factors include economics, technology, 
climate and physical environment, the regulatory environment, and 
social issues.
    Not all drivers play the same role in Arctic change. One way to 
think about these drivers is that they raise or lower the ``cost of 
doing business'' by promoting, restricting, or controlling access. 
Principal among these drivers is climate, which has enhanced maritime 
access, but has negatively affected winter road seasons and 
transportation infrastructure. Other forces shaping access include 
technological advances in drilling, automation, network and 
connectivity; legal conventions, other laws, and regulations; military 
postures and operations; and widely observed operational and cultural 
norms.
    Other change drivers shape activities in the Arctic. Some examples 
are indigenous community autonomy, anticipated or existing hydrocarbon 
and fishery resources, and perceptions of the Arctic within domestic 
political discourse. These types of forces also both discourage and 
motivate activities in the Arctic. For example, an increased emphasis 
on the health of the Arctic environment could motivate ecological 
monitoring and some types of tourism, while discouraging further 
resource extraction and large-scale shipping.
    These drivers of change can be combined to form scenarios that 
illustrate potentially dangerous Arctic situations. My colleagues and I 
used these scenarios during two research activities that took place in 
2017:
    <bullet>  a series of Coast Guard-focused scenarios deliberated on 
during two workshops with servicemembers and other partners \3\
---------------------------------------------------------------------------
    \3\ Abbie Tingstad, Scott Savitz, Kristin Van Abel, Dulani Woods, 
Katherine Anania, Michelle D. Ziegler, Aaron C. Davenport, and 
Katherine Costello, Identifying Potential Gaps in U.S. Coast Guard 
Arctic Capabilities, Santa Monica, Calif.: RAND Corporation, RR-2310-
DHS, 2018. As of April 29, 2019: https://www.rand.org/pubs/
research_reports/RR2310.html
---------------------------------------------------------------------------
    <bullet>  an Arctic cooperation tabletop exercise conducted with a 
multinational Arctic stakeholder group in Oslo, Norway.\4\
---------------------------------------------------------------------------
    \4\ Stephanie Pezard, Abbie Tingstad, and Alexandra Hall, The 
Future of Arctic Cooperation in a Changing Strategic Environment: 
Insights from a Scenario-Based Exercise Organised by RAND and Hosted by 
NUPI, Santa Monica, Calif.: RAND Corporation, PE-268-RC, 2018. As of 
April 29, 2019: https://www.rand.org/pubs/perspectives/PE268.html
---------------------------------------------------------------------------
    Our Coast Guard Arctic scenarios featured alternative assumptions 
about development of activity in the Arctic. We then combined these 
assumptions with plausible events or longer-term problems that would 
necessitate some kind of Coast Guard participation. The scenarios often 
included cooperation with partners in various capacities. Although the 
workshops were designed somewhat differently, participants at each 
event were invited to develop concepts of operation for each scenario, 
identify capabilities to use to achieve some level of incident 
resolution, and assess the most limiting gaps.
    The Coast Guard scenarios covered a variety of situations. For 
example, participants began one workshop by considering the following 
events that might occur in the present-day Arctic:
    <bullet>  a ship collision in the Bering Strait
    <bullet>  a passenger plane crash somewhere north of the Alaska-
Yukon Territory boundary
    <bullet>  activists in kayaks protesting new offshore oil drilling 
programs
    <bullet>  a small coastal community threatened by a storm surge and 
severe weather.\5\
---------------------------------------------------------------------------
    \5\ Tingstad et al., 2018.
---------------------------------------------------------------------------
    The participants then considered events that might occur in the 
2030s. Within the context of a future world in which measured economic 
growth draws people and primarily legal economic activity north, Coast 
Guard workshop participants discussed
    <bullet>  the implications of a new, deepwater port
    <bullet>  an offshore oil rig explosion
    <bullet>  a protest for environmental reasons against hydrocarbon 
extraction.\6\
---------------------------------------------------------------------------
    \6\ Tingstad et al., 2018.
---------------------------------------------------------------------------
    Within the context of a future world in which disorder is 
increasing, regulations loosen, people are migrating north, and 
international cooperation is weakened, Coast Guard workshop 
participants discussed
    <bullet>  a suspected cyber attack that takes out power in three 
U.S. Arctic villages
    <bullet>  foreign vessels increasingly fishing illegally in the 
U.S. Exclusive Economic Zone
    <bullet>  a suspected terrorist attack on a cruise ship
    <bullet>  illicit trafficking of people and goods.\7\
---------------------------------------------------------------------------
    \7\ Tingstad et al., 2018.
---------------------------------------------------------------------------
    The objective of the Oslo exercise was to test the limits of Arctic 
stakeholder cooperation by unfolding a series of events--in which no 
particular nation stood out as the ultimate aggressor--over the course 
of the 2020s. These events could potentially raise tensions among two 
or more Arctic nations, as well as among other stakeholders, including 
indigenous communities and the hydrocarbon industry. Following a set of 
starting conditions, participants considered the issue of overlapping 
claims for continental shelf extensions, opportunities and risks 
associated with further development of waterways through the Northwest 
Passage and the Northern Sea Route, and responses to two potentially 
escalatory incidents: the blocking of one vessel by another and a near 
collision between ships.\8\8 Participants were asked to consider 
plausible stakeholder responses and posit under what conditions Arctic 
cooperation might unravel at each step of the exercise.
---------------------------------------------------------------------------
    \8\ These were intentionally focused on the maritime domain because 
international incidents of significance are somewhat more plausible in 
this domain during the timeframe of the early to mid-2020s.
---------------------------------------------------------------------------
    One of the primary findings from both the Coast Guard scenario 
analysis and the Oslo international tabletop exercise was that 
stakeholders at all levels were concerned about safety, risk of 
escalation stemming from marginal incidents (particularly those 
involving military or law enforcement), and containment and mitigation 
of environmental hazards. The following situations were of particular 
concern: \9\
---------------------------------------------------------------------------
    \9\ These observations are naturally driven by the events of the 
scenarios presented. However, researchers and participants 
participating in both analyses were strongly encouraged to question 
assumptions and lead discussions down other paths to ensure that 
thinking was not constrained to the particular futures at hand.
---------------------------------------------------------------------------
    <bullet>  Countries choose recurring safety issues or unplanned 
military encounters to emphasize larger longer-term or extra-regional 
security issues. Participants were concerned that such incidents might 
have unintended consequences among domestic audiences.
    <bullet>  Maritime access and activity increase faster than 
anticipated and countries cannot manage the situation with existing 
fixed and mobile infrastructure, leading to loss of life and 
environmental degradation. Increasing disorder leads to real or 
perceived voids in governance, regulation, and security. Countries with 
particularly vested economicinterests forcefully attempt to contain and 
control mounting turmoil.
    During the course of the Coast Guard workshops, many discussions 
focused on concern about the ability to perform search and rescue, law 
enforcement, or pollution response. During the Norway exercise, 
participants were concerned about the outcome of the United Nations' 
Commission on the Limits of the Continental Shelf examination of 
competing claims for continental shelf extensions, the possibility of 
deep ocean hydrocarbon extraction, and shifting alliances--as well as 
NATO's presence in the Arctic.
              cooperation and governance make a difference
    Many factors influence the vulnerability of the Arctic to safety 
and security incidents. Cooperation and governance stand out for 
several reasons.\10\ First, they shape activity in the Arctic and 
affect the resources required and available to govern that activity. 
Second, there is an important co-dependency between them: Cooperation 
between different stakeholders internationally and domestically enables 
or constrains governance as well as resources to support it; \11\ 
similarly, governance issues both motivate and test the boundaries of 
cooperation. Third, both cooperation and governance have tremendous 
ramifications both at home and abroad and are strongly influenced by 
domestic policies (and often by domestic perceptions). Finally, there 
are some strong examples in recent Arctic history of employing 
cooperation and governance tools to make decisions ahead of potential 
crises.
---------------------------------------------------------------------------
    \10\ Cooperation includes long-term and short-term activities that 
facilitate shared decisionmaking and/or resources. Governance involves 
constructing, implementing, and enforcing laws, regulations, practices, 
and general guidance.
    \11\ Such as for policy enforcement and to support and mitigate the 
consequences of economic development.
---------------------------------------------------------------------------
    Throughout modern Arctic history, cooperative decisionmaking on 
governance has built a foundation for reducing vulnerability to 
incidents, events, or patterns of concern.\12\ For example, the 
Agreement on the Conservation of Polar Bears was put into effect in 
1973 at a time of heightened Cold War tensions.\13\ Some more recent 
examples of cooperation include the 2018 agreement to prevent 
unregulated high seas fisheries in the Central Arctic Ocean; \14\ the 
U.S.-Russian proposal, approved by the International Maritime 
Organization, to define six two-way routes in the Bering Strait to 
enable safer shipping; \15\ and the 2017 Agreement on Enhancing 
International Arctic Scientific Cooperation.\16\ Arctic cooperation on 
the international scale (such as the 2011 Agreement on Cooperation on 
Aeronautical and Maritime Search and Rescue in the Arctic) has been 
broadly facilitated through the Arctic Council since the council's 
formation in 1996, alhough these activities have notably (and perhaps 
for good reason) excluded military security topics.\17\ The Arctic 
Coast Guard Forum brings together the relevant coast services from all 
eight Arctic states.\18\ The International Code for Ships Operating in 
Polar Waters (Polar Code) is a landmark step, facilitated by the 
International Maritime Organization, toward risk reduction in maritime 
polar environments.
---------------------------------------------------------------------------
    \12\ Stephanie Pezard, Abbie Tingstad, Kristin Van Abel, and Scott 
Stephenson, Maintaining Arctic Cooperation with Russia: Planning for 
Regional Change in the Far North, Santa Monica, Calif.: RAND 
Corporation, RR-1731-RC, 2017. As of April 29, 2019: https://
www.rand.org/pubs/research_reports/RR1731.html
    \13\ ``Agreement on the Conservation of Polar Bears,'' Oslo, 
November 15, 1973. As of April 18, 2019: http://pbsg.npolar.no/en/
agreements/agreement1973.html
    \14\ See Jane George, ``A New International Deal Protects the 
Central Arctic Ocean's Fish Stocks,'' Arctic Today, October 3, 2018. As 
of April 18, 2019: https://www.arctictoday.com/new-international-deal-
protects-central-arctic-oceans-fish-stocks
    \15\ ``IMO Approves US-Russian Proposal on Bering Strait Shipping 
Routes,'' World Maritime News, May 23, 2018. As of April 18, 2019: 
https://worldmaritimenews.com/archives/253399/imo-approves-us-russian-
proposal-on-bering-strait-shipping-routes
    \16\ ``US Signs Agreement on Enhancing International Arctic 
Scientific Cooperation,'' National Science Foundation News Release, May 
12, 2017. As of April 18, 2019: https://www.nsf.gov/news/
news_summ.jsp?cntn_id=241923
    \17\ Arctic Council, ``Agreement on Cooperation on Aeronautical and 
Maritime Search and Rescue in the Arctic,'' May 12, 2011. As of April 
18, 2019: https://oaarchive.arctic-council.org/handle/11374/531
    \18\ A North Atlantic Coast Guard Forum and a Pacific Coast Guard 
Forum similarly seek to build cooperation.
---------------------------------------------------------------------------
    In addition, partnerships with indigenous organizations and 
communities at the international and subnational level, as well as 
relationships with commercial, academic, and nonprofit entities, cannot 
be overlooked. These types of partnerships can be particularly 
important for law enforcement, incident prevention, and incident 
mitigation.
    Recently, Russian assertiveness in the Arctic and the emergence of 
China as a long-term player in the region has raised questions for some 
Arctic nations about the power of cooperation and partnerships for 
addressing governance issues. Russia has been increasing its military 
capabilities in the Artic, forming a northern command, establishing two 
Arctic brigades, developing infrastructure, and deploying and upgrading 
military assets.\19\ The Russian government and economic sector is also 
investing in fixed and mobile infrastructure for civilian or commercial 
use, and some of this infrastructure appears to be dual-use. For 
example, this year, the Russian Ministry of Natural Resources and 
Environment released a plan for further developing mineral resources in 
the Arctic and the logistics for bringing them to market via the 
Northern Sea Route.\20\
---------------------------------------------------------------------------
    \19\ Andrew Osborn, ``Putin's Russia in Biggest Arctic Military 
Push Since Soviet Fall,'' Reuters, January 30, 2017. As of April 22, 
2019: https://www.reuters.com/article/us-russia-arctic-insight/putins-
russia-in-biggest-arctic-military-push-since-soviet-fall-idUSKBN15E0W0
    \20\ ``Russia Releases Comprehensive Plan for Arctic Logistics,'' 
Maritime Executive, March 19, 2019. As of April 22, 2019: https://
www.maritime-executive.com/article/russia-releases-comprehensive-plan-
for-arctic-logistics
---------------------------------------------------------------------------
    China has been promoting the idea of a ``Polar Silk Road'' in 
recent years. This builds on China's decades-long interest in polar 
science and its more recent participation as an observer in Arctic 
governance issues through the Arctic Council. In its 2018 Arctic 
policy, China reaffirmed its position that the Arctic matters to states 
without recognized territory in the region. China's Arctic policy 
states unambiguously that its goals with respect to the Arctic are

        to understand, protect, develop and participate in the 
        governance of the Arctic, so as to safeguard the common 
        interests of all countries and the international community in 
        the Arctic, and promote sustainable development of the 
        Arctic.\21\
---------------------------------------------------------------------------
    \21\ People's Republic of China, State Council,``China's Arctic 
Policy,'' white paper, January 26, 2018. As of April 22, 2019: http://
english.gov.cn/archive/white_paper/2018/01/26/
content_281476026660336.htm

    China's investment in the Yamal Liquid Natural Gas project with 
Russia was substantial. Other investments have been more modest, and 
some have not come to fruition (such as the purchase of an unoccupied 
naval base in Greenland and the development of a now-cancelled resort 
in Svalbard).
    The United States and others are right to be wary of Russian and 
Chinese activity in the Arctic, but must be mindful of some important 
points. Russia and China do not have identical histories, stakes, or 
interests in the Arctic. Like the United States, Russia has territory 
in the region. Russia's confidence in the efficacy of the protective 
ice barrier for its long, strategically and economically important 
northern rim is understandably waning. Its recently increased regional 
assertiveness should be interpreted against the backdrop of other 
factors, such as broader Russian military reforms and Russia's 
continued cooperative behavior on applied matters, such as Bering 
Strait navigation and scientific advances. Thus far, Russia's policies 
on Northern Sea Route administration have had limited impact on the 
freedom of others to navigate in the region (in part because of the 
route's overall limited navigability). Russia continues to have many 
economic incentives to participate in cooperative governance frameworks 
and discussions on Arctic issues.
    In contrast, China does not hold any territory in the Arctic. It is 
one of 13 Arctic Council Permanent Observer States; China has 
participated by the council's rules and in the spirit of cooperation. A 
number of Arctic nations have put up roadblocks to Chinese investment, 
largely because of domestic pressure. That said, the economic and 
military resources at China's disposal make it a very powerful 
observer, and there is no doubt that China seeks investment and 
influence in the region. This cannot necessarily be assumed to be 
restrained or benign.
    When it comes to the shifting geopolitics of the Arctic, Russia or 
China do not operate in a vacuum. Alliances, interests, and actions 
shift over time, and these shifts have implications for governance and 
cooperation. For example, some of Russia's recent activities have 
brought other Arctic states closer together (such as Finland and Sweden 
signing a trilateral agreement with the United States). The question of 
whether China's ``Near-Arctic State'' concept will catch on with 
others, creating the potential for a negotiating bloc, remains on the 
horizon.\22\
---------------------------------------------------------------------------
    \22\ Pezard, Tingstad, and Hall, 2018.
---------------------------------------------------------------------------
    United States decisionmakers will need to contemplate the potential 
impacts shifting geopolitics will have on governance and the associated 
needs for infrastructure and other capabilities in the Arctic. As 
discussed, governance has an important influence on shaping demand for 
Arctic access and the transport systems of the future. Real or apparent 
gaps in governance and such materiel capabilities as infrastructure 
could create the perception of a security void. This might invite more 
presence and influence from stakeholders with vested regional 
interests.
 it will take more than one investment to shore up arctic capabilities 
                              and capacity
    What are the key capability gaps for U.S. Arctic operations? One 
issue that concerns me greatly is the characterization--in the media at 
least--of the United States' Arctic operating challenges as an 
``icebreaker gap.'' \23\ I do think that the U.S. is dangerously 
limited in its individual ability to break ice. This numbers game--in 
particular, comparisons to the overwhelming size of the Russian 
icebreaker fleet--also has real significance from a great power 
competition perspective. Another reason for the icebreaker focus is the 
long lead time to plan and build these unique ships.
---------------------------------------------------------------------------
    \23\ Charlie Gao, ``The 'Icebreaker Gap': How Russia is Planning to 
Build More Icebreakers to Project Power in the Arctic,'' National 
Interest, August 19, 2018. As of March 19, 2019: https://
nationalinterest.org/blog/buzz/icebreaker-gap-how-russia-planning-
build-more-icebreakers-project-power-arctic-29102
---------------------------------------------------------------------------
    However, while this generalization of Arctic challenges might be 
convenient, it distractsfrom the broader problem of systemic capability 
shortfalls. In our examination of broad priorities for closing Coast 
Guard capability gaps, we found that no single type of capability 
worked for every scenario or acted as a ``silver bullet'' solution for 
mitigating shortfalls. For this study, we defined capability broadly, 
as a means to accomplish a mission, function, or objective.\24\ Our 
scope included such individual materiel assets as icebreakers and 
helicopters; fixed infrastructure like ports and airfields; and 
organizations, agreements for cooperation, and people (including 
training).
---------------------------------------------------------------------------
    \24\ Department of Homeland Security, Department of Homeland 
Security Manual for the Operation of the Joint Requirements Integration 
and Management System, Washington, D.C., DHS Instruction Manual 107-01-
001-01, April 4, 2016, p. 3.
---------------------------------------------------------------------------
    First, we looked at the existing capabilities that the Coast Guard, 
federal interagency partners, local communities, and commercial 
providers could use to add value in different scenarios. In addition to 
existing icebreakers, some of the most valuable assets included MH-60 
Jayhawk helicopters, HC-130 aircraft, various airports and airfields, 
ports, National Security Cutters, drones, medical evacuation 
capabilities, satellite and other communications networks, rescue 
coordination centers, Coast Guard sector specialist personnel, and data 
(maritime traffic, weather, ice, and other conditions important for on-
scene response). These examples help highlight the diversity of 
capabilities that are needed for Arctic operations. No one asset can do 
it all alone.
    Second, we examined shortfalls in the existing capabilities within 
the study scenarios. We found that the shortfalls varied as much or 
more as the existing capabilities. In general, these gaps--defined as 
capabilities not readily available or planned to be available to the 
Coast Guard--fell into the broad categories of communications, 
awareness, and response.
    Communications are critical for Coast Guard (and a variety of 
other) missions. Problems in the Arctic include patchy and unreliable 
voice communications and extremely limited or nonexistent bandwidth.
    An important aspect of awareness is understanding and assessing 
situations. In the Arctic, ``operating blind'' is a term that is used 
to describe the limited level of awareness: Threats and hazards are 
often poorly understood, and the capacity and capability are lacking to 
regularly monitor those that are identified. There is particular 
concern about sensing previously unidentified threats and hazards that 
do not or cannot actively emit signals, such as ``dark'' vessels and 
fast-moving ice. The ability to fuse information from individual data 
streams into a unified picture of activity and conditions is also 
challenging.
    Finally, the potential for response to a threat or hazard in the 
Arctic is extremely limited and strongly depends on the proximity to 
the incident location of scarce material assets, people, and supporting 
infrastructure. Naturally, reducing the incidence of threats and 
hazards is an important first step. However, if prevention fails, 
ensuring that the right people and assets are available and can be 
deployed rapidly to the right place is necessary. Responders must 
consider harsh operating conditions and the few resources available for 
coordination. Furthermore, access to appropriate follow-up materiel and 
procedures, including medical care and hazardous material clean-up, is 
not guaranteed. Ensuring sufficient sustainment of operations is the 
next challenge.
    This study was not intended to provide recommendations on specific 
ways to mitigate gaps. However, the diversity of ways in which workshop 
participants elected to shore up capability and capacity in the context 
of different scenarios alludes to a rich set of possibilities. No one 
type of mobile asset, fixed infrastructure, organization, 
collaboration, or other entity appeared to satisfy every potential gap. 
Rather, a combination of existing capabilities (in many cases with 
increased capacity) and diversification of capabilities to support 
communications, awareness, and response appears to be necessary in 
order to tackle current and future vulnerabilities in the Arctic. Some 
specific types of mitigation options considered include:
    <bullet>  installing additional communications infrastructure and 
leveraging the growing number of commercial communications satellites 
in polar orbits
    <bullet>  exercising communications tactics, techniques, and 
procedures to train servicemembers in overcoming decisionmaking 
challenging with attenuated communications channels
    <bullet>  investing in remotely controlled air, sea, and amphibious 
craft for providing persistent wide-area surveillance, especially if 
these assets are networked together and to sensors on other assets to 
provide a common operating picture
    <bullet>  updating data-gathering and database construction 
processes to enhance the role of automation to improve data quality, 
make data accessible, and fuse information into a common operating 
picture
    <bullet>  developing operating concepts, plans, and investment 
strategies that recognize the need for both agile, first response 
assets as well as infrastructure and logistics to sustain longer-term 
operations and (literally) conduct heavy lifting
    <bullet>  investigating remotely controlled airlift and oil-spill 
response capability
    <bullet>  adding small-boat landing capability to icebreakers
    <bullet>  increasing the number of forward operating locations and 
resources, including local and mobile elements
    <bullet>  prepositioning key response items in partner communities
    <bullet>  enforcing new industry self-help regulations
    <bullet>  improving long-term relationships with native communities 
(including through additional Coast Guard cultural training).
    There are also some broader governance-related issues to 
contemplate when it comes to getting out in front of problems, such as 
those related to incidents that put safety, security, and environmental 
integrity at risk. First, continuing to participate in discussions and 
decisionmaking is very important. Historically, Arctic cooperation and 
governance has benefited from stakeholders operating under the same 
frameworks. The United States has the opportunity to continue work in 
the Arctic Council and Arctic Coast Guard Forum. Finding ways to keep 
discussion channels open for important military security communications 
is also vital. Reconsidering the ratification of the United Nations 
Convention on the Law of the Sea also is an option.
    Second, enabling stewardship and security (including law 
enforcement) through the provisioning and maintenance of appropriate 
infrastructure and capabilities, as well as organizations and people to 
support Arctic operations, is important. First and foremost, this 
provides opportunities for incident prevention and mitigation. It also 
demonstrates the presence of the United States as a capable and 
reliable partner, both internationally and in a domestic context. 
Importantly, as demonstrated by Russia, certain types of infrastructure 
can send a mixed message, so we should consider the messaging 
associated with our investments. Ultimately, it will take more than one 
investment and the efforts of federal, state, and local agencies and 
organizations to get out in front of the issues that keep those 
responsible for safety, security, and stewardship in the Arctic awake 
at night.
    Throughout history, the Arctic has been largely inaccessible place 
to outside cultures. However, because of climate and improvements in 
technology, we can no longer view the Arctic as ``falling off the top 
of the map.'' The Arctic is changing rapidly in many respects. By 
making the right investments in organizations and people, as well as in 
multiple types of assets and infrastructure, we can get in front of 
tomorrow's Arctic problems, some of which are already upon us today.

    Mr. Maloney. Thank you, Dr. Tingstad.
    Governor Treadwell, thank you for joining us. You may 
proceed.
    Mr. Treadwell. Thank you. Thank you, Chairman Maloney, 
Ranking Member Gibbs. Thank you for the opportunity to be here 
today.
    I believe I first testified before this committee during 
the consideration of OPA 90, when I was a local government 
official. I was working to help make sure we had the 
infrastructure after a major oil spill. In the early 2000s, as 
a Commissioner on the Arctic Research Commission, was the first 
of several times I have been before this committee to say we 
needed icebreakers. Working with Admiral Allen, when he was 
Commandant, to try to help make that happen, it is good to see 
it happening today. And thank you for your continuing attention 
on this issue.
    As your wrap-up batter today, let me just talk about the 
issue of how do you actually get the infrastructure we need in 
the Arctic. And I have got three basic ideas that I wanted to 
share with you. I want to make sure that it is understood that 
these are my ideas or the opinions that I express are my own, 
not the Wilson Center. I do cochair the polar program at the 
Wilson Center, and we are holding a major symposium with the 
National Ice Center and the U.S. Arctic Research Commission in 
July, to which you are all invited.
    But the first thing I would like to say is that we are--you 
are constantly being asked to appropriate funds for Arctic 
infrastructure, whether it is icebreakers or--that might be 
justified by security or economic development. The problem that 
I see is that our security plans, our civil plans, our 
commercial plans all identify the need for the same thing: 
ports, charting, communications. But we still have stovepipes 
that don't really work together to figure out how to pay it.
    Now we do have CMTS, which is a cross-government effort, to 
look at the Marine Transportation System. But it doesn't 
include the State government, which can bring significant 
resources to the table as well. And I want to appreciate the 
work that CMTS has done in the Arctic, but I just want to say 
we need to get away from this, and a couple of examples.
    When you heard the Coast Guard say today that we have 
floating bases with these new icebreakers, that is tremendous. 
But it is leaving the civil authorities who need to finance 
ports to kind of act on their own. And we really should be 
working together to get the security issues covered, as well as 
the civil and commercial issues covered.
    When you heard the question on telecommunications, the same 
issue--I chair an advisory board for Iridium. We have got 66 
new satellites operating, a 360-by-360 process that works and 
serves the military, and this is something where the commercial 
needs and the security needs can be answered together.
    The second point I want to make is that when it comes to 
finding revenue, especially to pay for icebreakers--when the 
admiral and I were serving together it cost something between 
$60 and $80 million a year to run our icebreaker program. Now 
the Russians are charging half a million dollars to go across 
the Arctic Ocean per ship. So to make up $80 million is 160 
ships. That is one ship a day during the open navigation 
season. All right?
    Senator Murkowski and Senator Sullivan have proposed a bill 
which the Wilson Center has worked on--I worked on developing 
it as chair of the Arctic Circle Mission Council on Arctic 
Shipping and Ports--which says let's create an Arctic Seaway 
Development Corporation very similar to the St. Lawrence Seaway 
Corporation which exists in Congressman Gibbs's district. The 
St. Lawrence Seaway approach has two nations working together. 
We could have several nations working together in the Arctic to 
put together a seamless system to get people across the Arctic 
Ocean. And that concept is well described in S. 1177.
    But Mr. Chairman, I guess I would put it this way: When we 
come ask you for money for icebreakers and talk about inbound 
Arctic shipping, it is not really American taxpayers' jobs to 
pay the bill so China can sell goods to France. It is our job 
to set up a system so that tariffs and revenue can come in to 
help pay for those icebreakers, and that is the concept in that 
legislation.
    Mr. Chairman, finally, the third thing I would like to say 
in terms of paying for Arctic infrastructure is it is a lot 
easier to pay for something when there is more economic 
activity.
    Now there was a large push during the Bush and then Obama 
administrations to make OCS drilling work offshore. There was 
expectations that it was going to help pay for the major ports 
in the Arctic. It didn't happen, for whatever reasons, and we 
can discuss those.
    But I would predict that the next big wave of economic 
activity the Russians have already shown us how to do. They are 
bringing 16\1/2\ million tons of LNG from Yamal through the 
Bering Strait--2,600 miles through the ice to get there--while 
we have got big fields at Prudhoe Bay, and the Canadians have a 
big field at the Mackenzie Delta, that are lying fallow. Now, 
this is not something that requires congressional 
appropriation, but it does require congressional and diplomatic 
attention.
    And with that opportunity I predict that sometime by the 
end of the next decade you are going to see maybe as much as 50 
million tons a year of LNG moving out of Russia, maybe as much 
as 30 to 40 million tons of LNG a year moving out of Alaska and 
the Canadian Mackenzie Delta. And I believe that relatively 
benign economic activity, which has a lower carbon impact than 
some of the fuels being used in Asia today, is going to help 
bring the economic activity necessary to pay for the 
infrastructure. So I would just urge you to pay attention.
    Mr. Chairman, thank you very much for your time.
    [Mr. Treadwell's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Mead Treadwell, Cochair, Polar Institute, 
                         Woodrow Wilson Center
    Chairman DeFazio, Ranking Member Graves, Congressman Young, and 
distinguished members of the subcommittee, thank you for the 
opportunity to be here today. My name is Mead Treadwell, and I live in 
Anchorage, Alaska. I am the Cochair of the Woodrow Wilson Center's 
Polar Institute,\1\ Chair of the Iceland-based NGO Arctic Circle's 
Mission Council on Arctic Shipping and Ports,\2\ and Chair of the Polar 
Advisory Board at Iridium Communications, Inc. I am also the former 
Lieutenant Governor of Alaska (2010-2014) and Commissioner and Chair of 
the U.S. Arctic Research Commission (2001-2010) under President Bush 
and President Obama. While I am here through my affiliation with the 
Wilson Center, the following thoughts and opinions are my own.
---------------------------------------------------------------------------
    \1\ Alongside the National/Naval Ice Center and the US Arctic 
Research Commission, the Wilson Center will co-host the 8th Symposium 
on the Impacts of an Ice-Diminished Arctic on Naval and Maritime 
Operations (IDA-8) on July 17-18, 2019, in Washington, D.C.
    \2\ For more information about the Arctic Circle's Mission Council 
on Shipping and Ports, including the Council's Draft Final Report and 
Recommendations, please visit: https://
arcticcircleseawayreport.wordpress.com.
---------------------------------------------------------------------------
    Thank you also for the title of this hearing. The United States 
cannot afford to ``do nothing'' about the general lack of marine 
infrastructure in the Arctic.Inaction undercuts efforts to develop a 
safe, secure and reliable Arctic marine transportation system. Your 
hearing is well-timed. Just this week, the eight-nation Arctic Council 
Ministerial occurred in Finland. There, Secretary of State Pompeo 
challenged Russia and China to help maintain the Arctic as a peaceful, 
lawful region as they expand their infrastructure and presence.\3\ In 
doing so, he underscored the need for a stronger U.S. presence.
---------------------------------------------------------------------------
    \3\ For a transcript of Secretary Pompeo's remarks in Finland, 
please visit: https://www.state.gov/secretary/remarks/2019/05/
291512.htm.
---------------------------------------------------------------------------
    The U.S. infrastructure gaps you will hear about today are little 
different from those outlined in the Arctic Marine Shipping Assessment 
that was adopted by the Arctic Council in 2009. Those shortages range 
from a shortage of icebreakers, an absence of Arctic deep water ports 
and ports of refuge, an absence of bunkering and refueling 
capabilities, an absence of salvage capability, and difficulties in 
communications, charting, ice monitoring and situational awareness.
    There are three ways we can more speedily fill the gaps we discuss 
again today.
    1.  First, we can appropriate capital funds for infrastructure, 
justified by security or economic development. Security plans, civil 
plans, commercial plans all identify similar needs. We need to have 
these plans mesh together better. All sides appear to be ``going it 
alone,'' where Polar Security Cutters are described as ``mobile bases'' 
for the Navy and Coast Guard, and civil and commercial authorities are 
left to justify and finance northern ports, communications, and 
icebreaking services on their own. If we work better together, we can 
get more done, faster.
    2.  Second, we can create a business, an Arctic Seaway Development 
Corporation, modeled on the St. Lawrence Seaway, where we bring nations 
together to offer a reliable, voluntary, tariff-based service that will 
attract and justify infrastructure investment. That's the purpose of S. 
1177, ``The Shipping and Environmental Arctic Leadership Act,'' \4\ 
developed by an extensive process at the Arctic Circle and the Wilson 
Center, with consultations with Arctic states and observing nations 
from across the globe. Sometimes dubbed ``Uber for Icebreakers,'' the 
business plan requires just a small percentage of the traffic served by 
Suez, diverted to the Arctic, to pay for the icebreakers we need.
---------------------------------------------------------------------------
    \4\ For the text of S. 1177, ``The Shipping and Environmental 
Arctic Leadership (SEAL) Act,'' please visit: https://
www.murkowski.senate.gov/imo/media/doc/SEAL%20Act.pdf. For the one-
pager produced by Senator Murkwoski's office, please visit: https://
www.murkowski.senate.gov/imo/media/doc/SEAL%20Act%20One-Pager.docx

        Mr. Chairman, if the Arctic were an isthmus, rather than an 
ocean, and it had been a glacier that retreated rather than sea ice, we 
would be building a canal right now, and looking at tariffs to help pay 
the bill--just as Suez and Panama do. Russia has developed a tariff 
based system that the Secretary of State this week criticized because 
it is compulsory in an ocean that we believe the rule of law requires 
be open for freedom of navigation. The proposal we have is a voluntary 
``best practice'' that insurers and ship owners, encouraged IMO rules, 
should sign up for. It wins business on establishing reliability on an 
ocean which has failed to attract regular service because reliable 
infrastructure is not in place.
    3.  Third, we can sell more resources and induce more private 
capital to invest in the American Arctic. Russia is cleaning our clock 
in serving global LNG markets from Yamal, and the vast gas resources 
we've found at Prudhoe Bay and Point Thomson and the Canadians have 
found in the Mackenzie Delta are still lying fallow. Pipelines planned 
to bring gas south in both Alaska and Canada have been so expensive as 
to not be able to compete with new gas supplies in North America. If we 
look at shipping LNG directly, we have just 600 miles to get through 
the ice zone, while the Russians must traverse 2600 miles of ice to 
make it to the Bering Strait. Economic activity in the North will help 
pay for infrastructure in the North.
    Let me give some examples of ways we are making progress on all 
three approaches:
    <bullet>  Many of us here pushed the last three administrations to 
include funding for new icebreakers to meet critical U.S. needs. At 
last, a contract was issued this past month for the U.S. to start 
construction on a new heavy Polar Security Cutter, and for preliminary 
work to be done on two more PSCs--half of the the six vessel goal 
announced by the President in his 2017 address to the Coast Guard 
Academy.
    <bullet>  We have also made progress in developing a system of 
ports in the US Arctic, including a deepwater port capable of servicing 
large ships like the new Polar Security Cutters. In 2015, Congress 
established a Port Clarence Council with the State of Alaska and Bering 
Straits Native Corporation to develop a strategy for developing Port 
Clarence, America's only deep water port in the Arctic. At least eight 
other western and Northern Alaska communities, including Nome and Adak, 
Utqiagvik and Prudhoe Bay, have aspirations and plans to support 
increased Arctic shipping.
    <bullet>  In 2018, the International Maritime Organization (IMO) 
approved a joint-proposal between the U.S. and Russia to establish a 
two-way shipping lane through the Bering Strait. I'm proud of the work 
we did first at the State of Alaska, and later at the Wilson Center, to 
encourage negotiations between the U.S. Coast Guard and the Russian 
government to get this started.
    <bullet>  Iridium's new polar-orbiting network of satellites is 
providing enhanced communications, marine and aviation tracking 
capability pole-to-pole, and is available to support the Global 
Maritime Distress Safety System (GMDSS). Other ice and ship-monitoring 
space-based radar systems are coming along, too.
    For 152 years, the United States has been an Arctic nation. But it 
has never faced the imperatives it does today now that its third coast, 
the Arctic, has become accessible. Our challenge in the Arctic is to 
unlock its value while maintaining our values. We want the benefits of 
shorter shipping routes and untapped natural resources. We want to 
maintain our values--respect for traditional ways of life, food 
security, and the natural environment; the inviolability of our 
maritime boundaries; and the right of any vessel to freedom of 
navigation and passage. We can do both.
    Mr. Chairman, let me conclude with some specific recommendations.
    1.  Let's keep up the funding for icebreakers we have authorized 
and follow through on the system of ports needed in Alaska. To meet our 
goals of safety, security, and reliability in the Arctic, the military, 
civil, and commercial sectors need to work together. Whether it is a 
defense authorization bill, a Coast Guard authorization bill, or a 
general transportation authorization bill, I urge the Congress to move 
away from the ``stovepipe'' approach as you push our agencies to make 
appropriate plans for the Arctic.
    2.  The best way to fulfill our infrastructure gaps in the Arctic 
is to generate new revenues. I urge this committee to sponsor companion 
legislation and hold hearings on S. 1177, ``The Shipping and 
Environmental Arctic Leadership Act,'' which would do just that.
    3.  The largest driver of shipping in the Arctic Ocean today is LNG 
exports from Sabetta on the Yamal Peninsula in Russia. Why can't the 
United States and Canada, which have ample gas reserves on the Arctic 
coast, also export their gas and other natural resources to Asian, 
North American, or European markets? I believe we can, and am--in my 
private business--encouraging this to happen. Making it happen won't 
require Congressional funding, but it will require Congressional and 
diplomatic support.
                     pass s. 1177, ``the seal act''
    Based on the premise that American taxpayers--like those of other 
Arctic coastal states--should not have to bear the full cost of 
developing an international seaway so that Asian producers can sell 
goods more efficiently to European consumers, S. 1177, ``The Shipping 
and Environmental Arctic Leadership (SEAL) Act,'' would create a 
congressionally chartered seaway development corporation--similar to 
the Saint Lawrence Seaway--with the power to collect voluntary shipping 
fees in exchange for providing access to icebreakers, ports, and port-
side facilities. Its singular task would be to establish a working 
relationship with the other Arctic coastal states to develop an 
integrated marine transportation system capable of offering seamless, 
reliable service to ships using the Arctic Ocean. Fees collected by the 
corporation would be used to lease spare icebreakers (``Uber for 
Icebreakers'') and fund marine infrastructure and other projects needed 
to ensure safe, secure, and reliable shipping in the Arctic Ocean.
    Passing S. 1177, introduced by Senator Murkowski and Senator 
Sullivan in April, would send a clear message that the United States 
remains committed to maintaining its role as a key player in polar 
governance and cooperation. It would also encourage the military, 
civil, and commercial sectors to work together to strengthen the US 
presence. Revenues received would help finance, build, and operate key 
marine transportation infrastructure such as Polar Security Cutters, 
deep draft ports, places of refuge, port-side facilities, and 
additional equipment or systems.
        encourage lng and other exports from the american arctic
    Today, the single greatest driver of vessel activity in the Arctic 
Ocean is Russia's ongoing development of multiple Liquified Natural Gas 
(LNG) export facilities with direct access to the Northern Sea Route 
(NSR). In 2013, Yamal LNG--a joint-venture including Novatek, the 
Russian government, and other entities--began construction of an LNG 
plant at Sabetta on the Yamal Peninsula. Four years and $27 billion 
later, the Christophe de Margerie--a revolutionary first-in-its-class 
icebreaking LNG carrier--completed a winter traverse of the NSR, 
stopping at Sabetta to take onboard the first LNG shipment from the 
plant that it successfully delivered to a buyer in South Korea. In 
February of this year, the company announced that it had offloaded more 
than 130 cargoes and shipped more than 10 million tons since start-up 
began in December 2017. By my own estimate, total LNG production from 
the Arctic could amount to as much as 80 million tons per year in the 
next 15 years if tidewater capacities in Russia, Alaska, and Canada 
come to market--making Arctic states the world's dominant suppliers of 
LNG.
    With Russia's success in bringing such large and growing amounts of 
Arctic LNG to markets in Europe and Asia, it seems increasingly 
plausible--if not imminently doable--that we in Arctic America do the 
same from Prudhoe Bay, Point Thompson, and--in Canada--from the 
MacKenzie River Delta. Alaska also has sizable deposits of precious 
metals and rare earth minerals (REMs) that could be exported via ship 
in the future. Right now, these projects would need no additional 
funding from Congress. But they will require Congressional and 
diplomatic support in the years ahead.
    Mr. Chairman, thank you for the opportunity to be here today. I am 
happy to answer any questions you may have. I would also be very 
pleased to provide additional information to committee members and 
staff at any time.

    Mr. Maloney. I thank the gentleman. Before we proceed to 
Members' questions--yes, I would ask unanimous consent that Mr. 
Graves of Louisiana be allowed to join the panel for the 
purposes of participating in today's hearing.
    Without objection.
    I now proceed to Members' questions and recognize myself 
for 5 minutes.
    Admiral Allen and Ms. Conley, I am interested in following 
up on your comments about asserting sovereignty in the Arctic. 
I take your point, Admiral, about, you know, you have 
sovereignty where you can assert it. What does that look like 
in the Arctic? And help us understand the gap between--I take 
it you don't think we can now. What does it look like?
    And the same question to you, Ms. Conley, or to any of the 
members of the panel.
    Admiral Allen. It kind of depends on where you sit. I have 
had a lot of conversation with my counterparts, especially the 
Chief of Naval Operations, when I was the Commandant. From a 
U.S. security standpoint and Navy missions, subsurface 
capability and capacity meets their mission set from where they 
sit.
    But as Admiral Ray was discussing, if you have an event in 
the Arctic and you don't have a platform there to operate from, 
command and control communications beyond what the current 
infrastructure is up there, you are not going to get it there 
in time to be meaningful or impactful. Therefore, in my view, 
in terms of nonsubmarine missions not related to DoD, right now 
I would say there is a lack of sovereignty in Alaska. And we 
need to be truthful about it.
    Mr. Maloney. And would the--same question to you, Ms. 
Conley, but please be specific, as well, I have read the 
recommendations from the report. Do those cover it? Are there 
other things that sovereignty looks like? Please give us your 
thoughts.
    Ms. Conley. Chairman, thank you so much. I mean what we are 
talking about is a whole-of-government approach. And what has 
been sort of unfair is that we have placed this burden on the 
Coast Guard because they are the leading force that provides 
that law enforcement, sovereign presence in the Arctic. But 
they are one important element of a wider array.
    We need a stronger diplomatic presence in all of the Arctic 
countries. We can put Russia aside for a moment because of the 
current challenges. This is exactly what Congressman Gallagher 
was saying about our presence in Greenland. We need a bigger 
science presence. Right now China is opening up scientific 
observatory centers. We are a science power in the Arctic. We 
need to increase our sovereign presence.
    But on this security nexus we need to think about 
increasing the forward-operating locations, not simply Kodiak, 
but additional--we need--what is concerning me about Admiral 
Ray's testimony is that so many of the assets he was talking 
about, I don't believe are really going to be destined for the 
Arctic. They are available, but they won't be there on a 
persistent presence, beyond just this season.
    Right now we practice in the summer season. We have to have 
a persistent permanent presence. This will take the Navy, quite 
frankly. The Navy's strategy, to me, was quite disappointing. 
It did not talk about ice-strengthened surface vessels. We got 
banged around in Trident Juncture in good weather. We need a 
surface fleet capable of a persistent presence. We need the 
helicopters. We need the communications. It is a plan, and we 
have to exercise that plan. So it is a whole-of-government 
strategy.
    Mr. Maloney. I appreciate that. Would you say a word on--
and again, to any of the panel--but on the deepwater port 
issue? Help me understand the challenges and needs, and related 
to what we just talked about.
    Ms. Conley. If I can just offer, we have to get out of the 
mode of studying, and doing. We study things in lieu of action.
    Mr. Maloney. Like, where are you going with this, Ms. 
Conley?
    Ms. Conley. We have to--and this is joining with the 
private sector, but we have to make the decision to do it. And 
I don't know how Congress can move that forward, but we are 
going to be 10 more years studying the matter, and we have to 
start doing it. And that is where this whole-of-government 
Arctic sovereignty initiative, where there is incentive by the 
Government to then help the private sector join in that 
cooperation. Then I will be quiet, I am sorry.
    Mr. Maloney. No, you are here to testify. So go ahead and 
testify.
    Yes, sir.
    Admiral Allen. Well, I see Mr. Graves is in the room, so 
maybe I will comment on how the Army Corps of Engineer scopes 
projects.
    [Laughter.]
    Admiral Allen. Maybe I am practicing law without a license, 
or out of my lane here, but their authorization language and 
their appropriation language stovepipes projects. I think what 
the colonel was trying to say, given the authorization they 
had, the report is going to detail what they can do.
    And getting back to Heather's comments, we need to be 
thinking about what is a whole-of-government response and what 
we are going to need up there in the future. And the 22 feet at 
Nome and what they can actually do, whether it is extending the 
pier or dredging, is not going to get us to a point where we 
will have the flexibility to bring the draft vessels we need in 
to give us extended presence up there.
    Mr. Maloney. Go ahead, sir.
    Mr. Treadwell. Thank you, Mr. Chairman. If you take a look 
at the Bering Strait, the Russians have got a beautiful port at 
Provideniya, just across the Bering Strait. We can't rely on 
that. We have a natural deepwater port at Port Clarence, and we 
have a port at Nome that is already doing work. Port Clarence 
needs a road, Nome needs dredging. Together you are talking 
about a system of ports which is about a $300 million problem. 
And if we can find $300 million we will do it.
    Now, one of the reasons why I talk about a system to 
generate revenue is if you go to Cold Bay, Alaska, a wide-body 
jet probably lands there once a year. But we keep it plowed all 
year. We keep it ready, because it is the one port of refuge 
for an aircraft going across the Pacific. We need to understand 
that if we can create a revenue source from this new Arctic 
traffic, we are going to be able have the money to come and pay 
for some of this infrastructure.
    Mr. Maloney. Thank you, sir.
    Mr. Gibbs?
    Mr. Gibbs. Thank you. I am very intrigued by the comments 
here.
    Admiral, you have been around a long time. You have seen 
the capabilities, what has happened from 10 years ago and what 
is happening. How satisfied or dissatisfied are you with regard 
to the growing Arctic capabilities versus the increased 
maritime activity in the Arctic and--in which the--over the 
Coast Guard's responsibilities? So can you just elaborate what 
you have seen? Are we making progress or not? How are we doing?
    Admiral Allen. Well, I hate to cover the same ground that 
Heather raised, but what happens is we have separated 
functional capability and mission by the authorizations and 
appropriations the individual agencies get, and neither of 
those, individually, by agency, are enough to address the 
comprehensive integrated approach you need in the Arctic.
    That is the reason this notion of a comprehensive campaign 
plan, or a larger view of the area up there, is probably going 
to be necessary. Because nobody can afford to have their 
budgets earmarked. Certainly, the Coast Guard is not going to 
want their budget earmarked to improve the Port of Nome. So 
everybody is going to be trying to optimize what they can 
within their jurisdiction and the capabilities required to 
execute their mission.
    The issue is if you add all those up they don't come up 
with a comprehensive integrated plan, and I think--and I would 
agree with Heather Conley, I think we are in alignment on 
this--that is what is called for.
    Mr. Gibbs. I guess to follow that a little bit, we had a 
lot of discussion about Nome. I kind of got the impression that 
is the only option, but then I hear about the challenges of 
getting the port deep enough. Are--is there other areas we 
should be looking at, even though there might not be a 
population? Is there other things, kind of looking outside the 
box, that maybe Nome is not the place to have it?
    Mr. Treadwell. Mr. Gibbs, through the chair, there is a 
natural deepwater port of refuge at Port Clarence, which is a 
fairly short road connection from Nome. If a road could go in 
that area where the Coast Guard had loran stations, where there 
is some power capability left behind, where it may be used to 
support a graphite mine is available. The proponents of that 
port and Nome are working together and look at this really as a 
system of ports. Because, you know, the people are in Nome, 
which--it may be better to work with both.
    But that deepwater port has been used since the 1840s by 
ships going in when they couldn't come into Nome, and there is 
an exposure. So there is a reason to work together with those 
ports.
    Mr. Gibbs. OK, and go ahead, Admiral. Oh, go ahead.
    Mr. Treadwell. And just one other thing. The admiral 
addressed the issue of the Corps of Engineers authorities. I 
did a lot of work on the Port Clarence-Nome issue over the last 
4 or 5 years, and the Corps--because there is no port now 
collecting revenue, they can expand a port but they can't 
really--the law doesn't contemplate frontier ports. It really 
needs to. They can't really look at the security issues that 
they need to look at, and that is a challenge for both Nome and 
Port Clarence.
    Mr. Gibbs. Now this other port, you say it is a deepwater 
port, naturally?
    Mr. Treadwell. Yes, sir.
    Mr. Gibbs. That is interesting. Admiral, did you----
    Admiral Allen. I would just add that you can build a 
deepwater port, but it may be more expensive to build a road to 
it. So you have to look at the entire system of surface rail, 
what is going on with permafrost, how do you actually construct 
an artery to get to the port. That is--this all has to be 
integrated.
    Mr. Gibbs. Now some of the questions or testimony you 
talked about in the Bering Strait, you know, especially China--
I think Ms. Conley talked about they want to do the transpolar 
route, which would shorten it, but you got to get through a lot 
more ice.
    How do we collect revenues? Did I hear somebody mention 
something about tariffs or a possibility--who was that?
    Yes?
    Mr. Treadwell. The Senate has a bill pending, Senate bill 
1177, which is called the SEAL Act, introduced by Senator 
Murkowski, Senator Sullivan, and Senator King from Maine. The 
bill essentially creates a Seaway Development Corporation, 
which is modeled on the legislation that created the St. 
Lawrence Seaway in your district. It sets up a system to go out 
and work with other nations to use the icebreaker capabilities 
across the Arctic--really, across the world--to offer a 
reliable service in the Arctic and to charge a tariff for it.
    Now, if you read the Secretary's speech in Finland the 
other day, he criticizes Russia for demanding a $500,000 or so 
tariff for use of the Northern Sea Route. That tariff is paid 
by people because the route does save the money and it saves 
them more than $500,000. The concept here is set it up 
voluntary, the insurance industry has set up a best practices 
forum at the Arctic Council, and set this up as a best 
practice, and see if you could collect some money.
    And I would just put it this way. The Suez Canal uses 
about--serves about 18,000 ships a year; 5 percent of that is 
900 ships; 900 ships paying $500,000 is $450 million a year, 
and that can cover the operational needs of a lot of 
icebreakers.
    And so the concept is to do what the United States did with 
St. Lawrence. We don't charge a tariff. The Canadians do, but 
we work together to have a seamless system. It is similar to 
the concept of Comsat, where we created the international 
satellite system, and to bring the world together to offer a 
seamless service.
    Mr. Gibbs. Just a quick one, Mr. Chairman--to do that, 
would you have to have a treaty or agreement with Russia for 
the Bering Strait?
    Mr. Treadwell. Well, I was one, Congressman, who worked to 
try to get this system the Coast Guard announced, where we have 
the traffic system with Russia in the Bering Strait, and I 
believe it is important that we cooperate with Russia. But one 
of the things this does is it develops a revenue source that 
helps us pay for the additional infrastructure we need.
    And you know, the Russians right now have the de facto 
monopoly on ship services in the Arctic. Their plans have been 
done by international consulting companies for something like a 
billion-dollar-a-year ship services market supporting ships 
going across the Arctic. And the U.S. is sitting on its hands. 
And that is why this legislation has been introduced.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Mr. Maloney. I thank the gentleman. Mrs. Miller?
    Mrs. Miller. Thank you, Mr. Chairman.
    Ms. Conley, in West Virginia our economy relies very 
heavily on international exports of our natural resources and 
manufacturing products. How does the lack of the American 
presence in the Arctic have negative consequences on our trade 
interests?
    Ms. Conley. Congresswoman, there are certainly economic 
opportunities that the Arctic presents in both shipping of and 
exporting goods, as well as what we call destinational 
shipping, which is countries that are going to the Arctic to 
get mineral and energy resources and taking them back to 
market. So I would argue for the citizens of West Virginia 
increasing safe and secure trade and transshipment is a--
potentially, a very positive development for U.S. economic 
growth.
    We are challenged by two things--and this gets back to the 
lack of ratification for the Law of the Sea Treaty. We cannot 
in the Arctic potentially mine the seabed because we are not 
signatories, and have not ratified it. And we cannot extend our 
Outer Continental Shelf because we aren't ratifying. These 
are--we are losing opportunities for economic investment in the 
Arctic region, which would benefit all American citizens. And 
we are not able to protect and ensure the safe and secure 
transit of those goods, either energy or exported goods, if we 
do not have the appropriate infrastructure to safely do it.
    Mrs. Miller. Well, that sort of answers my next question on 
what Congress could do to help alleviate the issue.
    Ms. Conley. So what is so important is that we understand 
the Arctic as a national imperative. I think many times, if we 
think about the Arctic, we may think about simply Alaska's 
needs for infrastructure. But this is a whole-of-nation effort. 
If we want to grow the American economy and jobs, we need to 
think of the Arctic as something enhancing our prosperity.
    But we also have to do it in a secure and stable way that 
protects America's exclusive economic zone, our Territorial 
waters, and our coastline. So it is sovereignty. It is 
enhancing American prosperity. But we can only do that with a 
much more emboldened presence in the Arctic. Our competitors 
understand the strategic value of the Arctic; we have forgotten 
it.
    Mrs. Miller. Thank you.
    Mr. Treadwell, a deepwater port in the Arctic is 
imperative, as you have mentioned, for American trade to 
compete in the region. What progress has been made to develop 
this port infrastructure? Have we done things to identify? And 
are we helping to facilitate doing such a thing?
    Mr. Treadwell. Well, the answer is we haven't done enough. 
And I will put it this way. There is a Port Clarence Council, 
which has been established to try to develop an economic plan 
for Port Clarence. It was established by Congress, and it set 
it up between the State of Alaska and the Bering Straits Native 
Corporation. And the Coast Guard and the Corps of Engineers 
have been cooperating with that council as they have done their 
work.
    The city of Nome has been working with the Corps of 
Engineers on applicability there for appropriations under the 
upcoming Water Act. The Congress has asked the military to look 
at the military needs for a port. And, you know, I will just 
say with some experience around here, that when you when you 
ask an agency to say what it needs, if it actually says what it 
needs then they are told to pay for it. So you are not exactly 
seeing everything that I hoped we would see with some of this 
legislation.
    But the fact is I believe there is enough on the record 
right now for Congress to find that it would be absurd for us 
to go into a brandnew ocean, newly accessible to the world, and 
not have a deepwater port of refuge, and not have a port which 
could have us play a role in assisting shipping and 
transshipping. And frankly, as we do that, not doing it with a 
way to have a tariff or some sort of revenue source to help pay 
for it.
    Mrs. Miller. Thank you. Mr. Chairman, I yield back my time.
    Mr. Maloney. I thank the gentlelady.
    Mr. Graves?
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Thank you all very much for being here to testify today. 
You are all familiar with the fact that in recent weeks we have 
finally awarded a contract for the first heavy icebreaker, the 
Polar Security Cutter, in decades. And we have awarded a 
contract for one. I think we were all of the understanding that 
that boat is likely going to be south.
    You compare our capabilities and assets to those of other 
Arctic nations, and even, to some degree, as you noted, non-
Arctic nations. We are getting blown away. Not even close to 
the capabilities those nations have, compared to the United 
States. Yet you have all noted the strategic importance of the 
Arctic to the United States.
    I am just curious. What is your opinion as to why the 
United States is so far behind other Arctic nations in regard 
to our capabilities and preparation for changing conditions in 
the Arctic, and even just capabilities in the Arctic?
    Ms. Conley. Well, it is a great question. I think we have 
forgotten how strategic the Arctic is. During the Second World 
War and the Cold War it was so strategic because it reduced the 
distances between the North Pacific and the North Atlantic. It 
was vital to protect the United States from Alaska. And then, 
at the end of the Cold War, we forgot that strategic 
imperative.
    Mr. Graves of Louisiana. OK, so we forgot. And let's say 
that is the excuse, that we just forgot. But then, when you see 
what some of these other countries are doing--and let's be 
candid, these aren't necessarily nations that are close allies 
of ours--why would that not raise our concerns, or at least 
curiosity?
    Ms. Conley. Because it didn't fit into our focus on the 
Middle East and the Indo-Pacific. As Admiral Allen said, I 
mean, this is about budgets. And anything that takes focus away 
from what we are driving towards is a distraction to budgets. 
And I think this is what our military services have really been 
wrestling with. They are articulating why the Arctic is 
important now, but no one is redirecting resources to that.
    So either they are not getting the signal from the top that 
we have to restructure our priorities, and we are going to have 
to make some hard choices. What they are saying is this is an 
issue, but we don't have either the--we are stretched on 
capabilities and readiness, or we don't have those resources. 
And our allies, though--excuse me--our adversaries, our peer 
competitors, understand the strategic importance and are using 
this time and space to build their capabilities.
    Admiral Allen. Yes, I am not going to sugarcoat this. For 
20 years high-level decisions about strategic presence in the 
Arctic and ice breaking have been relegated to mid-level 
bureaucrats in OMB. Let me repeat for the record, the Office of 
Management and Budget.
    Mr. Treadwell. Mr. Chairman, as somebody who was an 
official who often tangled with those OMB officials and was 
told I shouldn't say what needed to be said around here, I 
concur with the admiral.
    I am going to just give you an analogy. Anchorage, Alaska, 
is the fifth largest air cargo port in the world. I used to fly 
on KAL 007. And we tried to stay, obviously, as far away from 
Russian airspace, because when it didn't happen people were 
killed. A Member of Congress was killed. At the end of the Cold 
War a group of us worked very closely to try to establish the 
global aviation system.
    And if today you get on an airplane in Detroit and go to 
Shanghai, you are dropping pennies from heaven into the Russian 
Treasury. They collect over $500 million a year to pay for a 
global air traffic system. We collect it, it is used to support 
Essential Air Service. And we set up a revenue model, whether 
it was with taxes or fees, to help cover that global seamless 
system.
    Now I have had Commandants--not the ones that I am sitting 
next to--say, ``Well, I am not sure I want to charge for 
icebreaker services for the Coast Guard, because if somebody 
needs it and they are going to have to pay for it, they may not 
call me when they are needed, and lives could be lost.'' And I 
understand that. On the other hand, I will say this, that if 
you are going to use the Arctic Ocean and save 20 days' travel 
with a ship that might be carrying 15,000 containers, you can 
probably afford to drop $500,000 on a voyage, and it only takes 
a few hundred of those ships, one or two a day, to actually pay 
for the infrastructure we need.
    And so we need to think a little bit more creatively, and--
as we put together this proposal we met with parliamentary 
authorities, we met with civil authorities, we have met with 
shippers in Japan, Korea, China, Singapore, across Europe. Not 
everybody is aligned, but we did find this: All of them said, 
``We see the opportunity in the Arctic, but we are not going to 
use it until somebody has established reliability.''
    And we put--the admiral and I worked together on Arctic 
policy, the actual Arctic policy, the statement signed by 
President Bush in 2009, implemented by Obama, where we said we 
want an Arctic Ocean which is safe, secure, and reliable. And 
we have really dropped thinking about reliability now.
    So I can't tell you--I mean the Arctic is always out of 
sight, out of mind for people until they get--you know, until 
it is--until the weather report says you are getting cold air. 
But I will say this. It is--10,000 people today will cross the 
Arctic Ocean on aircraft, and we have got a way to pay for what 
we need for safety. We have to think about how to do that for 
shipping.
    Mr. Graves of Louisiana. Thank you.
    Mr. Maloney. I thank the gentleman. We now proceed to the 
second round of questions.
    I do understand Mr. Larsen to be en route. It wasn't my 
intention to go to a second round, but as a courtesy to Mr. 
Larsen we are going to prolong the torture a little bit longer, 
ladies and gentlemen.
    [Laughter.]
    Mr. Maloney. But I do very much appreciate the subject you 
are raising.
    Dr. Tingstad, would you like to get in on any of this? You 
have three very aggressive fellow witnesses today. I feel like 
you might have something to add to this conversation.
    Ms. Tingstad. I have actually been humbled and honored to 
sit back and watch the wonderful conversation happening here.
    But yes, and I would like to reflect momentarily on hard 
choices. You know, I thought that was a very astute question 
about, you know, what has happened, why are we not thinking of 
the Arctic more strategically, or why haven't we. And the U.S. 
has a lot of focus areas around the world, a lot of focus 
areas, domestically, as well. And there have been choices made 
to not invest in the Arctic, not focus on the Arctic. There was 
a lot of sea ice. And now that the rubber is meeting the road, 
it is time to start refocusing on the Arctic.
    I would like to bring to you, you know, all of our 
attention, as we have continued to do over the course of, I am 
sure, many of these types of testimonies and hearings, that the 
U.S. Coast Guard has an impressive array of statutory missions. 
And that is a Service that is already stretched very thin, 
doing missions all around the world. And to think of what might 
happen with some of these discrete incidents--it is the Coast 
Guard that I was talking about earlier--those discrete 
incidents and helping the U.S. enforce governance and 
sovereignty in the Arctic, it is the Coast Guard that is going 
to be the stuckee for that in many cases--with partners, 
naturally, international and domestic partners.
    But I just wanted to continue to raise that for the 
committee, that it is an important issue. There are hard 
choices to be made, but I am not--I don't want to speak from a 
position of authority on this, but I am not sure the Coast 
Guard is in a position to make any more hard choices about its 
resources if it needs to stretch them into a more active 
Arctic. So I wanted to leave the committee with that.
    Mr. Maloney. Thank you.
    Mr. Gibbs?
    Mr. Gibbs. I want to--just a thought--just a question. How 
far behind are we, compared to what Russia and China are doing, 
and the possibility of catching up if--you know, how fast do we 
need to act to catch up?
    When we talk about all the infrastructure, the 
communications, and the--all the icebreakers and everything, 
you know, how critical is this? I mean what do we got to do 
right away--I guess I am just challenging your minds here a 
little bit because I was delaying for Rick Larsen, but go 
ahead.
    Ms. Conley. My own estimate, we have lost a decade. And 
this gets back to when President Bush signed the National 
Security Presidential Directive in 2009, Admiral Allen's last 
act in the Oval Office. We stopped. We didn't pursue--Russia 
started including the Arctic in its military doctrine in 2007, 
2008. China built its first Arctic research station on Svalbard 
in 2004. So we have just lost a decade.
    It can't take this long to build an icebreaker, it can't 
take this long to decide on a deepwater port. We are now--you 
know, the more time we lose we will not be able to recover it. 
And I fear we are going to lose access because we will not be 
able to----
    Mr. Gibbs. Yes, but we are going to lose the commercial 
aspect of it, but I would also argue there is a national 
security aspect, correct?
    I yield back, thanks.
    Mr. Maloney. I thank the gentleman. Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman. You are all very kind 
to let me come back here and ask a few questions.
    And I want to first just say hello to Admiral Allen again, 
as well as to Mr. Treadwell. These two gentlemen have been here 
since--testifying on the Arctic since 2001, at least since I 
have been here. So thanks for having another hearing on the 
Arctic.
    So a couple of questions. First with Ms. Conley--and I know 
some of this has been asked, or some of this subject matter has 
been asked.
    But could you, through--you have testimony--answer the 
question. What are China's motivations regarding the increased 
Arctic presence?
    Ms. Conley. So, quite frankly, there is a strong desire for 
economic presence. First and foremost, energy resources, which 
is why they are now investing very strongly in the Yamal LNG 
project. And I think this will expand. So, energy.
    Secondly--and I don't think we should discount that it is 
the protein--fisheries are continuing to be very attractive for 
China's alternative sources.
    And then finally, shipping. This is an alternative to the 
Straits of Malacca, should those, for conflictual purposes, not 
be available to them. They see the opportunity of reducing 
transshipment by 30 percent, which is why the transpolar route 
is very important.
    Right now the Arctic is primarily energy. That will be the 
back-and-forth to Yamal. But every year, COSCO, the shipping 
company, tests a containership. The Northern Sea Route is too 
shallow for deep container traffic. That is what makes the 
transpolar route--and if you looked at the map, which is why 
Iceland is so vital to China's projection in the Arctic, 
because again they will need to use the Bering Strait. But you 
could see where potential port infrastructure in Iceland would 
then be a dispersant to both North America, as well as northern 
Europe, potentially.
    So the Chinese--their vision is to 2040, 2050. They are 
thinking that far ahead. They are seeing what is possible. They 
are looking for those opportunities. It may not work, but to 
have that length of projection of what you want, and to shape 
it to have access to fisheries, shipping, energy--at this point 
I don't foresee a military role, it is predominantly economic. 
But there will be dual-use capabilities.
    We have to remember that the U.S. missile defense 
architecture is in the Arctic, and Thule Air Force Base in 
Greenland, of course, and Fort Greely in Alaska, that could 
also be potentially compromised. So we have to think more long 
term on that.
    Mr. Larsen. And that gets to the next question. What should 
our motivations be in the Arctic? What should U.S. motivations 
be?
    Ms. Conley. This is about protecting the United States. It 
is about ensuring that we protect our territory, our airspace, 
our maritime capabilities, first and foremost.
    And then, secondly, we want to shape this region to make 
sure it is stable and prosperous, to make sure rules and norms 
are followed, that we have access to the high seas.
    And in order in order to do that, we have to increase our 
physical presence across the region, both terrestrial and 
maritime.
    [Slide]
    Mr. Larsen. Yes. So there is a map up. And if you look to 
the side you can see it. If you put on my glasses you can see 
it.
    [Laughter.]
    Mr. Larsen. You can barely see it without them. But it 
doesn't do a lot of justice to the issues here. And, Admiral 
Allen, maybe you could talk a little to that, but--since you 
have been chewing on this problem for a while.
    Off of the coast of the United States, it is just fairly 
open water. But if you go to Canada, I mean, it gives an 
impression of the land masses in northern Canada. But there is 
many more islands, and the same with Russia. It is not as 
unpopulated by islands and land as it comes across in the map. 
The point is that almost every country's Arctic is a different 
Arctic. And it is impacted by different weather, as well.
    So, in your time thinking about this, what challenges do 
each of those Arctics provide to those countries, compared to 
the challenges that we have with our Arctic? I am sorry I don't 
have a lot of time left. I won't keep the committee here long.
    Admiral Allen. Thank you, sir. Excellent question. First of 
all, let me associate myself with Ms. Conley's remarks. I 
support them completely. Let me just add a couple of things 
onto it.
    Each one of those routes is different because of the status 
of the waterways related to whether or not they're in 
international waters, internal waters, in Territorial sea, or, 
in the case of the Bering Straits, under the Law of the Sea 
Treaty that would be classified as a transit strait. A transit 
strait is a strait that connects two international bodies of 
water, and transit through there cannot be an inhibited.
    And when we talk about fees and tariffs, that is all 
possible, but there was a landmark case in the Torres Strait 
north of Australia, where they attempted to establish a 
pilotage charge. And there may be some conflicts moving ahead 
that have to be discussed, but it is not clear. There is a 
difference in the Canadian view of the Northwest Passage route 
versus our view. There are still claims on our boundary of the 
Beaufort Sea between the U.S. and Canada. And one of the 
reasons that the Russians can establish charges there is 
because internal waters--and they can make that mandatory, 
because it is not a transit strait.
    Mr. Larsen. Right.
    Admiral Allen. Was that helpful?
    Mr. Larsen. That is helpful. That is one of the 
differences.
    Did--Ms. Tingstad, do you have a----
    Ms. Tingstad. If I may, I had a followup.
    Mr. Larsen. Yes, sure, I guess.
    Mr. Chairman, is that all right?
    Mr. Maloney. Without objection.
    [Laughter.]
    Mr. Larsen. All right. Thank you for the extra time.
    Ms. Tingstad. Thank you.
    Mr. Maloney. That is the final question. Well, thank you 
all very much----
    Mr. Larsen. I am sorry, so just to follow up quickly----
    Mr. Maloney. The gentleman's time has expired.
    Mr. Larsen. It is up to you.
    Mr. Maloney. But without objection--go ahead, no. I thought 
you were going to submit it for the record, I am sorry. Did I 
misunderstand you?
    Ms. Tingstad. No, I----
    Mr. Maloney. Oh, forgive me.
    Ms. Tingstad. I just have a----
    Mr. Maloney. I am--no, I apologize. Go ahead.
    Ms. Tingstad. No, not at all, no.
    I wanted to add that, in terms of the differences in the in 
the Arctic, we should look forward to the changes that are 
occurring that are occurring differentially across the region. 
So those routes that we see here--I mean, those are lines for 
convenience, approximately where they would be, of course, but 
then there is also going to be a differential in how quickly 
those waters will be open, and for how long during the year.
    So, you know, we are looking at--actually, some studies 
have shown that that middle route across the center is actually 
going to be more frequently open for longer durations than the 
route that goes across the Northwest Passage--some long lying 
ice that is projected to stay out there for some time. Thank 
you.
    Mr. Maloney. Thank you, Dr. Tingstad, and forgive my 
clumsiness. I misunderstood your initial response.
    I want to thank our panel. Seeing no further questions from 
the Members, I ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing. And I have asked further unanimous consent that the 
record remain open for 15 days for any additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing.
    Without objection, so ordered.
    If no other Members have anything to add, with sincere 
thanks to all of you for your expertise, your service, your 
contribution today, your travel from far away, we very much 
appreciate your participation.
    And the subcommittee stands adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]



                                Appendix

                              ----------                              


 Questions from Hon. Sean Patrick Maloney for Admiral Charles W. Ray, 
                   Vice Commandant, U.S. Coast Guard

    Question 1. What intelligence assets does the Coast Guard need for 
Arctic MDA?
    Answer. As a member of the National Intelligence Community, the 
Coast Guard both contributes to and benefits from the capabilities of 
Intelligence Community partners. The Coast Guard must continue to 
improve information and intelligence collection in the Arctic, 
including support for the development and dissemination of collection 
requirements for Arctic marine conditions, climate, maritime safety, 
and security threats.
    Unlike Coast Guard Cutter Polar Star--our existing heavy polar 
icebreaker--the new Polar Security Cutters will include intelligence 
collection capability similar to that of our National Security Cutter 
fleet. Our National Security Cutters operate seasonally in the Arctic 
now, but the new Polar Security Cutters will provide more access in the 
polar regions, together with advanced maritime domain awareness 
capabilities.

    Question 2a. What are existing Coast Guard shoreside assets?
    Answer. Please see attachment.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Question 2b. Are they sufficient?
    Answer. The Coast Guard has made a significant investment and 
commitment to maintaining a robust presence in Alaska, as we continue 
to field new assets with modern capabilities and invest in adequate 
shoreside facilities to enable our front line operations.
    With approximately 10% of the Coast Guard's real property inventory 
located in Alaska and the vast distances between units in the region, 
sufficient funding to invest in new facility construction and 
maintaining our existing plant is critical. With the support of 
Congress, the Coast Guard received funding and is in the planning 
stages to build out waterfront and maintenance facilities to support 
delivery of six new Fast Response Cutters and two Offshore Patrol 
Cutters to Alaska.
    The Coast Guard was also funded to construct the first phase of 
housing to accommodate additional personnel and their families 
associated with new assets (i.e., OPC, FRC, HC-130J) being delivered to 
Kodiak. We are in the early stages of design work on those housing 
units now. Over the last few years, the Coast Guard also constructed a 
new hangar to support forward deployed helicopters in Cold Bay and new 
facilities to enable our transition from HC-130H aircraft to HC-130J 
aircraft in Kodiak.
    As reflected on the unfunded priorities list (UPL), one of the 
Coast Guard's priorities in Alaska remains an additional phase of new 
family housing in Kodiak.

    Question 2c. How do these bases interact with local community 
infrastructure?
    Answer. The Coast Guard's primary operational interaction with 
local communities in the Alaskan Arctic is through Operation ARCTIC 
SHIELD, a year-round planning and operational endeavor which provides 
mobile and scalable presence in the Arctic. Last year's operations 
yielded many successes. We executed nearly 20 search and rescue cases, 
resulting in over 35 lives saved or assisted, and educated over 3800 
local children on boating safety.
    Through extensive engagements with other federal, state, local, and 
tribal agencies, we performed mass rescue, oil spill, and ice rescue 
exercises; conducted search and rescue training; positioned assets 
during cruise ship transits; and performed safety and compliance 
examinations.
    These capacity-building collaborations would not be possible 
without leveraging the existing infrastructure in local Alaska 
communities as a force multiplier. For example, as part of that 
temporary footprint, this year we will again use ``Forward Operating 
Location Kotzebue,'' an Army National Guard hangar we've leased, as a 
staging base for rotary-wing assets to support our full suite of 
missions in the Arctic. Utilizing existing facilities whenever possible 
removes the need to construct, maintain, and staff permanent 
infrastructure in arduous and often remote areas.

   Questions from Hon. Rick Larsen for Admiral Charles W. Ray, Vice 
                      Commandant, U.S. Coast Guard

    Question 1. When the new icebreaker is delivered, how will you 
balance missions in the Arctic and Antarctic? Why is it so vital to 
have three heavy and three medium icebreakers?
    Answer. The High Latitude Mission Analysis Report determined that a 
minimum of six polar icebreakers, at least three of which need to be 
heavy icebreakers, are needed to provide year round assured access to 
the Arctic, and seasonal access to the Antarctic. Cutter capacity 
demand is driven by the seasonality of employment taking into account 
platform types, deployment lengths, and required post-deployment ship 
maintenance and replenishment time requirements. Missions for Polar 
Security Cutters (PSCs) will be determined by the operational need 
across the range of Coast Guard authorities and responsibilities, as 
well as the interagency needs of our federal government partners. 
Annual support of OPERATION DEEP FREEZE is planned to continue. Medium 
and heavy icebreakers will be used in the Arctic year round to provide 
presence and promote maritime safety, security, and stewardship.

    Question 2. What resources does the Coast Guard have to respond to 
an oil spill in the Arctic? Do you need additional resources?
    Answer. The Coast Guard serves as the Federal On-Scene Coordinator 
for oil spill response in the coastal zone of the United States. The 
Oil Pollution Act of 1990 requires owners or operators (plan holders) 
of certain oil-handling facilities and applicable tank vessels and non-
tank vessels to prepare and submit response plans to the Coast Guard. 
Commercially available response resources in the Arctic are critical 
and provide the primary response capability. Under Vessel and Facility 
Response Plan regulatory requirements, owners/operators must ensure 
personnel with adequate resources can respond to oil spills in the 
coastal waters of Alaska.
    The USCG conducts oil spill planning efforts through the National 
and Regional Response Teams (NRT and RRT) and Area Committees. Sector 
Juneau, Sector Anchorage, and Marine Safety Unit Valdez provide 
incident management personnel and expertise to mitigate and respond to 
oil spills. The Seventeenth Coast Guard District and its subordinate 
units maintain contingency plans that align with the National Oil and 
Hazardous Substances Pollution Contingency Plan (40 CFR Sec.  300) to 
strengthen response efforts within the state.
    While industry is the primary provider of oil spill response 
equipment, the Coast Guard's National Strike Force and other Deployable 
Specialized Forces are available to provide oil spill response 
expertise and have access to pre-positioned oil response equipment 
staged around the state of Alaska. This pre-positioned equipment 
includes 51 caches of pollution response equipment across eighteen 
local coastal communities to mitigate potential impacts to shorelines 
in the event of a spill.

    Question 3. Besides icebreaking, can you provide specific examples 
of other capability gaps in the region like weather forecasting, 
communications, aids to navigation, and ice forecasting? How do these 
gaps make operating in the Arctic different from operating in other 
U.S. territorial waters?
    Answer. In 2018, the Coast Guard sponsored research by the Homeland 
Security Operational Analysis Center/RAND Corporation into potential 
gaps in U.S. Arctic capabilities. This study gave an independent and 
objective analysis of the Coast Guard's current and future state to 
effectively conduct statutory missions in the Arctic. The study 
identified three potential gaps as well as a fourth gap that deals with 
how the Service addresses gaps.
    The first gap involves limitations in voice and data communications 
due to sparse infrastructure, vast distances, weather conditions, fewer 
satellites in the polar orbits, and atmospheric conditions in the high 
latitudes. The Coast Guard continues to work with the Department of 
Homeland Security in a whole-of-government effort to improve 
communications.
    The second gap noted by RAND is a lack of consistent awareness 
regarding threats and hazards, such as poorly chartered waters and the 
potential for fast-moving ice and low visibility. The Coast Guard 
continues to address lessons learned from Operation Arctic Shield to 
better identify threats and hazards in the region. Operation Arctic 
Shield also includes operational surges during peak activity periods 
and provides a mobile, scalable presence to reduce risk.
    The third gap noted in the study relates to challenges in incident 
response ability, due in part to the limited number of assets and 
ability to sustain operations once on scene. Some of the same 
communications limiting factors also impact these capacity issues. To 
optimize our response resources, the Coast Guard will continue 
Operation Arctic Shield to conduct mobile and scalable operations. We 
will also continue to collaborate with other federal, tribal, state, 
and local partners to improve maritime operations. The Coast Guard is 
also committed to supporting international forums such as the Arctic 
Coast Guard Forum to leverage the expertise and capabilities other 
Arctic nations can bring to bear during a response.
    Lastly, the RAND study noted an inability to effectively articulate 
Coast Guard needs and risks in the Arctic. In April 2019, the Coast 
Guard released an updated Arctic Strategic Outlook, which articulates 
the Service's long-term Arctic vision and describes the accelerating 
national security, economic, and environmental risks and opportunities 
in the region. The Strategic Outlook reaffirms the Coast Guard's 
commitment to American leadership in the region through partnership, 
unity of effort, and continuous innovation.

    Question 4. How will you ``strengthen partnerships'' when our 
Arctic partners are clear-eyed about climate change, but the U.S. is 
not?
    Answer. In accordance with the Coast Guard's 2019 Arctic Strategic 
Outlook, the Service partners with the other Arctic nations as well as 
other partners and allies with aligned Arctic interests and values to 
promote a conflict-free region where international law and respect for 
sovereignty are upheld.
    As part of our ongoing efforts to strengthen regional partnerships, 
the Coast Guard currently conducts extensive engagements with a broad 
portfolio of Arctic partners and stakeholders. These include: Operation 
Arctic Shield; regular interagency, intergovernmental, and 
international meetings; and routine international engagements such as 
through the Arctic Coast Guard Forum (ACGF) and non-governmental Arctic 
forums.
    The Coast Guard continues to assert leadership in the region by 
strengthening partnerships across the Arctic community of 
international, federal, tribal, state, and local agencies and 
stakeholders. The Coast Guard plays a leadership role in multilateral 
organizations focused on Arctic governance, such as the International 
Maritime Organization (IMO), as well as the operationally-focused ACGF. 
The Service also cooperates with Arctic allies and partners through 
combined operations and exercises to safeguard and secure the Arctic 
domain.

    Question 5. How does the Coast Guard plan to incorporate resiliency 
into plans for future ports and shoreside infrastructure in the Arctic? 
How will resilient infrastructure design impact the United States' 
presence in the region?
    Answer. As Coast Guard facilities and assets are planned for 
recapitalization, resiliency for natural disasters is factored into 
facility plans and designs. Additionally, Coast Guard shore 
infrastructure is constructed in accordance with international and 
local building codes when there are more stringent codes due to 
localized vulnerabilities such as natural disasters. The Coast Guard 
also incorporates operational readiness requirements (backup 
communications, logistic chains, etc.) into facilities through the 
planning, design, and construction processes.

    Question 6. How is the Coast Guard collaborating with indigenous 
groups in the U.S. Arctic to balance their sovereignty and subsistence 
hunting needs with the growing presence of large vessels?
    Answer. Alaska Natives have unique knowledge of the Arctic region 
that is of critical importance to those who work and operate there. The 
Coast Guard works closely with Alaska Native communities to better 
understand and serve the region. To facilitate this collaboration, 
Coast Guard liaisons meet regularly with Alaska Native communities, 
both locally and at Coast Guard Headquarters in Washington, DC.
    Each year during Operation Arctic Shield, the Coast Guard conducts 
training, education, and outreach to local communities. During Arctic 
Shield 2019, the Coast Guard participated in boating safety events 
throughout the Arctic region and hosted numerous community service 
events and tours of Coast Guard assets to increase awareness and 
information exchanges. The Coast Guard also provided ice rescue 
training and fishing vessel safety training prior to the Kotzebue 
salmon season. Additionally, the Coast Guard forward deployed two MH-60 
aircraft to Kotzebue to provide expanded search and rescue coverage, 
maritime domain awareness, and living marine resources operations.
    The Coast Guard also played a large role in forming the Arctic 
Waterway Safety Committee, one of approximately 300 harbor safety 
committees nationwide. These committees provide a forum to discuss 
local marine interests and act collectively to develop best practices 
for a safe, efficient, and predictable operating environment for all 
stakeholders. The Arctic Waterway Safety Committee charter includes 
voting members from all five subsistence co-management groups (i.e., 
Bowhead Whale, Walrus, Polar Bear, Ice Seal, and Beluga Whale). Active 
Coast Guard participation during these meetings fosters communication 
and understanding of areas of possible conflict with subsistence 
activities.
    Additionally, the Bering Strait Port Access Route Study, and 
resultant International Maritime Organization actions to establish 
voluntary two-way routes through the Straits, addressed, in part, 
sensitive coastal waters and the subsistence activities of local 
residents when identifying the safest transit routes for large vessels 
through the area. When completing this study, the Coast Guard conducted 
significant community engagement and received extensive input from 
local residents and their representative groups to identify their 
concerns and experience/knowledge in this area. The resulting 
guidelines will improve navigational safety while protecting breeding 
areas and nurseries vital to Arctic marine mammals and the traditional 
way of life for Alaska Natives, including subsistence hunting grounds.

 Question from Hon. Alan S. Lowenthal for Admiral Charles W. Ray, Vice 
                      Commandant, U.S. Coast Guard

    Question 1. What efforts are the Coast Guard making to assess 
current and predicted vessel traffic in the region and--if warranted--
recommend measures to improve maritime safety and environmental 
protection for Arctic species?
    Answer. The Coast Guard assesses Arctic vessel activity and trends 
through a variety of means. At the tactical level, the Coast Guard uses 
all source fusion intelligence, tracks, and databases to monitor vessel 
activity in the Arctic areas of interest. The Coast Guard derives this 
information from sources such as satellite and terrestrial Automatic 
Identification System data, exchanges with Canadian counterparts, open-
source research, and other classified means.
    Additionally, the Coast Guard assesses vessel traffic trends 
through area committee engagements. The Coast Guard played a key role 
in establishing, and is very active in, the Arctic Waterway Safety 
Committee, one of more than 300 harbor safety committees nationwide. 
The purpose of these committees is to bring together stakeholders and 
local marine interests within a single forum to discuss vessel traffic 
projections and implications from multiple perspectives. The Arctic 
Waterway Safety Committee also includes voting members from all five 
subsistence co-management groups (i.e., Bowhead Whale, Walrus, Polar 
Bear, Ice Seal, and Beluga Whale), which fosters communication and 
understanding of potential conflicts regarding subsistence activities.
    The Coast Guard also conducts Port Access Route Studies to assess 
and enhance navigational and environmental safety and--in the case of 
the Arctic region in particular--to reconcile the right of navigation 
with other waterway uses such as subsistence hunting and fishing. For 
example, the Coast Guard recently completed the Bering Strait Port 
Access Route Study. During this study, the Coast Guard engaged 
extensively with international, federal, tribal, state, and local 
leaders to better understand vessel traffic trends and other factors 
that may impact navigational safety. As a result of this study, the 
Coast Guard proposed six two-way routes and six precautionary areas in 
the Bering Sea and Bering Strait. Approved by the International 
Maritime Organization (IMO) and implemented in December 2018, these 
measures reduce the likelihood of maritime casualties such as 
collisions, oil discharges, and hazardous material releases which may 
threaten the marine environment, including many endangered species and 
remote indigenous communities that rely on traditional subsistence 
activities.

 Questions from Hon. Sean Patrick Maloney for Rear Admiral Shepard M. 
     Smith, Director, Office of Coast Survey, National Oceanic and 
                       Atmospheric Administration

    Question 1. What resources does NOAA have to model and predict ice 
movement, or the movement of oil spills in Arctic waters? Are these 
models sufficient for commercial use?
    Answer. The National Weather Services' Alaska Sea Ice Program 
(ASIP) produces ice analysis and other decision support services for 
customers and partners operating in the Bering Sea and Arctic Ocean. 
NOAA also operates the National Ice Center (NIC) in partnership with 
the U.S. Navy and the U.S. Coast Guard. The NIC provides global to 
tactical scale ice and snow products, ice forecasting, and other 
environmental intelligence services for the United States government. 
It coordinates closely with the Canadian government on ice-related 
activities.
    NOAA's Office of Response and Restoration provides oil spill 
modeling during coastal oil spills in support of the Federal On-Scene 
Coordinator, usually the U.S. Coast Guard. NOAA uses the General NOAA 
Operational Modeling Environment (GNOME) to predict oil movement and 
weathering in a wide range of situations including those with sea ice. 
GNOME incorporates the latest operational current models, ice models, 
wind models, and real time observations. NOAA then predicts oil 
behavior with GNOME. The GNOME tool and source code are freely 
available to the public and commercial sectors.
    NOAA enhances its ability to predict the movement of oil in ice by 
working with partners to ensure that as more predictive models become 
operational, they can be drawn into GNOME. Recently, NOAA has worked 
with the DOI Bureau of Safety and Environmental Enforcement, the 
National Fish and Wildlife Foundation, and the Department of Homeland 
Security Arctic Domain Awareness Center (ADAC). GNOME can now ingest 
the Navy's Global Operational Forecast System operational model, 
including ice variables.
    NOAA's oil and ice modeling capabilities have improved greatly over 
the past six years in order to be ready for anticipated increases in 
vessel traffic and the related risks to people and the environment. 
However, the services we provide rely heavily on the advancement of the 
entire observing and modeling community, including efforts and 
investments of other agencies such as the NASA, the National Science 
Foundation, and the Departments of Energy and Interior, and on the 
physical and chemical observations needed to validate the models. Some 
areas remain problematic. For example, observation of oil location and 
extent from satellite imagery is nearly impossible under a large area 
of continuous ice and even difficult in just ice infested water.

    Question 2. What unique conditions exist in the Arctic that 
complicate oil recovery? Do we have the resources to address those 
issues?
    Answer. The unique conditions that complicate oil recovery can be 
summed up by a 2014 National Academies of Science consensus report on 
the current state of science and engineering regarding oil spill 
response and Arctic marine environments: ``Arctic oil spill response is 
challenging because of extreme weather and environmental conditions; 
the lack of existing or sustained communications, logistical, and 
information infrastructure; significant geographic distances; and 
vulnerability of Arctic species, ecosystems, and cultures. A 
fundamental understanding of the dynamic Arctic region . . . is needed 
to help guide oil spill response and recovery efforts. Information on 
physical processes--including ocean circulation, ice cover, marine 
weather, and coastal processes--is important to frame the environmental 
context for the Arctic ecosystem and can help responders predict where 
oil will spread and how weathering might change its properties.'' 
(National Research Council 2014. Responding to Oil Spills in the U.S. 
Arctic Marine Environment.)
    NOAA works closely with other Federal agencies with statutory 
responsibilities, along with state and local partners, to leverage 
resources and capabilities in the event of oil spills. For instance, 
the Oil Pollution Act of 1990 requires owners or operators of certain 
oil-handling facilities and applicable tank vessels and non-tank 
vessels to prepare and submit oil and hazardous materials spill 
response plans to the Coast Guard.

  Questions from Hon. Rick Larsen for Rear Admiral Shepard M. Smith, 
  Director, Office of Coast Survey, National Oceanic and Atmospheric 
                             Administration

    Question 1. How will UAS improve NOAA's surveying and charting 
capabilities and what are the challenges of using UAS in the Arctic? 
Are you coordinating with the FAA?
    Answer. NOAA's Office of Coast Survey is currently developing small 
Unmanned Aircraft System (UAS) capabilities to augment our shoreline 
mapping efforts, where the speed and remote operation of UAS can 
increase the safety of acquiring data while providing a more 
comprehensive data product than what is currently collected from small 
boats. With UAS, we have the ability to create a shoreline terrain 
model, which is of particular interest in the Arctic for analysis of 
erosion and storm surge. In addition, NOAA's National Geodetic Survey 
is currently testing small UAS systems to facilitate the transition 
from research to operations.
    Large UAS systems (with medium altitude and long endurance) can 
also be very effective in remote areas such as Alaska and the Arctic, 
which would improve the efficiency of shoreline and photogrammetry 
surveys. They could also support lidar sensors for shallow water 
bathymetric mapping in coastal regions. However, many of these systems 
are not currently capable of ship based operation, precluding use in 
remote areas. This effort is coordinated with the FAA through NOAA's 
Office of Oceanic and Atmospheric Research UAS Program Office, and 
platform certification is performed in association with NOAA's Aircraft 
Operations Center under the Office of Marine and Aviation Operations 
(OMAO). OMAO provides trained UAS pilots and operational expertise to 
investigate new technologies and applications for UAS, and this year, 
OMAO is expanding those efforts with its new Unmanned Systems 
Operations Program. The new program provides centralized coordination, 
support and guidance for unmanned marine and aircraft systems across 
NOAA, evaluates emerging Unmanned Systems technologies, and determines 
where opportunities exist to cost-effectively carry out NOAA mission-
critical activities. The Unmanned Systems Operations Program's work 
will inform future acquisitions of UAS. Among the options, OMAO is 
investigating hybrid quadrotor unmanned aircraft that can be launched 
from ships and have longer endurance to meet a variety of NOAA 
missions, which has already been tested onboard NOAA ships.

    Question 2. Why is NOAA's work important to help indigenous and 
commercial mariners cooperatively operate in the Arctic?
    Answer. NOAA's work is important in assisting Native Alaskan 
communities because most rely on subsistence fishing and hunting of 
marine mammals, and changes in ice and vessel traffic are creating a 
direct impact to their way of life. As the Arctic ice continues to 
retreat, increased fishing and shipping will create a greater 
likelihood of conflict between commercial mariners and Native Alaskans. 
NOAA's service can provide data to inform decisions and reduce the 
potential for conflict.

    Question 3. What steps are you taking to address coastal and inland 
flooding in the Arctic? Is federal funding sufficient for these 
efforts? If not, what do you need?
    Answer. NOAA is working to improve its observation networks and 
forecasting capabilities to better predict coastal and inland flooding, 
and to improve decision support services to those in vulnerable remote 
Alaskan communities. One key factor in forecasting coastal flooding is 
accurately predicting sea ice, which has a dampening effect on waves.
    The National Ice Center (NIC), a partnership among NOAA, the U.S. 
Navy, and U.S. Coast Guard, provides sea ice assessments for the 
Arctic. The NIC uses data from NOAA JPSS and Geostationary Operational 
Environmental Satellites-West (GOES-West), Department of Defense (DoD) 
weather satellites, European and Japanese satellites, and purchased 
data from the commercial sector to support its mission. These data are 
provided directly to users in Alaska to support environmental 
monitoring and weather forecasts by the NWS. Data from these satellites 
will improve the timing and accuracy of weather and hazard forecasts 
out to seven days, including better predictions for fog, ice 
formations, coastal and inland flooding, and ice breaking in the 
Arctic.
    Moreover, NOAA is focusing on the science fundamentals to improve 
coupled water, ice, atmosphere models. Areas where further research and 
understanding are needed are the stable Arctic boundary layer, 
interactions between the oceans, ice, and atmosphere in the marginal 
ice zone, riverine impacts to ice, and troposphere-stratosphere 
interactions. These activities will improve NOAA's ability to forecast 
the weather, Arctic sea ice, and coastal and inland flooding.
    NOAA believes the level of funding committed to improving these 
capabilities is currently sufficient.

   Questions from Hon. Alan S. Lowenthal for Rear Admiral Shepard M. 
     Smith, Director, Office of Coast Survey, National Oceanic and 
                       Atmospheric Administration

    Question 1. What resources does NOAA have to model and predict ice 
movement, or the movement of oil spills in Arctic waters? Are these 
models sufficient for commercial use?
    Answer. See response to Maloney 1.

    Questions from Hon. Sean Patrick Maloney for Colonel Phillip J. 
   Borders, Commander, Alaska District, U.S. Army Corps of Engineers

    Question 1. What infrastructure is needed to support vessels 
operating in the Bering, Chukchi, and Beaufort seas?
    Answer. Response was not received at the time of publication.

    Question 2. What is the Army Corps experience working in the 
Arctic, and are engineers sufficiently trained to design adaptive 
infrastructure for a more dynamic Arctic environment?
    Answer. Response was not received at the time of publication.

    Questions from Hon. Rick Larsen for Colonel Phillip J. Borders, 
        Commander, Alaska District, U.S. Army Corps of Engineers

    Question 1. What steps are you taking to address coastal and inland 
flooding in the Arctic? Is federal funding sufficient for these 
efforts? If not, what do you need?
    Answer. Response was not received at the time of publication.

  Questions from Hon. Sean Patrick Maloney for Admiral Thad W. Allen, 
                        U.S. Coast Guard (Ret.)

    Question 1. Has the Administration's refusal to acknowledge climate 
change hindered our efforts in the Arctic?
    Answer. There is no singular view on climate change in the federal 
government so I would hesitate to use the term ``Administration.'' 
There are many subject matter experts throughout government that 
understand the science associated with climate change and are 
concerned, as we all should. There are also a number of high-ranking 
officials, many with no scientific or academic credentials that 
question global warming or climate change. Our inability to address 
long standing issues in the Arctic span administrations and political 
parties. Even when consensus is achieved in the Executive or 
Legislative Branches, creating and implementing policy or passing 
legislation has not been accomplished. As a result, the Arctic and the 
rest of the globe are paying the price for inaction. Finally, until 
recently there was institutionalized resistance in OBM to create and 
fund programs of record to address ice breaking needs, infrastructure 
improvements, and navigational improvements. We all collectively own 
the problem of climate change. But, because agency's authorities and 
jurisdictions are comingled as are authorization and appropriations 
responsibilities in the Congress, there is no single point of 
accountability. The situation is further complicated by state, local, 
and tribal interests which must be considered. While it is tempting to 
ascribe the current Administration's ``refusal to acknowledge climate 
change'' as the problem, short sided and myopic views that are 
political driven are neither the cause or the cure for needed change in 
the Arctic, they are just the latest reason by a number of 
``Administrations'' to do nothing. The current administration chose not 
to continue the Arctic Executive Steering Committee created in the 
previous administration and the Secretary of State spoke about 
shrinking sea ice as ``new opportunities for trade'' at an Arctic 
Council Ministerial. Disturbing? Yes--but so was 8 years of failing to 
fund icebreakers and defunding modernized LORAN in Alaska by the prior 
administration. It is time to stop admiring the problem and do 
something.

    Question 2. What role could port and maritime transportation 
infrastructure play in facilitating international cooperation and 
regional economic development?
    Answer. An Arctic deep-water port would provide logistics for 
shipping and a forward operating base to respond to incidents, stage 
patrols, refuel ships and aircraft, and improve navigation and 
communications. These capabilities and infrastructure would reduce the 
risks to maritime commerce and facilitate trade and other uses of an 
Arctic with greater access.

 Question from Hon. Alan S. Lowenthal for Admiral Thad W. Allen, U.S. 
                           Coast Guard (Ret.)

    Question 1. What types of oversight might reduce the likelihood of 
an oil spill in this region?
    Answer. First, let me be clear, there is no risk-free way to 
extract carbon fossil fuel from the earth. The level of oversight 
should be commensurate with the risk acceptance of the public and that 
varies by region. Assuming increased oil production will occur in the 
Arctic in the future, I would emphasize the basic points I made to the 
Congress and Presidential Commission following the Deepwater Horizon 
oil spill where I was the National Incident Commander.
    1.  There needs to be independent, third party inspection of 
drilling systems similar to inspections required for aircraft and 
vessels. Attempts to create such a system have been curtailed by the 
current administration. Industry standards created the systems in use 
on the Deepwater Horizon and they failed. This is beyond the 
Committee's jurisdiction and lies in oversight of the Department of 
Interior and the Bureau of Safety and Environmental Enforcement (BSEE).
    2.  Standby response equipment and well containment equipment must 
be available and deployable within a reasonable timeframe. Again, these 
standards will be driven by risk acceptance.
    3.  There are no forward operating bases or infrastructure to 
support a large-scale spill response in the Arctic. Until that 
infrastructure is in place deployable platforms like icebreakers must 
be available to establish presence, command and control, logistics, and 
air support.

 Questions from Hon. Anthony G. Brown for Admiral Thad W. Allen, U.S. 
                           Coast Guard (Ret.)

    Question 1. What infrastructure investments can we make now to 
lower the ``cost of doing business'' in the Arctic in the long-run?
    Answer. Investments should be focused on basic, enabling 
infrastructure that benefits multiple users and reflects broad 
stakeholder engagement, investments that create an enabling or 
multiplier effect for follow on investment. Included are ports, 
connecting highways and/or rail, communications, navigation systems, 
emergency response capability, weather observing, environmental 
sensing, and workforce development. This will require a balance of the 
art of the possible and what is needed in the long term. For example, 
deepening the Port of Nome is possible but may not achieve the long-
term depth needed for larger vessels to operate further north than 
current ports at Dutch Harbor and Kodiak. That said, a deep-waster port 
with no interior access via roads has limited capability. 
Communications, navigation and emergency services serve all communities 
and commercial activities.

    Question 2. What is a reasonable timetable to initiate broad 
infrastructure investments that will enable a ready Federal presence?
    Answer. The comprehensive, long term investment plan needed for the 
Arctic is an exercise in applied civics and governing that involves all 
stakeholders and, above all, a consensus. I do not believe the elements 
needed to create and execute that plan exist today. Successful efforts 
in the past (Apollo Space Program, South Pole Station and associated 
Antarctic infrastructure at Palmer Station and McMurdo Sound, 
intercontinental railroad, transatlantic telegraph) had three 
components: diverse stakeholders, consensus, and predictable funding. 
They also had a single, empowered entity to execute the plan. The Navy 
originally explored the Antarctic and built the South Pole Station in 
the 1950s. That program was ultimately transferred to the National 
Science Foundation where it has been stabilized and now operates under 
an effective long-term plan. Such a program could be a public-private 
venture or a regional authority (Port of NY/NJ). Thought could also be 
given to international agreements with regional partners. At any rate, 
I would recommend immediate focus be given to the governing structure 
that could create and implement the desired plan.

Questions from Hon. Sean Patrick Maloney for Heather A. Conley, Senior 
    Vice President for Europe, Eurasia, and the Arctic, Center for 
                  Strategic and International Studies

    Question 1. Has the Administration's refusal to acknowledge climate 
change hindered our efforts in the Arctic?
    Answer. Yes and no. Yes, it has harmed the U.S. in that, rather 
than lead the policy direction and course of the Arctic Council, last 
month we unnecessarily wasted political capital on preventing 
ministerial statements, making Russia and China look like environmental 
stewards, and further isolating the U.S. diplomatically. Thankfully, 
bipartisan support in Congress has allowed the United States to 
continue to fund its science activities in the polar regions but again, 
these activities are not directed to enhance and strengthen U.S. 
policies and decisions in the Arctic.
    No, whether you believe in climate change or not, this does not 
prevent the administration from taking decisions related to the safety, 
protection, and defense of U.S. territorial waters, its Exclusive 
Economic Zone, and its territory by ensuring the U.S. has the necessary 
icebreakers, maritime domain awareness assets, and deep-water ports to 
successfully manage the emergence of an increasingly ice-free Arctic 
Ocean.

    Question 2. What role could port and maritime transportation 
infrastructure play in facilitating international cooperation and 
regional economic development?
    Answer. As noted above, it will play a significant role. The Bering 
Strait will experience an uptick in maritime traffic, particularly bulk 
and LNG carriers. Without proper infrastructure, the risk of casualties 
or and environmental catastrophe grows, which could devastate U.S. 
waters and coastline and harm Alaska's economic potential. With 
enhanced infrastructure, Alaska can play an important role in the 
future of Arctic maritime transportation, particularly as vessels will 
increasingly use the Bering Straits to access either the Northern Sea 
Route (NSR) or the Transpolar route to connect markets in Northern 
Europe and Asia. This infrastructure will also help reduce IUU fishing 
activity in the Bering Sea and northern Pacific Ocean. A 2017 CSIS 
report titled, ``Maritime Futures: The Arctic and the Bering Strait 
Region,'' [https://csis-prod.s3.amazonaws.com/s3fs-public/publication/
171027_Conley_MaritimeFutures_Web.pdf?mHPGy0uKqRMcek
0zw6av5jI332MeELk5] further discusses the need for updated maritime 
infrastructure in greater detail.

  Questions from Hon. Rick Larsen for Heather A. Conley, Senior Vice 
President for Europe, Eurasia, and the Arctic, Center for Strategic and 
                         International Studies

    Question 1. Shifting the focus away from economic opportunity in a 
more accessible Arctic, can you speak to the global economic losses 
associated with climate change, from sea level rise, drought, 
instability, and natural disasters?
    Answer. It is difficult to calculate the global economic losses due 
to climate change. We only can attempt to calculate the costs of 
relocating cities and towns from America's coasts due to sea level rise 
from the massive calving of the Greenland Ice Sheet. Wildfires in the 
Arctic will increase smoke and particulate pollution in mid-latitude 
climates as the Arctic tundra dries, coupled with increased lightning 
strikes due to storm severity. There are also significant 
reconstruction costs for roads, railroad, pipelines, runways, and 
buildings constructed on rapidly melting permafrost in the Arctic. 
Permafrost thaw increases methane and C02 release into the atmosphere. 
Mid-latitude climates appear to be deeply impacted by the upward and 
downward lobes of a weakening jet stream which typically makes Alaska 
warmer in the winter and the continental U.S. colder, increasing home 
fuel costs. In the summer, this phenomenon reverses, causing more 
severe heat waves or cooling patterns depending on location. Finally, 
there are potential significant losses in ocean food sources due to 
ocean acidification and the increase in microplastics.

    Question 2. Are China's motivations for increasing Arctic presence 
strategic, economic, or both?
    Answer. Both. Strategically, Beijing wants to ensure that it has 
full access to Arctic resources (natural, mineral and protein 
resources) and cannot be denied access by the five Arctic coastal 
states. It wisely uses a variety of international organizations, like 
the Arctic Council, to shape the organization's agenda and influence 
its future course of development. As it works multilaterally, it 
enhances its economic weight bilaterally with Arctic states by 
investing in Arctic economies, funding key infrastructure (rail, ports, 
undersea cables), investing in scientific centers across the Arctic, 
and giving generously to indigenous populations. As a new region to 
develop and expand its Belt and Road Initiative (the so-called ``Polar 
Silk Road''), China views the Arctic as a future maritime transit route 
to European markets and alternative to the Straits of Malacca. It is 
particularly interested in rare earth minerals in Greenland and energy 
resources from the Yamal peninsula.

Question from Hon. Alan S. Lowenthal for Heather A. Conley, Senior Vice 
President for Europe, Eurasia, and the Arctic, Center for Strategic and 
                         International Studies

    Question 1. What types of oversight might reduce the likelihood of 
an oil spill in this region?
    Answer. To reduce the likelihood of an oil spill in the Arctic, it 
is essential that international energy companies employ the highest 
safety and regulatory standards possible when operating in the Arctic 
and that there is sufficient infrastructure and capabilities that can 
be deployed immediately alongside highly trained personnel in response 
to a spill. The U.S. Coast Guard does not have sufficient 
infrastructure and capabilities to meet this requirement. The Coast 
Guard should increase the number of its forward operating locations in 
Alaska as well as increase hangar space and aviation assets. 
Unfortunately, the U.S. Coast Guard currently relies on outdated 
capabilities and thinly resourced budget which equated to a seasonal 
presence (July-October). Congress should do more the make sure 
resources are properly allocated and priorities identified to improve 
overall U.S. presence and reduce the likelihood of incidents in the 
region.

Questions from Hon. Anthony G. Brown for Heather A. Conley, Senior Vice 
President for Europe, Eurasia, and the Arctic, Center for Strategic and 
                         International Studies

    Question 1. What infrastructure investments can we make now to 
lower the ``cost of doing business'' in the Arctic in the long-run?
    Answer. We must invest now in Arctic infrastructure to lower future 
costs and protect the American Arctic. This begins by enhancing U.S. 
icebreaking capabilities, increasing satellite coverage to support 
improved domain awareness, developing a deep-water port in the American 
Arctic, and increasing the number of Coast Guard forward operating 
locations in the Arctic that can be staffed year-round rather than only 
during the summer months. Congress should also insist that the U.S. 
Navy has ice-strengthened surface vessels in its fleet, increase the 
number of live search and rescue exercises in the American Arctic, and 
encourage public-private partnerships to help develop needed 
infrastructure. The 2017 CSIS report titled, ``Maritime Futures: The 
Arctic and the Bering Strait Region,'' [https://csis-
prod.s3.amazonaws.com/s3fs-public/publication/
171027_Conley_MaritimeFutures_
Web.pdf?mHPGy0uKqRMcek0zw6av5jI332MeELk5] further discusses these 
investments in greater detail.

    Question 2. What is a reasonable timetable to initiate broad 
infrastructure investments that will enable a ready Federal presence?
    Answer. This should have occurred a decade ago. The United States 
is late to need to defend its sovereignty in the Arctic. Other nations 
have pursued their ambitious agendas. Congress should articulate a 
multi-year budget to enhance U.S. capabilities in the Arctic beginning 
with modern and multi-use icebreaking capabilities, enhanced satellite 
communications, and a deep-water port. This ``bare minimum'' investment 
should allow the U.S. to protect its most essential interests in the 
Arctic.

Questions from Hon. Sean Patrick Maloney for Abbie Tingstad, Ph.D.,\1\ 
          Senior Physical Scientist, The RAND Corporation \2\
---------------------------------------------------------------------------

    \1\ The opinions and conclusions expressed in this addendum are the 
author's alone and should not be interpreted as representing those of 
the RAND Corporation or any of the sponsors of its research.
    \2\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.

Following the hearing on May 8, 2019, the congressional committee 
sought additional information and requested answers to the questions in 
this document. The answers were submitted for the record. An important 
caveat to the answers presented herein is that these do not address 
some of the major relevant policy and fiscal questions surrounding U.S. 
Arctic strategy that remain unanswered. The research that I discussed 
during the subcommittee hearing and that informs the answers to the 
questions posed below primarily addresses operational issues and the 
capabilities needed to address them. Therefore, the responses here do 
not constitute policy recommendations. I have followed the policy 
---------------------------------------------------------------------------
context in cases where the questions posed presume one.

    Question 1. Has the Administration's refusal to acknowledge climate 
change hindered our efforts in the Arctic?
    Answer. My research has not explicitly examined the current 
administration's positions on the Arctic. What I can say is that 
awareness of the Arctic and appreciation for the significance of 
climate change impacts (on sea ice especially but also, for example, on 
permafrost melt) among planners and operators concerned with the region 
appears to have endured (e.g., in the U.S. Coast Guard's and U.S. 
Navy's Arctic strategy documents), based on my continued engagement 
with this community. According to the analysis that my colleagues and I 
conducted on Arctic cooperation mechanisms, the Secretary of State's 
discussion of security issues at the May 2019 Arctic Council 
Ministerial Meeting in Rovaniemi, Finland, and the lack of a joint 
declaration at the conclusion of this event appear to be departures 
from the historical pattern of engagement at this venue.

    Question 2. What role could port and maritime transportation 
infrastructure play in facilitating international cooperation and 
regional economic development?
    Answer. Because of the confluence of change drivers, such as 
climate and economic opportunity, in the Arctic surface maritime 
environment, nation-states and other stakeholders (e.g., commercial 
companies, indigenous populations) may increasingly interact there. 
Port and maritime transportation infrastructure is needed to contribute 
to the region's economic growth, as well as to enable regional search 
and rescue, environmental response, and law enforcement activities. 
Without these support functions, Arctic economic growth will be 
limited, or the region will face high risks of experiencing safety, 
environmental hazards, or other significant incidents that could 
undermine prosperity. Port and maritime infrastructure will help 
operationalize international agreements (e.g., for search and rescue) 
and further enable opportunities for international economic partnering. 
Before making major infrastructure investment decisions, stakeholders 
should consider the possible political implications (e.g., Arctic 
populations' negative reactions to recent Chinese efforts to invest in 
their territories), as well as potential negative consequences to local 
communities.

Questions from Hon. Alan S. Lowenthal for Abbie Tingstad, Ph.D., Senior 
                Physical Scientist, The RAND Corporation

    Question 1. What types of oversight might reduce the likelihood of 
an oil spill in this region?
    Answer. Oil spills are not an explicit focus of my research. 
Generally speaking, however, stakeholders express concern about 
appropriately shaping regulations and enabling the enforcement of those 
regulations through organizing, training, and equipping the right 
people, particularly those with oversight responsibilities (e.g., 
personnel at the U.S. Coast Guard, the Department of the Interior, and 
the Environmental Protection Agency). International cooperation on oil 
spill prevention and mitigation through the auspices of the Arctic 
Council, construction of the Polar Code, and other means have been 
promising. In our research on potential U.S. Coast Guard Arctic gaps, 
we assessed that the following steps, among others, would better enable 
oil spill prevention and response:
    <bullet>  Review requirements for industry ``self-help'' or organic 
response mechanisms.
    <bullet>  Pre-position response supplies in local communities.
    <bullet>  Develop additional mechanisms to leverage autonomy.
    An additional area of concern is the lack of information about the 
potential for large spills in the region, the current capability and 
capacity among partners to remedy any spills, and the variety and 
severity of environmental impacts that large spills could have. Much 
remains to be learned about Arctic ecosystems and the environment.

    Question 2. What impacts will an increase in maritime traffic have 
on communities that subside on ocean mammals like bowhead whales?
    Answer. This is an important question for Arctic community 
resilience. My research has not looked at this issue. However, the 
immediate and higher-order impacts of maritime infrastructure 
development and traffic on ecosystems is undoubtedly a key 
consideration for future planning and an important area for continued 
discussion and research with international and other partners, given 
the high level of physical connectivity in the Arctic.

Questions from Hon. Anthony G. Brown for Abbie Tingstad, Ph.D., Senior 
                Physical Scientist, The RAND Corporation

    Question 1. What infrastructure investments can we make now to 
lower the ``cost of doing business'' in the Arctic in the long-run?
    Answer. From the perspective of enhancing Arctic safety, security, 
and stewardship, key investments must be made in redundant Arctic 
communications (voice, data), domain awareness (via space, air, ground, 
maritime surface, maritime subsurface, and cyber), and response 
capability (including immediate on-scene capability, as well as longer-
term sustainment of operations). The types of capabilities that might 
be useful to a future U.S. Coast Guard operating in the Arctic include 
the following:
    <bullet>  installing additional communications infrastructure and 
leveraging the growing number of commercial communications satellites 
in polar orbits
    <bullet>  exercising communications tactics, techniques, and 
procedures to train servicemembers in overcoming decisionmaking 
challenges associated with attenuated communications channels
    <bullet>  investing in remotely controlled air, sea, and amphibious 
craft for providing persistent wide-area surveillance, especially if 
these assets are networked together and to sensors on other assets to 
provide a common operating picture
    <bullet>  updating data-gathering and database construction 
processes to enhance the role of automation and thus improve data 
quality, make data accessible, and fuse information into a common 
operating picture
    <bullet>  developing operating concepts, plans, and investment 
strategies that recognize the need for agile, first-response assets; 
infrastructure; and logistics to sustain longer-term operations and 
conduct heavy lifting
    <bullet>  investigating remotely controlled airlift and oil-spill 
response capability
    <bullet>  adding small-boat landing capability to icebreakers
    <bullet>  increasing the number of forward operating locations and 
resources, including local and mobile elements pre-positioning key 
response items in partner communities
    <bullet>  enforcing new industry self-help regulations.

    Question 2. What is a reasonable timetable to initiate broad 
infrastructure investments that will enable a ready Federal presence?
    Answer. There is urgency for better enabling inherently intertwined 
safety, security, and stewardship activities in the Arctic. A big 
concern is that it will take one or more major disasters to motivate 
needed capability investments in communications, domain awareness, and 
response. Furthermore, many helpful assets (e.g., satellite 
communications, visualization tools, helicopters, trained personnel) 
can, in theory, be obtained or developed in the near term. Thus, 
certain investments can and should be made in the near term before a 
disaster occurs. There are several factors other than capability level 
to consider. Two of the most important include implications for 
indigenous and other local activities and the messaging to 
international stakeholders (e.g., to avoid the perception of an 
aggressive buildup of military capabilities that might elevate 
geopolitical tensions, which would be counterproductive to safety, 
security, and stewardship goals).
    Uncertainty in the speed and precise nature of Arctic physical 
environment, economic, and other changes makes it difficult to assign 
precise investment timetables. However, it is important to be mindful 
of the multi-year process for bringing these types of investments to 
the point of providing utility for operations. Starting sooner rather 
than later will help avoid a reactive rather than proactive response to 
Arctic change.

   Questions from Hon. Sean Patrick Maloney for Hon. Mead Treadwell, 
            Cochair, Polar Institute, Woodrow Wilson Center

    Question 1. Has the Administration's refusal to acknowledge climate 
change hindered our efforts in the Arctic?
    Answer. Since 2017, the Trump Administration has been an active 
participant at the Arctic Council. The eight nations of the Arctic have 
continued--with U.S. leadership--to advance working group projects and 
coordinate measures to protect the ecosystems of the north. Included in 
that ongoing activity are efforts to eliminate methane releases and 
black carbon emissions, both of which are short term forcers of sea ice 
retreat in the north (President Trump and the President of Finland 
spoke personally about these issues at several meetings, including as 
recently as October 2019).
    The size of the U.S. Arctic delegation has not decreased, and the 
U.S. remains committed to collaboration and engagement with member 
nations and observers. For example, in 2017 the U.S. hosted the 10th 
Ministerial in Fairbanks and signed the Fairbanks Declaration, which 
acknowledged climate change in the region and created a best-practices 
working group for Arctic shipping within PAME; in 2018, it negotiated 
and signed the Agreement to Prevent Unregulated High Seas Fisheries in 
the Central Arctic Ocean.
    As the Administration reconciles U.S. Arctic policy with the 
National Security Strategy (NSS)/National Defense Strategy (NDS), I 
assess the U.S. will remain committed to upholding a stable regional 
order in the Arctic over the long-run.

    Question 2. What role could port and maritime transportation 
infrastructure play in facilitating international cooperation and 
regional economic development?
    Answer. Other nations in the Arctic, specifically Russia but also 
Finland, Norway, and Iceland, have spent billions of dollars over the 
last twenty-five to fifty years building ports and maritime 
transportation systems in their Arctic waters. The U.S. has lagged 
behind. Now, we lack the capabilities needed to sustain a robust 
presence in the region. This harms our interests in three ways.
    First, it poses a direct threat to personal safety in the region. 
Without ports, airports, roads, and other critical infrastructure, 
search and rescue, law enforcement, and commercial services cannot 
operate as they do elsewhere in the U.S.
    Second, it undercuts diplomatic efforts to advance U.S. interests 
in the region. With its limited presence in the Arctic, the U.S. lacks 
the civil, political, economic, or military power and influence it 
exerts elsewhere.
    And third, it invites challenges to U.S. influence and to the 
influence of the other seven Arctic states by outside powers, 
specifically China.
    By investing in critical maritime transportation infrastructure 
over the next one to three years, Congress would send a message not 
only to our friends in the Arctic but to the world at large that the 
U.S. is committed to securing its own backyard.

Question from Hon. Alan S. Lowenthal for Hon. Mead Treadwell, Cochair, 
                 Polar Institute, Woodrow Wilson Center

    Question 1. What types of oversight might reduce the likelihood of 
an oil spill in this region?
    Answer. Congress should look at whether the Alternative Plans of 
Compliance (APC) provisions of OPA90, only recently put into effect, 
are sufficient to meet spill prevention risks. Congress should also 
review the series of studies that followed the 2004 Selendang Ayu 
disaster, particularly the Aleutian Island Risk Assessment published in 
February 2015. It is time for a better, fee-based spill prevention and 
response system in the Aleutians, Bering, and Arctic Regions, and for 
more robust tug and icebreaker capacity.
    Additionally, Congress must ensure the Department of Homeland 
Security (DHS), the Coast Guard (USCG), and the National Oceanic and 
Atmospheric Administration (NOAA) have the resources required to 
enforce vessel compliance with the International Maritime 
Organization's Polar Code, as mandated by the International Convention 
for the Safety of Life at Sea (SOLAS) and the International Convention 
for the Prevention of Pollution from Ships (MARPOL).
    To do so, USCG will need to field and sustain an active presence in 
the region. That will require more than one new polar security cutter. 
Congress should also increase funding for the Alaska Ocean Observing 
System (AOOS), an affiliate program of NOAA's Integrated Ocean 
Observing System (IOOS), so that it can install the equipment needed to 
ensure safe navigation and maritime operations in the region. This 
equipment includes high-frequency radars and power modules, X-band 
radars for monitoring sea ice, wave and ice buoys, AIS stations, and 
other ecosystem monitoring devices.

Questions from Hon. Anthony G. Brown for Hon. Mead Treadwell, Cochair, 
                 Polar Institute, Woodrow Wilson Center

    Question 1. What infrastructure investments can we make now to 
lower the ``cost of doing business'' in the Arctic in the long-run?
    Answer. Investing in Arctic infrastructure today is critical to 
developing a maritime transportation system that generates revenues in 
the future. To get the ball rolling, Congress should take a strategic 
approach. Public funds should be allocated for what might be called 
Tier 1 projects--deep draft ports, airports, icebreakers, and roads--
while a mixture of public and private funds are used for Tier Two 
projects--shoreside facilities, fuel bunkering, communications 
equipment, etc. In this way, public funds are used to construct the 
``skeleton'' of infrastructure--the large, expensive projects that 
often have complex permitting, design, and construction requirements--
while private funds fill in the gaps. To encourage private investment, 
Congress should recognize the ``developing'' nature of the Arctic and 
offer tax and other financial incentives for investors and businesses 
that choose to invest in the region.

    Question 2. What is a reasonable timetable to initiate broad 
infrastructure investments that will enable a ready Federal presence?
    Answer. One to three years. If Congress waits any longer, it will 
bear the cost of doing nothing.

                                    
</pre></body></html>
